Office of Inspector General
Semiannual Report to Congress
October 1, 2012 — March 31, 2013
Mission Statement




            T  he mission of the U.S. Postal Service Office of Inspector General is
               to conduct and supervise objective and independent audits, reviews,
            and investigations relating to Postal Service programs and operations to:
             Preventand detect fraud, theft, and misconduct;
             Promote economy, efficiency, and effectiveness;
             Promote program integrity; and

            Keep the Governors, Congress, and Postal Service management
            informed of problems, deficiencies, and corresponding corrective actions.
A message from the Inspector General



The Office of Inspector General (OIG) — with the support of the Governors, Congress, and U.S. Postal Service
management — plays a key role in maintaining the integrity and accountability of America’s postal service, its
revenue and assets, and its employees through our audit and investigative work.

This report, submitted pursuant to the Inspector General Act, outlines our work and activities for the 6-month period
ending March 31, 2013. In the first section of this issue, we highlight audits and reviews that address the Postal
Service’s goals of improving service, generating net income, and improving the workforce and workplace. We also
include work that reviewed Postal Service efforts in meeting regulatory requirements and reporting obligations. The
second section highlights investigations conducted during this reporting period that contributed to safeguarding the
Postal Service’s revenue and assets and helped deter postal crimes.

Postal Service executives often work closely with their OIG counterparts to identify problems and collaborate on
solutions. These efforts have resulted in significant savings opportunities. During this period, we issued 92 audit
reports, management advisories, and PARIS risk models, and the Postal Service accepted 92 percent (60 of 65) of
the OIG’s significant recommendations.

In addition, we conducted 1,656 investigations that led to 260 arrests and nearly $2 billion in fines, restitutions,
and recoveries, of which $72 million went to the Postal Service. Notably in this reporting period, the Postal Service
received $40 million from a criminal fine paid by a pharmaceutical company as part of a major healthcare fraud
settlement. The OIG helped investigate this case, along with other agencies.

We have engaged stakeholders through our blog, Audit Project Pages, other social media outlets, and through
roundtable discussions of reports, which encourage direct feedback and also promote transparency and
accountability. We continue to rely on data modeling tools and analytics to focus our efforts on high-risk areas of
the Postal Service to produce valuable work. These tools help us find the root causes of weaknesses in postal
operations, and to offer solutions.

I look forward to working with the Governors, Congress, and Postal Service management as we address
the challenges ahead.




David C. Williams
Inspector General
Summary of Performance
October 1, 2012 — March 31, 2013


   AUDITS
   Reports issued                                                                                                                            92
   Significant recommendations issued                                                                                                        65
   Total reports with financial impact                                                                                                       15
        Funds put to better use                                                                                                     $266,601,430
        Questioned costs                                                                                                           $386,239,273
        Revenue Impact                                                                                                              $103,345,727
   TOTAL                                                                                                                          $756,186,430


   INVESTIGATIONS 1
   Investigations Completed                                                                                                                1,693
   Arrests                                                                                                                                  260
   Indictments/Informations                                                                                                                 178
   Convictions/pretrial diversions 2                                                                                                        299
   Administrative actions                                                                                                                   860
   Cost Avoidance                                                                                                                   $225,278,052
   Fines, Restitution, and Recoveries                                                                                             $2,016,953,988
         Amount to the Postal Service             3
                                                                                                                                     $72,434,428


   OIG HOTLINE CONTACTS
   Telephone calls                                                                                                                        33,257
   E-Mail                                                                                                                                 24,645
   Standard Mail                                                                                                                            815
   Voice Mail Messages                                                                                                                      456
   Facsimile — FAX                                                                                                                          243
   National Law Enforcement Communications Center                                                                                           279
   TOTAL CONTACTS                                                                                                                       59,695

   1
       Statistics include joint investigations with other law enforcement agencies.
   2
       Convictions reported in this period may be related to arrests in prior reporting periods.
   3
       Amounts include case results of joint investigations with other OIG, federal, state, and local law enforcement entities.
TABLE OF CONTENTS
INTRODUCTION	
                               Introduction............................................................................................................................................................................... 2
                               Office of Audit: Advertising Program Needs Better Monitoring........................................................................................................ 3
                               Office of Investigations: Abbott Laboratories Pays $40 Million to Postal Service.............................................................................. 3




OFFICE OF AUDIT	
                               Audit Work by Strategic Goals..................................................................................................................................................... 4
                               Provide High-Quality Service....................................................................................................................................................... 4
                               Generate Net Income................................................................................................................................................................. 5
                               Improve Workplace and Workforce............................................................................................................................................ 10
                               Corporate Responsibility........................................................................................................................................................... 12

OFFICE OF INVESTIGATIONS	
                   Financial Fraud.........................................................................................................................................................................14
                   Healthcare Fraud......................................................................................................................................................................15
                   Mail Theft.................................................................................................................................................................................17
                   Official Misconduct...................................................................................................................................................................18
                   Contract Fraud..........................................................................................................................................................................19

SPECIAL FEATURES	
                               Best Value in the Purchasing Process.......................................................................................................................................... 5
                               Federal Shipping........................................................................................................................................................................ 6
                               Postal Service Financial Condition............................................................................................................................................... 7
                               Financial Audits......................................................................................................................................................................... 8
                               Causes of the Postal Service FERS Surplus and Causes of the Postal Service FERS Surplus – Update............................................. 9
                               Lessons Learned from Mail Processing Network Rationalization Initiatives;
                               and Lessons Learned from Retail Network Optimization Initiatives............................................................................................... 11
                               Controls to Detect Money Order Fraud....................................................................................................................................... 13
                               Major Fraud Investigations Division........................................................................................................................................... 19

APPENDICES	
                               APPENDIX A — Reports Issued to Postal Service Management.................................................................................................. 20
                                            Reports with Quantifiable Potential Monetary Benefits....................................................................................... 21
                                            Report Listing................................................................................................................................................. 22
                               APPENDIX B — Findings of Questioned Costs........................................................................................................................... 25
                               APPENDIX C — Recommendations That Funds Be Put to Better Use.......................................................................................... 26
                               APPENDIX D — Other Impacts................................................................................................................................................. 27
                               APPENDIX E — Reports with Significant Recommendations Pending Corrective Actions............................................................... 29
                               APPENDIX F — Significant Management Decisions in Audit Resolution....................................................................................... 48
                               APPENDIX G — Status of Peer Review Recommendations......................................................................................................... 48
                               APPENDIX H — Investigative Statistics..................................................................................................................................... 49
                               APPENDIX I — Summary of U.S. Postal Inspection Service Investigative Activities Under Title 39 USC § 3005 & 3007................. 50
                               APPENDIX J — Closed Congressional and Board of Governors’ Inquiries.................................................................................... 51

SUPPLEMENTAL INFORMATION	
                 Freedom of Information Act...................................................................................................................................................... 57
                 Workplace Environment........................................................................................................................................................... 57
                 Acronym Guide........................................................................................................................................................................ 58
                   Introduction
                   The OIG is expected to ensure efficiency, accountability, and integrity in the Postal
                   Service. We also have the distinct mission of helping to maintain confidence in the
                   mail and the postal system, as well as to improve the Postal Service’s bottom line. The
                   OIG uses audits and investigations to help protect the integrity of the Postal Service,
                   an important part of the Postal Service’s value. On the next page we feature an audit
                   and investigation from the reporting period that highlight the work we do to fulfill
                   our mission.
   Investigation
   Introduction
Office of
                                                                                                                                                         INTRODUCTION




Office of Audit: Advertising Program Needs Better Monitoring

O    ur audit report found that the Postal Service did not adequately monitor its two largest advertising
     contracts, threatening the effectiveness and integrity of its advertising program. The Postal Service
did not clearly define or understand the roles and responsibilities of the primary team members for
its major advertising contractors, to whom it paid $10 million in fiscal year (FY) 2011. The Postal
Service paid $631,712 in questionable bonuses to the contractors in FYs 2011 and 2012, and did
not sufficiently track or allocate certain advertising costs, nor did it comply with internal controls for
certifying and retaining advertising invoices.

Senior management expressed concern over these contracts during our audit and allowed the major
advertising contract to expire. They have taken significant steps to restructure advertising contract
processes for consistency with current industry practices and to maximize the effectiveness of the
Postal Service’s advertising investments. We recommended the Postal Service establish a clearly
defined process to evaluate contractors; and appropriately review, certify, and maintain invoices. We
also recommended the agency track contractor labor costs and appropriately allocate advertising
costs.

Management stated that the new competitive advertising contracts will not contain incentive fee
payments and, through renegotiations and modifications, they removed the incentive payment option
from the one remaining legacy contract. Management also plans to develop a new internal process
for properly reviewing, certifying, and maintaining invoices. New contracting officer’s representatives
(CORs) will be instructed on these processes, and they are taking COR and ethics training.
Management also plans to perform periodic reviews to ensure compliance, while Marketing and Sales
officials plan to develop and communicate an internal process for certifying invoices. Management
determined that the current tracking system captures labor costs so they are developing a custom
report that will show these costs. Management is also assessing the current tracking system to
determine the associated costs and feasibility of allocating costs to specific advertising campaigns.




Office of Investigations: Abbott Laboratories Pays $40 Million
to Postal Service                                                                                              An OIG audit found the Postal Service did not adequately

T   he OIG’s participation in the investigation of Abbott Laboratories and its unlawful promotion of its       monitor its two largest advertising contracts. Above, an
                                                                                                               image from the Postal Service’s popular Priority Mail Flat
    prescription drug Depakote contributed to the Postal Service receiving $40 million in criminal fines       Rate advertising campaign.
against the company. The Postal Service received the fine payment in this reporting period. Abbott
Laboratories agreed to pay the government $1.5 billion to resolve its criminal and civil liability arising
from the company’s unlawful promotion of Depakote for uses not approved as safe and effective by the
Food and Drug Administration (FDA). Abbott admitted it maintained a specialized sales force trained
to market Depakote in nursing homes for the control of agitation and aggression in elderly dementia
patients, despite the absence of credible scientific evidence that Depakote was safe and effective for
that use.

The investigation revealed the company had defrauded the Postal Service of about $1.1 million through
insurance reimbursements to recipients of Office of Workers’ Compensation Program benefits. In
addition to the criminal fines, $1.1 million in restitution is pending within a civil settlement between the
Postal Service and Abbott Laboratories.



(Left) The Postal Service received $40 million in a criminal fine payment from Abbott Laboratories as
part of the company’s settlement of charges that it unlawfully promoted its prescription drug Depakote.
The OIG participated in a joint investigation with other federal agencies, which revealed that the company
had defrauded the Postal Service through insurance reimbursements to recipients of Office of Workers’
Compensation Program benefits.



October 1, 2012 — March 31, 2013                                                                                                                                            3
            Management Response
            to Audit Work
            OA adheres to professional audit
            standards and generally presents
            its audit work to management for
            comments prior to issuing a final
            report. Unless otherwise noted in
            the selected audit work discussed
            in this report, management has
            agreed or partially agreed with our
            recommendations and is taking or
            has already taken corrective action
            to address the issues raised.




                                                  Customer feedback prompted an audit on the fall mailing season, which found that excessive mail transport
                                                  equipment at a processing facility caused congestion on the floor and added to mail delays because the mail could
                                                  not be properly staged for processing.


                                                  SIGNIFICANT AUDIT WORK BY STRATEGIC GOALS
                                                  In this section, the Office of Audit (OA) assesses the Postal Service’s progress toward
                                                  the strategic goals articulated in Progress and Performance – FY 2012 Annual
                                                  Report to Congress and Comprehensive Statement on Postal Operations. The Postal
                                                  Service publishes several reports that respond to different legislative requirements,
                                                  which provide stakeholders with an accounting of their activities and results. We
                                                  have aligned our work with the general goals the Postal Service has set out in the
                                                  annual report.

                                                  GOAL 1: PROVIDE HIGH-QUALITY SERVICE
                                                  The Postal Service’s priority is to provide timely, reliable delivery and improved customer service
                                                  across all access points. Specifically, it is focusing on the quality and consistency of service
                                                  as well as the speed and reliability of end-to-end mail delivery for all product lines.

                                                  Data Usage in Retail Operations                           same information. It is important that managers
                                                  With 11 systems/models in its retail operations that      have pertinent data, systems, and reports to
                                                  contain hundreds of data elements and generate            manage operations and make informed and
                                                  250 reports, the Postal Service has a substantial         timely decisions. We recommended management
                                                  amount of information to manage. We found that            identify data systems, and reports that meet the
                                                  some managers did not know how to use these               needs of managers in customer service operations
                                                  system models and data. Further, 10 prior OIG and         and provide training to managers on accessing
   Audit




                                                  Government Accountability Office reports describe         and using reports. Management stated they will
                                                  numerous data usage, availability, and accuracy           collaborate with area officials to ensure compliance
                                                  issues involving retail operations. These concerns        with this recommendation. They also plan to
                                                  arose because Postal Service officials had not            provide training as needed to customer service
                                                  developed and implemented a strategy to identify          managers on accessing and using reports.
                                                  key retail data, systems, and reports for managers
                                                  in customer service operations. Furthermore,              Fall Mailing Season: Customer
Office of




                                                  some managers did not receive training or found           Service Feedback
                                                  training to be ineffective, experienced difficulty        The OIG received customer service feedback
                                                  locating Retail Data Mart reports, or accessed and        during a review of the Postal Service’s preparation
                                                  used other retail systems and reports that they           for the FY 2013 fall mailing season, which we
                                                  indicated were more user friendly and provided the        wanted to immediately bring to the attention
                                                                                                                     GOAL 1: PROVIDE HIGH-QUALITY SERVICE
of the Postal Service. Generally, the Postal             experience, measure experiences at other access
Service’s performance is challenged in the fall          channels, develop a strategy for implementing
due to higher-than-normal Standard Mail volume           corrective actions in a timely and responsive
because of increases in advertising for back-to-         manner, and ensure monitoring of residential
school time and the winter holidays. In the past,        customer experiences as operational changes are        With the growth in customer use
mailers have expressed concern with the agency’s         implemented. Management is currently reassessing
performance during the fall mailing season               all CEM survey tools and will evaluate the proposed    of alternate access channels,
with regard to timely processing of mail and the         survey change to add specific customer service time
availability of mail transportation equipment.           and location data by March 2014. Management            such as self-service kiosks, the
                                                         will also assess the feasibility of developing cost-
The Postal Service made significant progress             effective and actionable data across all postal        Postal Service would benefit
in reducing the amount of delayed mail at the            channels by March 2014. It will also build upon the
43 largest mail processing and distribution              foundation of the Customer Experience Essentials       from measuring customer
centers during the 2013 fall mailing season.             program, and develop a strategy to design and
Delayed mail declined from the prior fall mailing        implement actionable programs to improve the           experiences at these channels.
season by 56 percent and service performance             customer experience by December 2013; and
achievement scores rose to 90.7 percent. We              implement a program to generate data that will
attribute much of the decline in delayed mail to         identify and resolve customer concerns associated
management’s emphasis on timely processing               with operational changes by December 2013.
of mail to include a readiness checklist and
expanded use of the Intelligent Mail barcode.
                                                         GOAL 2: GENERATE NET INCOME
While we commend the Postal Service for                  The Postal Service faces the challenge of improving service while simultaneously working to cut costs.
these improvements, opportunities remain to              Following are examples of work we conducted in this area to help the Postal Service improve operational
further reduce the amount of delayed mail. We            efficiencies and to decrease the risk of revenue loss.
found that mail was not always properly staged
                                                         Accenture Federal Services Contracts                   allegations of kickbacks, rigged bids, and
for first-in first-out processing due to floor
                                                         Our report found that Accenture Federal Services,      fraudulently inflated prices because it was
congestion caused by excess mail transportation
                                                         LLC, made policy changes to address six of             aware of and allowed Accenture to charge
equipment, such as mail tubs and trays. As a
                                                         eight Defense Contract Audit Agency (DCAA)             fees for acquiring third-party hardware and
result, the Postal Service cannot ensure the
                                                         recommendations, but did not fully address             software. We recommended management
timely processing, dispatch, and delivery of
                                                         recommendations to conduct periodic reviews of         require Accenture to correct the remaining DCAA
Standard Mail. Although delayed mail experienced
                                                         its estimating system or to monitor actual costs       report deficiencies and revise policy to address
a downward trend, any amount of delayed mail
                                                         to estimated costs. Postal Service contracting         reported issues. Management took corrective
could result in revenue loss, as affected mailers
                                                         officials did not obtain and assess the Information    action by working with Accenture to correct the
and customers seek other alternatives. We
                                                         Technology subject matter experts’ technical           remaining two items that DCAA recommended.
recommended ensuring that all field personnel
properly color code Standard Mail in accordance          analyses for eight proposals, valued at $8.2
                                                         million to support the reasonableness of labor         Caller and Reserve Service Operations
with Postal Service policy and properly store mail
transportation equipment to facilitate mail flow.        categories and hours. The Postal Service was           Caller service is a premium service, available
                                                         not included in the U.S. Department of Justice         for a fee, to customers that want to pick up their
Residential Customer Service Experiences                 (DOJ) settlement with Accenture that resolved          mail at a designated Postal Service unit. The
The Postal Service’s actions for measuring and
improving the service experiences of its residential      Best Value in the Purchasing Process
customers are sound, but could be enhanced, by            “Best value” is the basis of all Postal Service       105 purchases reviewed, valued at more than
improving the Customer Experience Measurement             sourcing decisions and determined by an analysis      $327 million. Further, contracting officials
(CEM) survey. With the growth in customer use             of a contract solicitation’s evaluation factors and   incorrectly coded contract information in the
of alternate access channels, such as self-service        weightings in combination with a price analysis.      Contract Authoring Management System for nine
kiosks, the Postal Service would benefit from             Past performance and supplier capability are          purchases, valued at about $34 million. Finally,
measuring customer experiences at these channels.         mandatory factors that contracting officials must     without complete files, contracting officials are
The Postal Service has taken positive actions to          evaluate during the purchasing process, while         unable to make informed contract management
improve residential customer service experiences;         some form of price analysis is required for every     decisions. We recommended contracting
however, additional attention is needed to ensure         purchase. Our report determined that Postal           managers conduct periodic reviews of electronic
the agency implements corrective actions promptly,        Service contracting officials did not provide         and physical contract files and update the contract
meets its CEM goals, and monitors residential             evidence that they achieved best value when           file transfer process. We also recommended
customer experiences as it implements operational         awarding contracts. Specifically, contracting         that management direct contracting officials and
changes that may impact those experiences.                officials did not maintain evidence to support        higher level approvers to ensure the accuracy
                                                          assessments of supplier past performance,             of contract information and adhere to Supplying
We recommended the Postal Service update the              supplier capability, price or cost analysis, or       Principles and Practices.
CEM survey to identify the location of the recipient’s    required review and approvals for 60 of the



October 1, 2012 — March 31, 2013                                                                                                                                      5
GOAL 2: GENERATE NET INCOME
                                                          service is geared to customers that routinely receive     in annual warranty reimbursements and about
                                                          more mail than can be delivered to the largest            $345,000 in annual parts credits. We also noted
                                                          installed Post Office Box or need to collect mail         that accounting adjustments were nominal and
                                                          periodically during the day. The OIG determined           the Postal Service had procedures in place to
                                                          that the Postal Service did not effectively manage        address them. We recommended developing and
                                                          caller and reserve service operations to collect all      implementing nationwide policies and procedures
                                                          revenue it was due. Employees did not enforce             for VMF personnel to use during consigned parts
                                                          applicable caller and reserve service policies or         inventories for identifying, obtaining, and returning
                                                          procedures and did not always charge customers for        reimbursements for parts under warranty; and for
                                                          caller and reserve services provided. For example,        returning vehicle parts that can be remanufactured
                                                          employees did not always review accounts to               and verifying the associated credits. We also
                                                          determine whether customers had paid all required         recommended enhancing Solution for Enterprise
                                                          fees. Further, the Postal Service did not establish a     Asset Management (SEAM)-Vehicle Maintenance
                                                          system to measure program effectiveness, such as          reporting capabilities and implementing nationwide
                                                          monitoring results of annual caller service reviews.      procedures to capture all warranties during the
                                                          As a result, we identified $3.8 million in annual         SEAM - Vehicle Maintenance implementation phase.
                                                          revenue the Postal Service is at risk of losing. We
                                                          also identified $415,000 of annual revenue loss           Management disagreed, in part, with our
                                                          attributed to unpaid caller and reserve fees.             recommendations, stating that consignment
                                                                                                                    suppliers are authorized to schedule and perform an
                                                          Consigned Vehicle Parts                                   inventory count for their parts for each VMF on an
                                                          Our report identified opportunities for the Postal        annual basis and our audit did not fully describe the
                                                          Service to reduce costs for consigned vehicle             process for making inventory corrections resulting
                                                          parts. Supervisors did not consistently monitor           from these counts. Management also thought that
Postal Service personnel did not consistently monitor                                                               our calculation of other impacts was flawed and
availability of Postal Service-owned vehicle parts,
                                                          physical inventories and personnel did not
leading to the potential for inappropriate charges on     always adequately determine whether Postal                that using the consignment vendor’s system would
consigned vehicle parts, an OIG audit determined.         Service-owned parts were available. As a result,          cost in excess of $5 million annually, noting that
                                                          management could not ensure accurate parts                SEAM-Vehicle Maintenance will allow identification
                                                          issuance and expensing, and suppliers could               of potential available warranties without adding
                                                          inappropriately charge the Postal Service for parts.      extra hours researching individual parts. Finally,
                                                          Also, vehicle maintenance facility (VMF) personnel        management disagreed with the monetary impact
                                                          did not consistently determine whether warranties         related to establishing nationwide requirements for
                                                          were available or adequately validate parts’ credits.     cores and core credits, noting that the monetary
                                                          We estimated that vehicle maintenance facilities          impact did not appear to take into consideration
                                                          could have obtained an additional $750,000                loss reimbursements due to damaged cores.


    Federal Shipping
    Competitors to the Postal Service have consistently captured more than 98          and could have avoided lost revenue of $21.4 million during FY 2011
    percent of shipping revenue from federal agencies through General Services         and $17.4 million for FY 2012. We recommended the Postal Service
    Administration (GSA) contracts. Although the federal shipping market from          address the challenges it faces in the federal shipping marketplace and
    GSA contracts was estimated at $336.9 million in FY 2012, the Postal Service       enhance customer intelligence on federal agencies’ shipping practices.
    earned only $4.8 million of this revenue, or less than 2 percent of the overall
    market. In addition, the Postal Service earned $95.9 million from shipping         Management is addressing the current GSA contract pricing structure and
    services for federal agencies outside the GSA contracts during FY 2012.            plans to discuss payment methods and product selection for the federal
                                                                                       sector. Management did not agree with the estimated $34.8 million in
    The Postal Service has opportunities to increase its share of this market          revenue that could be generated during FYs 2013 and 2014 should they
    by overcoming challenges that keep it from growing revenue in the federal          overcome the challenges that keep it from growing revenue in the GSA
    shipping marketplace. Specifically, major challenges include pricing               marketplace, stating that the lack of detailed data on the characteristics of
    inflexibility and the lack of 2- and 3-day guaranteed express delivery             federal shipments makes it nearly impossible to predict a value for Postal
    products. In addition, the Postal Service faces challenges resulting from          Service potential. Management also stated that revenue growth depends
    late entry into the GSA market, the size and structure of its federal sector       on competitive pricing and product offerings and, until these challenges
    sales force, and the limited number of payment methods it accepts. Further,        are addressed, it is difficult to fully understand the extent of revenue that
    the Department of Defense provides preferential treatment to shippers              can be generated from federal shipping. Finally, as the Pricing group
    that have their own air fleet and agree to make that fleet available during        works toward determining the value of 2- and 3-day guaranteed express
    a national defense crisis. By overcoming these challenges, and enhancing           delivery products, management will conduct further research and learn
    customer intelligence to identify those federal agencies that predominantly        more about federal agency shipping practices. Pending an evaluation,
    ship lightweight packages, we estimate the Postal Service could generate           management will determine the next steps to take by January 2014.
    $17.4 million of additional revenue annually during FYs 2013 and 2014,




6                                                                                                                                      Semiannual Report to Congress
                                                                                                                                    GOAL 2: GENERATE NET INCOME

 Postal Service Financial Condition
 Revenue and Volume ­— The Postal Service continues to experience                     Liquidity Concerns — The Postal Service’s liquidity position has improved
 significant financial challenges. It ended fiscal year 2012 (Oct. 1, 2011            slightly from September 30, 2012, due to increased cash receipts during
 – Sept. 30, 2012) with a record net loss of $15.9 billion, compared to a             the fall election and holiday mailing seasons. The Postal Service was able to
 net loss of $5.1 billion for the same period last year. Of that loss, $11.1          make its annual payment of about $1.4 billion to reimburse the Department of
 billion was attributed to 2 years of the statutorily mandated Retiree Health         Labor (DOL) for workers’ compensation expenses in October 2012. Current
 Benefit (RHB) prefunding requirement. And $5.5 billion of that $11.1 billion         projections indicate that the Postal Service will be unable to make the required
 was originally associated with the fiscal year 2011; however, legislation            $5.6 billion retiree health benefits prefunding payment due by September 30,
 moved the required payment to FY 2012. Without the legislation, the                  2013. The Postal Service held total cash of $2.9 billion and $2.3 billion for the
 FY 2012 loss would have been reduced to about $10.4 billion, while                   periods ending December 31, 2012, and September 30, 2012, respectively,
 the FY 2011 loss would have increased to about $10.6 billion.                        and had no remaining borrowing capacity on its $15 billion debt ceiling.

 In the first quarter of FY 2013, revenue from First-Class Mail, the Postal           Cost Cutting — The Postal Service continues to aggressively pursue
 Service’s most profitable service category, decreased $237 million, or               strategies to increase efficiency and to improve its liquidity position. These
 3.1 percent, from the same period last year, with a volume decrease of               measures include consolidating the mail processing, retail, and delivery
 834 million pieces, or 4.5 percent. Standard Mail revenue increased $141             networks to better align them with mail volumes. Since 2006, the Postal
 million, or 3.1 percent, in the first quarter of 2013, compared to 2012,             Service has reduced its annual cost base by about $15 billion and reduced
 on a volume increase of 783 million pieces, or 3.6 percent. This increase            the size of its career workforce by 168,000 or 24 percent. The Postal Service
 is largely attributable to official and political campaign mail related to the       Board of Governors has directed management to accelerate the restructuring
 presidential and congressional elections mailed during the quarter.                  of Postal Service operations to further reduce costs to strengthen Postal
                                                                                      Service finances. The Postal Service continues to seek legislation to provide
 Shipping and Packages revenue continued to show solid growth in                      it with greater flexibility to control costs and generate new revenue.
 the 3 months ending December 31, 2012, which was the end of
 the first quarter of FY 2013. Shipping and Package revenue in the                    Sarbanes-Oxley — There have been no changes in the Postal Service’s
 first quarter increased $154 million or 4.7 percent over 2012 first                  internal controls over financial reporting for the quarter ending December
 quarter results. The increases are attributable to the growth of online              31, 2012, that have materially affected, or are reasonably likely to materially
 shopping and the success of Postal Service marketing campaigns.                      affect, the Postal Service’s internal controls over financial reporting.


Express Mail Corporate Account Revenue                    addition, management noted an incorrect number
Our report found that the Postal Service did not          in our monetary impact calculations. Management
collect all revenue for services provided to Express      stated that, although they still have reservations
Mail Corporate Account (EMCA) customers.                  regarding our findings, they will review their
Personnel did not follow acceptance procedures            procedures for compliance with EMCA policies
or use existing management reports to identify            and collaborate with the areas to reissue policies
mail processing facilities not complying with             and procedures regarding proper acceptance.
procedures to properly accept Express Mail
packages. In addition, delivery unit personnel            FedEx Container Weights
were not required to provide additional safeguards        Restrictions in the Postal Service/FedEx contract
against uncollected revenue, such as processing an        may result in FedEx transporting less-than-full
acceptance transaction when scanning individual           containers. Our report determined that although
Express Mail pieces for delivery. We recommended          it may not always be feasible to fill Postal Service
management use available management reports               containers transported on FedEx to their maximum
to identify and notify mail processing facilities not     allowable weight, the contract restricts the agency      FedEx holds an air transport contract with the Postal
following Postal Service procedures to improve            to air container weights that are less than what         Service. An OIG audit found that if the FedEx contract
full acceptance transactions for Express Mail             the containers can actually hold and less than           incorporated higher air container maximum weights,
corporate account pieces. They should also                what FedEx advertises to its other customers.            the Postal Service could reduce contract transportation
                                                                                                                   costs by using fewer heavier weight containers and
update and reissue procedures for delivery units          The contract also specifies the maximum gross            paying for less unused cubic footage.
to identify and properly accept corporate account         weights allowed for each air container type. We
pieces that have not yet been accepted.                   were unable to assess the overall impact on
                                                          transportation costs since historical data does not
Management disagreed with our monetary impact,            exist and collecting representative current data
stating that uncollected EMCA revenue cannot              was not feasible. However, if the FedEx contract
be definitively determined based on the data and          (including any renewals) incorporated higher air
methodology we used. Further, they believe we             container maximum weights, where feasible, the
provided no information in our report to verify           Postal Service could significantly reduce contract
that our methodology resulted in a reasonable             transportation costs by using fewer heavier
estimate nor was there enough information to              weight containers and paying for less of the
validate the estimated potential revenue loss. In         unused cubic footage. Costs to fly this mail are


October 1, 2012 — March 31, 2013                                                                                                                                          7
Goal2: GENERATE NET INCOME

    Financial Audits
    During this period we audited Postal Service installations and their financial    When guidelines are not in place for dinners/meals or expenses related
    statements. We also assessed the accuracy of management data to help              to external representation events, the risk of incurring questionable costs
    preserve the integrity of Postal Service processes and personnel. By focusing     increases. We recommended the secretary of the Board of Governors
    on key vulnerabilities of Postal Service installations, auditors showed how       develop policies and procedures for business representation dinners/
    the Postal Service can further protect the integrity of the mailstream.           meals and expenses related to external representation events.

    We performed separate audits of selected financial activities and accounting      Officers’ Travel and Representation Expenses for Fiscal Year 2012
    records at Postal Service headquarters and at the three Information               Our report found officers’ travel and representation expenses totaling about
    Technology and Accounting Services in St. Louis, MO; San Mateo, CA; and           $806,000 were properly supported and complied with Postal Service policies
    Eagan, MN. We also conducted audits of the Board of Governors’ travel and         and procedures.
    miscellaneous expenses and Postal Service officers’ travel and representation
    expenses for FY 2012 and compensation for calendar year 2011. For most            Officer Compensation for Calendar Year 2011
    of these audits, we did not propose any adjustments, but we did identify          The Postal Act of 2006 amended Title 39 of the United States Code
    various control deficiencies that were not significant to the overall financial   and revised the cap on total compensation payable to Postal Service
    statements and did not affect the overall adequacy of internal controls.          employees. Employees generally could not be paid more than $199,700
                                                                                      for calendar year (CY) 2011. Exceptions allowed some to be paid up to
    Following is a summary of the financial audits performed in support of the        $230,700 (the statute defines the Postal Service’s authority to award
    independent public accounting (IPA) firm’s opinion on the Postal Service’s        bonuses or other awards) or $276,840 for critical positions. Our report
    financial statements and internal controls over financial reporting.              determined that, although the Postal Service complied with Postal
                                                                                      Service policies and guidelines and IRS regulations for CY 2011, it did
    Fiscal Year 2012 Postal Service Financial Statements Audits                       not always comply with annual officer compensation caps as stated in
    These reports present the results of our audits of the financial activities and   the Postal Act of 2006. We believe failure to comply is a result of the
    accounting records at headquarters and Eagan, St. Louis, and San Mateo            agency’s misinterpretation of the relevant statutory authority in the Act.
    Accounting Services for FY 2012. We noted the Postal Service’s financial
    accounting policies and procedures provided for an adequate internal              We identified three officers whose compensation exceeded or otherwise
    control structure and complied with accounting principles. In addition,           failed to comply with the compensation caps imposed by the Act. As
    accounting transactions were fairly stated and general ledger account             a result, during CY 2011, the Postal Service paid $110,011 above the
    balances conformed to the general classification of accounts, therefore, we       limits. In response to our CY 2010 audit, management amended an
    did not propose any adjusting entries to the financial statements. Finally,       officer’s employment agreement to more clearly link the incentive award
    the Postal Service complied with laws and regulations having a direct and         to performance. However, because the amount of the award is set in
    material effect on the financial statements, but did not comply with federal      advance by contract, we believe it is neither part of an “appraisal system”
    regulations regarding records retention for the Combined Federal Campaign         nor the result of any evaluation of “relative performance.” This change
    (CFC) program or federal regulations regarding officer’ compensation.             to the language does not address the concerns we raised last year.
    We recommended that management revise their records retention policy
    for the CFC to comply with federal regulations and they agreed to revise          We recommended the Postmaster General (PMG) coordinate with the
    procedures to require retention of CFC pledge forms for 4 years. The              Board of Governors to ensure the Postal Service reports to the Office of
    planned action is scheduled for implementation by June 30, 2013.                  Personnel Management and Congress a complete list of critical senior
                                                                                      executive or equivalent positions allowed to receive total compensation in
    Throughout the year, we reviewed internal controls over financial reporting       an amount not to exceed 120 percent of the total annual compensation
    and identified control deficiencies. The Postal Service had two instances of      payable to the vice president of the United States. We also recommended
    noncompliance at the headquarters facility. One related to the suspension         the PMG request an interpretation from the Government Accountability
    of the Postal Service’s obligation to the Federal Employee Retirement             Office on whether annuity payments are considered in an employee’s total
    System and the other a default on two required prefunding payments to the         compensation and subject to the Postal Act of 2006 compensation caps.
    Postal Service Retiree Health Benefit Fund. The Postal Service resumed
    the obligation and repaid amounts previously suspended. The Postal Act of         Management acknowledged the fundamental disagreement on the
    2006 contains no provisions addressing a prefunding payment default.              interpretation of the law and agreed to seek advice from the DOJ Office
                                                                                      of Legal Counsel to resolve the issues identified in this report. We
    Postal Service Board of Governors’ Travel and Miscellaneous                       agree that an advisory opinion from the DOJ’s Office of Legal Counsel
    Expenses for Fiscal Year 2012                                                     will better resolve the issues in this report. Management worked with
    Our report found travel and miscellaneous expenses were generally                 us on the precise legal questions submitted. Management disagreed
    properly supported, reasonable, and in compliance with Postal Service             with our monetary impact and recommendation regarding submittal
    policies and procedures and Board of Governors policies. However,                 of a critical senior executive or equivalent positions list. They believe
    the Board of Governors’ general policy does not contain guidelines for            we based the recommendation and monetary impact on an incorrect
    purchase and payment of official business-related dinners/meals or                finding that officer compensation exceeded the statutory compensation
    expenses with customers and other external stakeholders. Such guidelines          limit for FY 2011, adding that they already have a process to ensure
    should give consideration to the nature of the Postal Service’s business          the Postal Service adheres to the statutory compensation caps.
    and the importance of building and maintaining customer relationships.



8                                                                                                                                     Semiannual Report to Congress
                                                                                                                                     Goal 2: GENERATE NET INCOME

based on contract minimum volume obligations,
with compensation based on the total amount of
cubic feet of the air containers transported. We
recommended increasing maximum allowable
container weights when negotiating existing
or future air transportation FedEx contracts
with cubic-foot based compensation.

Funnel Management Program
The Funnel Management Program diverts lower             Hybrid mail provides an opportunity for revenue growth for the Postal Service, but a stronger business strategy is
priority leads to lower cost sales channels that meet   needed to increase market share, an audit report determined.
predetermined criteria. The Postal Service’s sales
organization uses the Funnel Management Program         statements, surveys, and reminders, and that it             e-commerce. By offering products and services
to prioritize sales leads. Our report determined        address related privacy issues. As a result, the            to fill those gaps, the Postal Service has the
that opportunities exist for the Postal Service to      Postal Service may have lost $4.1 million of potential      opportunity to help facilitate growth in international
improve the program by enhancing the automated          revenue annually in FYs 2011 and 2012, and could            e-commerce, and to boost the national and global
process. We estimate this enhancement would             potentially increase revenue by at least $3.8 million       economy by supporting small businesses.
increase sales revenue by $2.4 million per year.        annually in FYs 2013 and 2014. We recommended
                                                        developing a business strategy for hybrid mail and          Military Mail Reimbursements
Hybrid Mail Efforts                                     establishing measurable goals for affiliated partners       The Postal Service should institute alternate
The Postal Service could improve its hybrid mail        to increase revenue. In September 2012, the Postal          payment processes that require the Department of
efforts by developing a business strategy to increase   Service took partial corrective action by establishing      Defense (DoD) and Department of State (DoS) to
the revenue and market share of its current hybrid      revenue goals with the affiliated partners.                 pay transportation costs directly to air carriers or
mail products. Specifically, we noted that the Postal                                                               other methods that reduce the cost to the Postal
Service’s revenue with affiliated partners dropped      International Small Business Commerce                       Service. This would allow the Postal Service to
58 percent between 2007 and 2011 because                Our report suggested the Postal Service further             eliminate about $149,000 per year — the cost
there was no strategic plan promoting hybrid mail       explore opportunities for providing products and            of borrowing funds to pay the airline carriers
products. Also, the agency’s agreements with            services that facilitate international small business       directly — and $17,000 in labor costs associated
its affiliated partners did not include measurable      commerce. For example, while technology has                 with the billing process. We also determined that
performance goals. In addition, these affiliated        helped facilitate a connection between buyers               the Postal Service does not have a process for
partners have a small share of the potential hybrid     and sellers internationally, shortcomings still             identifying and seeking reimbursement for customer
market for small- and medium-sized businesses,          prevent completion of international small business          claims that can be traced to mail that either the
or about 3 percent of the estimated $200 million        transactions. We suggested the Postal Service               DoS or DoD delays or damages. We estimate the
market for hybrid mail products. We suggested           leverage its relationships with foreign posts,              Postal Service’s liability for these claims is at least
the Postal Service increase revenue by offering         its role as a trusted provider, and its expansive           $440,000 per year. Finally, we noted that the
transactional mail, which includes invoices,            network to fill gaps that exist in international            agreement between the Postal Service and the


 Causes of the Postal Service FERS Surplus and Causes of the Postal Service FERS Surplus – Update
                                                                                      of the federal government and recommended using Postal Service-specific
                                                                                      assumptions to measure the FERS liability.
                                                                                      After the release of the initial white paper describing Hay Group’s results, the
                                                                                      Office of Personnel Management (OPM) issued its annual estimate of the
                                                                                      FERS surplus based on new economic and demographic assumptions. In
                                                                                      response to this new information, Hay Group updated their previous estimate
                                                                                      of the surplus using Postal Service-specific assumptions to reflect OPM’s
                                                                                      changes. Hay Group found the projected surplus to be almost $12.5 billion as
                                                                                      of FY 2012. Hay Group’s adjusted findings were released as an update to the
                                                                                      original white paper.
                                                                                      These white papers recommended using Postal Service-specific assumptions,
                                                                                      regardless of the effect on the surplus, as it provides a more accurate and
 The Postal Service has had a persistent surplus in its share of the Federal          stable estimate of Postal Service liability that is more likely to match the future
 Employees’ Retirement System (FERS) program since 1992. We asked the                 payout stream. In addition, we suggested changes to the FERS program
 actuarial firm Hay Group to explore the causes of this surplus. Hay Group            to set Postal Service contribution rates based on Postal Service-specific
 found that the postal FERS surplus resulted primarily from differences               assumptions and to provide a mechanism for returning FERS surpluses once
 between Postal Service characteristics and the characteristics of the rest           they have occurred.




October 1, 2012 — March 31, 2013                                                                                                                                             9
GOAL 3: IMPROVE WORKPLACE AND WORKFORCE
                                                          DoD is 33 years old and does not reflect current        increase tracking of mail items sent to U.S. Army
                                                          processes, including the method for reimbursing         and Air Force post offices, U.S. Navy and Marine
                                                          transportation costs. We recommended the                Corps post offices, and diplomatic post offices.
                                                          Postal Service institute a payment process for
                                                          interagency agreements that eliminates upfront          Trends and Systemic Issues in
                                                          payment of costs, establish a process to identify       Defense Contract Audit Agency Audit
                                                          and receive reimbursement for customer indemnity        Work for Fiscal Years 2009-2012
                                                          claims, and update agreements with the DoD              The Postal Service reduced its use of the Defense
                                                          and DoS to reflect these new processes.                 Contract Audit Agency (DCAA) to conduct audits
                                                                                                                  to support contracting actions. These audits have
                                                          Management stated they had already initiated use        consistently contributed to significant savings and
                                                          of the Intra-Governmental Payment and Collection        averaged a return on investment of $105 for every
                                                          (IPAC) system for payments when we began our            dollar spent over the last 4 fiscal years. During FYs
                                                          audit and will continue to explore the feasibility      2009-2012, DCAA audits identified more than $185
                                                          of other payment methods while proceeding with          million in unallowable and unsupported contract
                                                          the IPAC solution. Management did not agree             costs; and disclosed internal control weaknesses
                                                          with the estimated $149,000 per year savings            related to contractors’ accounting systems, financial
                                                          in advance payment costs citing our calculations        capabilities, and labor charges. These results
                                                          did not consider the benefits of quarterly              assisted contracting officials in negotiating lower
The Department of Defense and Department of State         prepayments from the Navy, which began in FY            contract prices and settlements. We recommended
reimburse the Postal Service for the air transportation   2013. Management’s target implementation date
costs associated with delivering military mail. An OIG                                                            management emphasize to contracting officials
audit recommended improvements to the process that        to adopt the IPAC payment process is September          the importance of requesting DCAA audits.
would lower Postal Service costs.                         30, 2013. Management is also taking steps to



GOAL 3: IMPROVE WORKPLACE AND WORKFORCE
Postal Service employees are its greatest asset. A key strategy to improve productivity is to improve safety and increase employee engagement.

Contractor Timecard Approvals in the                      procedures and compliance; improve PCTS                 and, since FY 2011, has implemented about 1,500
Program Cost Tracking System                              procedures to ensure program managers validate          DUO consolidations. In response to a request from
Our report determined that contractor timecards           their assigned project timecards initially approved     Senator Charles Grassley (Iowa), our objectives
submitted in the Program Cost Tracking System             by IT Business Management; and evaluate and             were to determine whether the Postal Service
(PCTS) do not always receive proper approval.             update PCTS roles to enhance separation of duties       complied with established DUO initiative guidelines
The Postal Service uses PCTS to monitor, track,           between program managers and site approvers.            and whether the DUO initiative reduced costs and
and approve time charged against information                                                                      improved operational efficiency. We recommended:
technology (IT) time and materials contracts.             Management partially disagreed with our                 (1) revising DUO guidelines to include a well-defined,
Approved vendors use the system to generate and           recommendations, stating that the PCTS is their         consistent methodology for projecting cost savings
submit invoices to the Postal Service electronically.     premier tool for standardizing and managing             and operational efficiencies; and, (2) developing
Though the Postal Service has no formal policy            contractor timekeeping functions and total IT           a process to ensure the revised guidelines are
governing the contractor timecard approval                workforce information, as well as associated budget     applied consistently and post consolidation reviews
process in PCTS, a key business control and               information. Management also responded that PCTS        are performed to accurately validate savings and
other documentation specify that only program             meets its requirements by providing centralized and     efficiencies. Management plans to work with the
managers can approve project timecards. We                secure data storage of information for certifying       Finance Department to develop a standardized
found that 16 Postal Service employees who were           contractor time and materials invoices. Management      financial workbook and add new language from
not program managers approved 4,047 of 28,510             stated that functions for PCTS roles met or             the financial workbook to the DUO guidebook.
project timecards without validating that the time        exceeded Sarbanes-Oxley segregation of duties           Management is also developing a process within
charges were correct. Contractors approved another        requirements; therefore, they do not consider it        the Change Suspension Discontinuance Center
800 project timecards. This resulted in about             necessary to further evaluate and update the roles.     that will ensure the revised guidelines are applied
$19.1 million annualized unsupported questioned                                                                   consistently throughout each DUO implementation
costs over a 2-year period from May 2010 to               Delivery Unit Optimization Initiative                   and will include an ongoing process to validate
April 2012. Although the Postal Service took              One Postal Service initiative to reduce costs,          savings. In addition, they will use a 10-year net
corrective action to remove contractors as timecard       Delivery Unit Optimization (DUO), involves relocating   present value to realize all potential savings.
approvers, additional effort to clarify timecard          letter carriers out of local post offices, stations,
approval processes and ensure that timecard               and branches and into centralized delivery offices      Delivery Operations Data Usage
validations are completed would reduce the risk           to reduce clerk and carrier work hours, building        Delivery Operation Information System is considered
of payroll errors or fraud in vendor payments. We         maintenance expenses, and transportation costs.         city delivery’s major data system for managing
recommended management: formalize a policy                The Postal Service established guidelines in            delivery operations. This system interfaces with
to address contractor’s time and attendance               December 2010 for implementing the DUO initiative       the Enterprise Data Warehouse, as well as the



10                                                                                                                                   Semiannual Report to Congress
                                                                                                                   GOAL 3: IMPROVE WORKPLACE AND WORKFORCE

 Lessons Learned from Mail Processing Network Rationalization Initiatives; and Lessons Learned
 from Retail Network Optimization Initiatives
                                                                                       however, further refinements are warranted. Specifically, the Postal
                                                                                       Service could improve communications with stakeholders to enhance
                                                                                       transparency. In addition, overall cost-saving projections were revised to
                                                                                       more accurately reflect projections based on further analysis and planning
                                                                                       of the implementation plan. We recommended management improve
                                                                                       communications with stakeholders by ensuring that the Postal Service
                                                                                       shares accurate and consistent information on consolidation impacts.

                                                                                       The Postal Service also launched two nationwide initiatives to realign its
                                                                                       retail network. These realignments were called the Stations and Branches
                                                                                       Optimization Consolidation (April 2009) and Retail Access Optimization
                                                                                       Initiative (July 2011). The purpose of both initiatives was to examine
                                                                                       closure opportunities and reduce costs. On May 9, 2012, management
                                                                                       announced a new strategy known as the Post Office Structure Plan
                                                                                       (POStPlan) that would keep small post offices open for business by
                                                                                       reducing operating hours, while providing a framework to achieve cost
 The Postal Service launched two initiatives to realign its retail network with the
                                                                                       savings. Management plans to complete the POStPlan in 2014.
 goal of examining closure opportunities and reducing costs. Although the Postal
 Service has improved its retail network optimization efforts, our audit identified
 lessons learned from current and past initiatives.                                    Although the Postal Service has improved its retail network optimization
                                                                                       efforts, we identified lessons learned from current and past initiatives. Timely
 In 2003, the President’s Commission on the U.S. Postal Service found the              decisions are needed regarding closure proposals to avoid unnecessary
 agency had more facilities than needed and recommended optimizing the                 operational disruption and community uncertainty. We identified about
 facility network by closing or consolidating mail processing centers. The             600 stations, branches, and retail annexes from the 2011 initiative that
 Postal Accountability and Enhancement Act of 2006 (Postal Act of 2006)                remain under review for closure, almost 2 years later. We also identified
 encouraged the Postal Service to continue streamlining its processing                 instances where management did not provide consistent, accurate, and
 and distribution network to eliminate excess costs. The Postal Service                timely information to stakeholders. Such information is essential for improving
 initiated 418 consolidation studies between fiscal years 2004 and 2011,               communications with stakeholders during retail network realignments. Further,
 resulting in 103 consolidations. It has repeatedly revised plans to rationalize       we found that management did not establish a post-implementation review
 its mail processing network and it launched a nationwide realignment                  process. We recommended management process and approve or disapprove
 in 2011, called the Network Rationalization Initiative. The goal of the               closure proposals from the 2011 initiative, and enhance communication plans
 initiative was to reduce costs and improve efficiency. We determined that             to improve relations with stakeholders. We also recommended management
 the Postal Service has improved its mail processing network optimization              implement a formal post-implementation review procedure that evaluates
 efforts as a result of lessons learned from current and past initiatives;             savings achieved and impacts from network realignments of retail operations.



Delivery Data Mart, City Delivery Variance, and             timely operational decisions. We recommended that        of processing procedures is manually processed.
eFlash systems, among others. Rural delivery has            Delivery and Post Office Operations collaborate with     We recommended the Postal Service establish
various systems and data available to help the              Area Operations to streamline data and reporting         flat mail manual processing goals more consistent
Postal Service manage its operations. Management            needs and re-emphasize to new supervisors and            with the current stretch goal of 20 percent, to
uses these systems, data, and reports to maximize           managers city delivery operating procedures              lower the percentage of manually processed flat
resources, increase operational efficiency, and             and pertinent performance systems and reports            mail. We also recommended the Postal Service
improve service. Our report determined that some            through ongoing coaching and mentoring.                  evaluate opportunities to reduce the number of non-
of the data the Postal Service uses are not “real                                                                    automated plants and other mail processing facilities
time” and some of the reports are not “exception-           Flat-Shaped Mail Costs                                   and develop a processing strategy to automate the
based,” which would facilitate management                   Our report determined that management’s decisions        processing of single-piece First-Class Mail flats. We
actions. Further, new supervisors and managers              to manually process potentially machinable mail          further recommended the Postal Service ensure that
do not always know how to use these tools and               and the lack of flats mail processing equipment          procedures for placing and processing forwarding
data. Our assessment of 32 prior delivery reports           at certain processing facilities limit Postal            labels comply with Computerized Forwarding
showed ongoing issues with data usage, availability,        Service efforts to reduce costs associated with          System requirements. Management agreed with
and accuracy; and we determined that, for rural             processing flats. Despite investments in flat mail       the findings and recommendations but disagreed
delivery, there is no centralized system containing         processing equipment, about 30 percent of flat           with the monetary impact, stating that they were
management information. It is paramount that                mail continues to be manually processed. Some            unsure that their stretch goals were achievable
the systems, reports, and data are optimized so             flat mail that cannot be delivered because of            without additional flat sorting equipment, software
supervisors and managers can make informed and              machinery software issues or incorrect application       enhancements, or changes to operating practices.




October 1, 2012 — March 31, 2013                                                                                                                                       11
GOAL 4: CORPORATE RESPONSIBILITY
                                                            Washington Network Distribution Center                    recommendations included that: (1) management
                                                            Postal Vehicle Service Operations                         verify the elimination or modification of 24 trips
                                                            Our audit of Postal Vehicle Service (PVS) operations      from highway contracts initiated by management
                                                            at the Washington Network Distribution Center             during our audit and eliminate or modify 36 trips
                                                            (NDC) found that facility officials could more            from highway contracts identified during our audit;
                                                            effectively manage trailer loading practices, increase    (2) continually re-emphasize that drivers must wear
                                                            staffing efficiency for PVS spotter truck operations,     safety belts whenever their vehicles are in motion,
                                                            and reduce unnecessary driver workhours.                  and provide management oversight for enforcement;
                                                            Specifically, we found that management did not            and (3) ensure Postal Service management
                                                            fully assess workload and staffing requirements           repair defective exterior doors and security badge
                                                            at the facility or conduct required annual reviews        readers and hold safety talks with all employees.
                                                            and was paying for unneeded trips. Our audit
                                                            also determined that staff members did not                Workers’ Compensation Data System
                                                            effectively load trailers for immediate movement          The Postal Service’s Employee Health and Safety
                                                            from the facility, PVS drivers did not always wear        (EHS) system does not always provide accurate and
                                                            safety belts, and some facility doors were not            reliable information because employees entering
                                                            operating properly or were being kept open.               data into the system do not always receive adequate
                                                                                                                      training or comply with workers’ compensation
                                                            We recommended that Washington NDC                        policies and procedures. We also determined that
                                                            management follow prescribed Postal Service               the Injury Compensation Performance Analysis
                                                            standard operating procedures to the extent               System (ICPAS) does not provide the reports
                                                            possible for live loading mail into trailers for          needed to effectively measure performance,
                                                            immediate movement from the facility yard and             identify trends, and make improvements in the
                                                            consider the reduction of moves in future workload        workers’ compensation program due to system
                                                            and staffing analyses. We also recommended                limitations. We recommended that management
                                                            management periodically assess Postal Vehicle             provide additional training for personnel responsible
                                                            Service truck driver workload and staffing                for entering EHS data, issue supplemental
                                                            requirements to maintain appropriate staffing levels,     guidance, and enhance internal controls to
                                                            eliminate 3,492 annual workhours associated               ensure that responsible officials consistently
                                                            with improving PVS truck driver productivity to the       adhere to claims management procedures.
                                                            Breakthrough Productivity Initiative standard, and        We also recommended management assess
                                                            ensure that managers in the Capital Metro Area            options to enhance and integrate the reporting
                                                            follow prescribed highway contract procedures             capabilities of ICPAS to provide the data necessary
                                                            for making highway contracts efficient. Further           for effective analysis and decision making.

Increased staffing efficiency of spotter truck operations
was among the recommendations in an OIG audit on
Postal Vehicle Service operations at the Washington         GOAL 4: CORPORATE RESPONSIBILITY
Network Distribution Center.                                The Postal Service added corporate responsibility to its list of enduring, long-term goals in its FY 2012
                                                            Annual Performance Report and FY 2013 Performance Plan. The organization has targeted universal and
                                                            public services and other obligations as the main areas of focus under corporate responsibility goals.

                                                            e-Government and the Postal Service:                      Still, a number of lingering gaps remain in security,
                                                            A Conduit to Help Government                              access, and ease of use that have hindered full,
                                                            Meet Citizens’ Needs                                      public adoption of existing e-government services
                                                            Over the past 20 years, e-Government — or the             and the development of new services. First, a
                                                            use of the Internet and other digital technologies by     lack of appropriate identity authentication for
                                                            government agencies to provide services — has             sensitive online government transactions means
                                                            developed to respond to the changing needs of an          some transactions still require human interaction,
                                                            increasingly digital society. Federal, state, and local   such as transactions that are complex or require
                                                            agencies have adopted a number of e-government            a witness, identification, or sworn attestation.
                                                            initiatives to increase access to information and         Second, some people lack access to the internet
                                                            services, improve government operations, cut              or are uncomfortable with accessing government
                                                            costs, and promote civic engagement. Recently,            services online. Finally, existing e-government
                                                            the White House released the Digital Government           services are often fragmented across multiple
                                                            Strategy, which sets guidelines for federal agencies      agencies or websites, making it difficult for users to
                                                            to follow in order to innovate and enhance the            easily access and navigate the services they need.
                                                            quality and efficiency of public services.




12                                                                                                                                       Semiannual Report to Congress
                                                                                                                            GOAL 4: CORPORATE RESPONSIBILITY
This white paper discussed the opportunity for the
Postal Service to establish a one-stop, shared,
multi-channel service platform to help all levels
of government fill critical gaps, while addressing
massive duplicative costs across agencies. By
building a digital platform and leveraging its retail
and delivery networks, address databases, and its
trusted intermediary role, the Postal Service could
offer other agencies a wide range of physical and
digital e-government solutions. These services
could include communication services, online
identification, electronic payments, in-person
services, and broadband access. The postal
physical-digital platform could also provide a crucial
bridge to enable users to access government
services through whatever channel best meets
their needs, while adding a layer of resiliency to
essential public functions during emergencies.           Peer-to-peer commerce empowers individuals to buy, sell, or rent new and used goods to and from each other. An
                                                         OIG white paper examined how current postal services could be adapted and new ones developed to serve the fast-
Peer-to-Peer Commerce and the                            growing peer-to-peer digital marketplace.
Role of the Postal Service
This white paper examined how current postal             as are potential new services, including Digital         Specifically, technicians did not always correctly
services could be adapted and new ones developed         Collect on Delivery (COD) and Digital Escrow. The        enter and verify all data entered into their laptop
for the novel and fast-growing peer-to-peer digital      paper also describes the benefits of a postal digital    computers; follow and apply the appropriate test
marketplace. Peer-to-peer commerce empowers              “trust mark” to indicate that the identity of market     mail sampling methodology; or label test mail
individuals to buy, sell, or rent new and used goods     participants has been vetted or authenticated. These     to ensure it was isolated from mail processing
to each other, as well as procure handyman,              offerings could discourage most types of fraud           until the test was completed. They also did not
babysitting, and other services. Individuals may         and increase overall trust in market transactions.       properly identify, isolate, and capture test mail,
transact directly with each other after making initial   This could increase the confidence of buyers,            nor always protect their laptop computers. These
contact through facilitators, ranging from major         spur further growth in this already burgeoning           issues contributed, in part, to the Postal Service’s
players such as eBay and Craigslist to smaller niche     marketplace, and bring additional revenue to the         conclusion that a significant internal control
companies such as Airbnb and Etsy. Peer-to-peer          Postal Service through the offering of new products.     deficiency related to data collection sampling
commerce requires confidence in the parties                                                                       procedures existed as of September 30, 2012.
involved, yet buyers and sellers are likely unknown      Statistical Tests for Fiscal Year 2012                   We recommended management reinforce, through
to each other, and many types of fraud are possible.     Postal Service data collection technicians did not       training, proper data collection methods to ensure
                                                         always conduct tests of the Postal Service’s Origin-     test mail is identified, isolated, and captured
Current postal ancillary and special services, both      Destination Information System – Revenue, Pieces         during testing; and reinforce the importance of
physical and digital, are well suited to the peer-to-    and Weight system according to procedures. We            protecting data collection laptop computers.
peer market as complementary support services,           identified 22 test errors in 13 of 45 tests observed.


 Controls to Detect Money Order Fraud
 The Postal Service sells domestic and international money orders for a              We detected a substantial number of embezzlement cases since FY 2010 that
 fee in values of up to $1,000. Money orders are sequentially numbered               Postal Service controls did not detect. Abuses, errors, and misappropriation
 financial instruments that must be safeguarded due to their potential use in        of Postal Service assets may go undetected without adequate monitoring of
 embezzlement and money laundering schemes. Customers purchase money                 money order transactions. We recommended management monitor money
 orders using cash, debit cards, or travelers’ checks as a convenient and safe       order reconciliation transactions and develop a program to analyze and
 method to transfer cash or make payments. In FY 2012, fees from money               communicate questionable money order activity to district management
 order sales generated $129 million in revenue. Our report determined that           and the OIG, as appropriate, for review and corrective action. Management
 Postal Service money order controls are not sufficient to detect fraud in a         said they will continue to monitor all money order transactions and they
 timely manner. Specifically, the Postal Service does not sufficiently monitor       are automating the money order system to include a more formal review
 money order transactions at retail units and make investigative referrals of        of unreported and un-reconciled money orders. Additionally, management
 potential fraud. Further, Postal Service personnel do not provide information to    initiated a Lean Six Sigma project in January 2013 to review the money order
 district management to identify questionable activity, such as potential misuse     process for mitigating fraud and to analyze questionable activity for better
 of Postal Service funds.                                                            communication with district management. It will continue to notify the OIG of
                                                                                     any potential fraud.




October 1, 2012 — March 31, 2013                                                                                                                                     13
                  Stealing stamps or voiding stamp
                sales are among the internal crimes
                     that special agents investigate.


                                                        OFFICE OF INVESTIGATIONS
                                                        To protect the mail and to ensure the integrity of postal processes, finances, and
                                                        personnel, the Postal Service relies on the investigative efforts of the Office of
                                                        Investigations’ (OI) special agents. These special agents are stationed in offices
                                                        nationwide. Their charge is to investigate allegations of internal crimes and frauds
                                                        committed by postal employees and contractors against the Postal Service and
                                                        employee misconduct. Following is work conducted by the OI during this reporting
                                                        period that contributed to safeguarding the Postal Service’s revenue and assets
                                                        and helped deter postal crimes, ultimately helping to maintain a stable and sound
                                                        Postal Service.

                                                        Financial Fraud                                        and transfer the inventory over a 2-year period
   Investigations




                                                                                                               to conceal the embezzlement of more than
                                                        A large portion of the $65 billion in revenue
                                                                                                               $76,000. In November 2012, the former
                                                        generated by the Postal Service is handled at
                                                                                                               associate pleaded guilty to one count of theft of
                                                        the 32,000 postal retail locations. Employees
                                                                                                               public money and was sentenced to 6 months
                                                        who embezzle funds, kite or otherwise misuse
                                                                                                               home confinement, 5 years’ probation, and
                                                        money orders, or steal and misuse postal-
                                                                                                               ordered to pay $70,947 in restitution to the
                                                        issued credit cards receive investigative
                                                                                                               Postal Service, and an assessment fee of $100.
                                                        attention from our special agents.
                                                                                                              In January 2013, a Wyoming postmaster
                                                         A Colorado lead sales and service associate
                                                                                                               was sentenced in federal court to 5 years of
                                                          pleaded guilty in January 2013 to one count
                                                                                                               probation and roughly $6,000 in restitution to
                                                          of theft of public money and was sentenced
                                                                                                               the Postal Service. The employee defrauded
                                                          to 3 years of probation, about $7,000 in
                                                                                                               the Postal Service by failing to report the sales
                                                          restitution, and $1,100 in fines and fees.
                                                                                                               of stamps, and submitting unsupported false
                                                          The investigation determined the associate
                                                                                                               entries to reduce the office stamp accountability.
                                                          falsified at least 30 daily station bank
                                                                                                               When interviewed, the employee admitted
                                                          deposits between October 2008 and April
                                                                                                               to the theft of funds. The Postal Service
                                                          2011. The loss to the Postal Service was
                                                                                                               terminated the employee in April 2012.
                                                          approximately $7,000. The Postal Service
                                                          terminated the employee in February 2012.
                                                                                                              Special agents identified approximately 50
                                                                                                               instances in which a Kansas sales and service
                                                         An OIG investigation determined that an Arizona
                                                                                                               associate mishandled postal funds by failing to
                                                          lead sales and service associate intentionally
                                                                                                               record or voiding stamp sales. When interviewed,
Office of




                                                          shipped stamp stock back and forth between
                                                                                                               the associate admitted to stealing postal funds
                                                          the unit reserve and floor stock inventory prior
                                                                                                               for personal use. The employee resigned
                                                          to audits to conceal a shortage. The employee
                                                                                                               from the Postal Service in September 2012
                                                          utilized the user identifications and passwords
                                                                                                               and in February 2013, the former employee
                                                          of various managers to access the system
                                                                                                               was sentenced in federal court to 3 years of
                                                                                                                                            Healthcare Fraud




  probation and about $6,500 in restitution.            A former New York postmaster relief was             An investigation of a Colorado rural letter carrier
  The sentencing followed the associate’s                sentenced in November 2012 to 9 months                in October 2012 led to DOL terminating the rural
  guilty plea to three counts of making false            in federal prison, 3 years of supervised              carrier’s receipt of compensation benefits, a
  entries and reports of Postal Service funds.           release, and about $51,000 in restitution to          savings of more than $925,000 to the Postal
                                                         the Postal Service. Agents determined the             Service. The investigation determined that the
 OIG agents determined that a Kentucky officer         former postmaster relief embezzled postal             rural carrier, who was disabled from work for a
  in charge had embezzled Postal Service funds           funds by negotiating fraudulent money orders          back and neck injury, performed activities without
  that included about 130 postal money orders.           at local businesses. The employee failed to           evidence of significant disability. The carrier’s
  When interviewed, the employee admitted                properly report the money orders as being             activities were inconsistent with the carrier’s
  to embezzling Postal Service funds from the            sold. The employee used the Postal Service            restrictions related to driving, walking, squatting,
  sale of postal money orders. The employee              funds to support a heroin addiction.                  kneeling, bending at the waist, twisting, reaching,
  resigned from the Postal Service in July 2011.                                                               and simple grasping. The carrier’s activities
  In November 2012, the former employee                 OIG agents determined that a Michigan                included traveling 2 hours to a campground,
  was sentenced in federal court to 1 year of            postmaster had underreported postage sales.           driving a full-size pickup, stepping into and from
  probation, which included 6 months of home             When interviewed, the postmaster admitted             a motorhome, and lifting and carrying a small
  confinement, and ordered to pay approximately          to taking postal funds for personal use. The          dog and a folding chair. A referee doctor stated
  $17,500 in restitution to the Postal Service.          postmaster resigned from the Postal Service. In       the rural carrier had dramatic and exaggerated
                                                         October 2012, the postmaster pleaded guilty to        symptom presentation and clinical presentation,
 A Maryland registry clerk was sentenced               one count of misappropriation of postal funds. In     which was entirely out of line with the medical
  in October 2012 in federal court to 5 years            March 2013, the postmaster was sentenced to           documentation, therapy results, imaging,
  of probation, including 6 months of home               30 days in federal prison, 1 year of supervised       examination, and especially the surveillance
  detention, and approximately $43,000                   release, approximately $3,400 in restitution          video. The doctor saw no reason that the carrier
  in restitution to the Postal Service. The              to the Postal Service, and a $1,000 fine.             could not resume full job duties. In December,
  employee pleaded guilty to the embezzlement                                                                  postal management issued the carrier a Notice
  of government funds in July 2012. Agents              An Illinois officer in charge pleaded guilty in      of Removal for Unacceptable Conduct based
  determined the clerk stole postal bank deposits        October 2012 to a misdemeanor theft charge.           on the investigation. In January, the removal
  totaling almost $43,000. In August 2011, the           The employee was concurrently sentenced               was reduced to a 14-day paper suspension.
  employee retired while under investigation.            to 120 days in prison, 2 years of probation,
                                                         and about $3,500 in restitution to the Postal        As a result of an OIG investigation, DOL
 An OIG investigation found that a Maryland sales      Service. Agents determined the employee’s             terminated a Washington state letter carrier’s
  and service associate had converted postal             stamp and cash credits were short $400                medical and compensation benefits, resulting in
  funds for personal gain. The associate negotiated      and seven postal money orders were issued             a savings of more than $1.6 million to the Postal
  about $7,000 in bad checks, conducted                  for personal use. When interviewed, the               Service. The investigation determined that the
  $2,500 in fraudulent refund transactions,              officer in charge admitted to the theft and           carrier, who was disabled from work for a back
  and underreported postage sales. When                  then resigned from the Postal Service.                sprain with total restrictions for kneeling, bending,
  interviewed, the employee admitted to the theft.                                                             twisting, and simple grasping, was performing
  In October 2012, the associate was removed                                                                   these activities. Agents witnessed the carrier
  from the Postal Service, and 3 months later the      Healthcare Fraud                                        playing miniature golf and shopping, without
  associate pleaded guilty to a theft charge. The      The monetary and medical benefits paid by the           evidence of significant disability. Subsequently,
  former employee was sentenced to 15 days in          Postal Service to workers’ compensation claimants       the carrier’s doctor deemed the carrier was
  prison, 3 years of probation, and approximately      (employees who sustained job-related injuries) in       fit for full-duty work without restrictions.
  $9,800 in restitution to the Postal Service.         FY 2012 totaled almost $1.4 billion and its
                                                       estimated total liability for future workers’          An OIG investigation revealed that a New York
 In October 2012, a New York lead sales, service     compensation costs is more than $17.5 billion.          postal clerk who claimed to be totally disabled
  and distribution associate pleaded guilty in         Administered by the U.S. Department of Labor            with right shoulder, arm, and wrist injuries
  federal court for misappropriation of postal funds   (DOL), the Office of Workers’ Compensation              frequently worked as a singer and dancer at
  and false statements. Agents determined the          Programs (OWCP) provides direct compensation            venues throughout the New York City area
  employee reported 25 legitimate money orders         to providers, claimants, and beneficiaries. The         and failed to report the outside income and
  as void totaling approximately $20,000. The          Postal Service later reimburses the OWCP in             employment. In January 2013, DOL OWCP
  employee was sentenced to 1 year of probation        a process known as “charge-back billings.”              terminated the clerk’s medical and wage loss
  and $20,000 in restitution to the Postal Service     Investigative efforts during this reporting period      benefits. Agents contacted the employee in
  for the embezzlement. In June 2011, the              resulted in more than $99 million in cost savings       an undercover capacity and the employee was
  employee was removed from the Postal Service.        or avoidances, 31 arrests, and 80 administrative        hired to perform at a birthday party. Videos
                                                       personnel actions, including removals and               and photos were taken throughout the 1-hour
                                                       suspensions and termination of benefits.                performance, which showed the employee



October 1, 2012 — March 31, 2013                                                                                                                                  15
Healthcare Fraud
                                                               dancing, holding a microphone, and raising her         rural carrier’s compensation benefits, resulting in
                                                               right arm continuously above her shoulder. The         a cost avoidance of nearly $1.4 million. The rural
                                                               employee was removed from the Postal Service           carrier was also removed from the Postal Service.
                                                               and the termination of OWCP benefits resulted
                                                               in a cost avoidance of about $1.7 million.            An OIG investigation resulted in a California
                                                                                                                      letter carrier pleading guilty in April in Superior
                                                              In June, 2006, a Pennsylvania letter carrier          Court of California to two misdemeanor counts
                                                               filed a claim with OWCP for hallux rigidus, a          of insurance fraud. In June 2003, the carrier
                                                               bilateral foot condition. The employee reported        filed a claim for the reoccurrence of an initial
                                                               that the condition developed while working             injury, reporting that the cause was due to a fall
                                                               in a limited duty capacity. Agents conducted           on algae and moss on a sidewalk while at work.
                                                               surveillance on various dates in 2011 and 2012.        Agents determined the letter carrier fell while off
                                                               Agents interviewed the employee’s treating             duty. The carrier received earnings for driving
                                                               physician and presented the video surveillance         an elderly parent to appointments and shopping.
                                                               footage, which showed the employee engaged             Our investigation disclosed the carrier received
                                                               in various activities. The treating physician          a settlement of $10,500 from the insurance
                                                               stated he was told the former employee was             company of the landlord where the fall occurred.
                                                               retired. After watching the surveillance video,        The carrier failed to report that payment and
                                                               the physician concluded the former employee            earnings to the DOL. The carrier also continued
                                                               was not totally disabled and had no residuals          to receive OWCP benefits for a year after failing
                                                               of the hallux rigidus condition. The physician         to report the income. The investigation resulted
                                                               provided a signed statement indicating the             in a cost avoidance of about $1.5 million.
                                                               former employee could return to work full-duty
                                                               without restrictions. In October 2012, OWCP           OIG agents determined that an Oklahoma
                                                               terminated the former employee’s benefits              letter carrier received OWCP payments for
                                                               resulting in a cost avoidance of about $918,000.       medical expenses, and fraudulently inflated
                                                                                                                      mileage reimbursements from 2007 through
                                                              Agents determined that a Michigan mail                2011. The prosecution maintained the carrier
                                                               processing clerk failed to notify the OWCP,            falsely reported more than 100,000 miles
                                                               as required, that she had returned to work.            for distances traveled between medical
                                                               The clerk’s failure to disclose this information       appointments. On December 13, 2012,
                                                               caused the clerk to receive more than $10,000          the former letter carrier was sentenced in
                                                               in compensation. When interviewed, the clerk           federal court to 9 months in prison and nearly
                                                               admitted to depositing the money into personal         $52,000 in restitution to the Postal Service.
                                                               checking and savings accounts. The clerk’s
A former rural letter carrier was found guilty of larceny-
                                                               OWCP claim was terminated, resulting in a             OIG agents determined that a New York
false pretenses for not informing authorities that he had      cost avoidance of approximately $1.5 million.          letter carrier receiving compensation benefits
started, owned, and operated a family timber business          The clerk was also removed from the Postal             failed to disclose outside employment at a
while collecting workers compensation. The carrier’s           Service. A federal grand jury indicted her in          bagel shop. When interviewed, the letter
benefits were terminated for a cost avoidance to the           June 2012 and 2 months later she pleaded               carrier stated he assisted at the bagel shop
Postal Service of nearly $1.4 million.
                                                               guilty to one misdemeanor count of false               without receiving compensation. When
                                                               statements or fraud to obtain federal employee’s       agents interviewed the bagel shop owners,
                                                               compensation. In October 2012, the clerk was           they obtained information confirming the
                                                               sentenced in US District Court, to 44 days in          letter carrier had been a paid employee
                                                               prison, and restitution of nearly $5,500.              since September 2007. DOL terminated
                                                                                                                      the letter carrier’s compensation benefits,
                                                              A jury found a Michigan rural carrier guilty in       resulting in a cost avoidance of approximately
                                                               November 2012 of larceny-false pretenses               $900,000. The Postal Service terminated
                                                               over $20,000. One month later, the carrier             the letter carrier’s employment in February
                                                               was sentenced to 1 day in prison, 5 years of           2013, and that same month the letter carrier
                                                               probation, and fined $708. Agents determined           was sentenced to 5 years of probation, 350
                                                               the rural carrier failed to notify the OWCP, as        hours of community service, and to pay about
                                                               required, that the employee started, owned,            $150,000 in restitution to the Postal Service.
                                                               and worked at a family timber business. When
                                                               interviewed, the rural carrier admitted to driving    In January 2013, a Tennessee letter carrier
                                                               and operating vehicles and equipment for the           pleaded guilty to one count of workers’
                                                               business. The rural carrier also admitted to           compensation fraud related to fraudulent
                                                               negotiating contracts and performing banking           reimbursement claims. Agents determined
                                                               and other administrative functions associated          the employee submitted multiple fraudulent
                                                               with running the business. OWCP terminated the         reimbursement claims for gym memberships



16                                                                                                                                     Semiannual Report to Congress
                                                                                                                                                          Mail Theft
  and travel claims for mileage driven. When             empty envelopes that once contained cash
  interviewed, the employee admitted to                  donations. The investigation determined the
  fraudulently receiving payments for annual             letter carrier stole around 29,000 pieces of
  gym memberships and mileage since 2005.                First-Class Mail containing donations of about
  In December 2012, DOL terminated the                   $276,000. In December 2012, the letter carrier
  employee’s benefits resulting in a cost avoidance      was sentenced in federal court to 30 months
  of about $400,000. Sentencing is pending.              in prison, 2 years of supervised release, and
                                                         restitution of approximately $276,000 to victims.
 An OIG investigation prompted DOL to terminate
  a Georgia mail processing clerk’s medical and         An investigation revealed that an Illinois mail
  wage loss benefits in September 2012. Agents           processing clerk stole and fraudulently used a
  determined the employee actively traveled              gift card at Kohl’s. In an interview with agents,
  and performed as a musician while claiming             the clerk admitted to the theft of the gift card,
  that his on-the-job injury prevented him from          as well as insured parcels containing collectible
  working. Agents obtained surveillance video            coins. The Postal Service removed the clerk, who     A California letter carrier admitted to stealing mail
  of the employee performing on stage, playing           subsequently pleaded guilty to theft of mail. In     from multiple routes and selling items on the Internet.
  paint ball, and performing at various venues           November 2012, the clerk was sentenced to 3          Investigators recovered hundreds of DVDs, multiple
  in contradiction of stated medical restrictions.       years of probation and 6 months to a community       boxes of medication, and a flat screen television.
  The Postal Service terminated the employee             confinement facility. The clerk was also ordered
  in January 2013. This case resulted in a cost          to pay restitution in excess of $5,000, of which
  avoidance of approximately $2 million.                 $3,600 is to be paid to the Postal Service.

                                                        Special agents observed a mail processing
Mail Theft                                               clerk stealing gift cards and then confronted
Special agents investigate allegations of                the clerk and recovered the stolen mail. Agents
postal employees delaying, destroying, or                executed federal search warrants on the clerk’s
stealing mail. Investigations of suspected               car and residence, yielding additional stolen
employees are referred to prosecutors or to              mail. The mail processing clerk admitted to
management for administrative action.                    stealing from more than 250 victims. In June
                                                         2012, the clerk was indicted by a federal grand
 In November 2012, a California letter carrier         jury and 2 months later the clerk was removed
  pleaded guilty to theft of mail. During an             from the Postal Service. In October 2012,
  interview with agents, the letter carrier              the processing clerk pleaded guilty in U.S.
  admitted to stealing mail from multiple routes         District Court for the District of Maryland to one
  and selling the stolen items on the Internet. A        count of theft of mail by a postal employee. In
  federal search warrant executed at the carrier’s       January, the former mail processing clerk was
  residence resulted in the recovery of hundreds         sentenced to serve 366 days in prison, 3 years of
  of Netflix DVDs, numerous rifled parcels               supervised release, a $100 special assessment,
  including multiple boxes of medication, a flat         and victim restitution of around $1,200.             A complaint from a charitable organization prompted
  screen television, and other miscellaneous                                                                  an OIG investigation into an Illinois letter carrier, who
  items stolen from the mail. The letter carrier        An OIG investigation determined that a Georgia      confessed to stealing envelopes containing charitable
  resigned from the Postal Service. In February          rural carrier stole mail, credit cards, and other    donations totaling $270,000 over a 3-year period.
  2013, the letter carrier was sentenced to 5            personal information from about 85 postal
  years of probation, 1,500 hours of community           customers and then opened a variety of
  service, and a $100 special assessment.                financial accounts in the victims’ names.
                                                         The investigation also revealed
 The OIG initiated an investigation of an Illinois     the rural carrier obtained a job
  letter carrier after receiving a complaint from        in the Post Office under an
  a charitable organization regarding missing            identity stolen from another
  donations. In an interview with agents, the            person in 2004. As a result
  letter carrier confessed to stealing envelopes         of the investigation, the Postal
  containing donations over a 3-year period. Agents      Service terminated the rural
  also conducted a search of the letter carrier’s        carrier in August 2010. In October
  residence and removed 21 large bags full of            2012, the rural carrier was
  envelopes addressed to the charity. Checks,            sentenced for mail theft in federal
  money orders, and credit card payments were            court to 100 months of federal
  recovered from the rifled envelopes along with         prison, 5 years of supervised




October 1, 2012 — March 31, 2013                                                                                                                                      17
Official Misconduct




                                                             Blockbuster DVDs, Gamefly mailing envelopes             of packages, rifled letters, and greeting cards.
                                                             containing video games, and other mail matter.          During an interview, the letter carrier admitted
                                                             That same month, the carrier resigned from              he failed to deliver mail and used the stolen
                                                             the Postal Service. In December 2012, the               gift cards and credit cards. The Postal Service
                                                             carrier pleaded guilty to obstruction of mail.          terminated the letter carrier in January 2013.
                                                             The carrier was sentenced in February 2013
OIG agents execute a search warrant on a letter              to 1 year of federal probation, about $2,800
carrier’s vehicle. Agents identified a California                                                                  Official Misconduct
letter carrier with a high-volume of mail losses and         restitution, and a $10 special assessment.
discovered about 150 Netflix and Blockbuster DVDs,                                                                 Postal Service employees commit
as well as Gamefly mailing envelopes, in the carrier’s      Two Pennsylvania rural letter carriers pleaded       misconduct when they:
residence and car.                                           guilty to theft of mail and conspiracy in
                                                             Pennsylvania in November 2012. Agents                  Misuse Postal Service computers.
     release, $2,900 special assessment. The rural           determined that the carriers were involved             Destroy or steal postal property.
     carrier’s co-conspirator was sentenced to 78            in a fraudulent income tax return/mail theft           Lie or forge signatures on official documents.
     months of federal prison, 3 years of supervised         scheme. The carriers admitted to providing             Steal funds.
     release and a $2,700 special assessment.                co-conspirators with roughly 100 addresses             Abuse authority.
     Both the rural carrier and a co-conspirator are         on their delivery routes to be used in preparing       Sabotage operations.
     jointly liable for paying $383,000 in restitution.      fraudulent federal income tax returns. The             Use narcotics or sell drugs while on duty.
                                                             carriers stole the fraudulently issued refund          Abuse alcohol while on duty.
 A New York supervisor pleaded guilty in federal           checks from the mail in exchange for payment.
     court in November 2012 to the theft of mail by          The carriers were removed from the Postal             During this reporting period special agents
     a postal employee and possession of stolen              Service in 2011. Sentencing is pending.               completed 282 cases; made 24 arrests; and
     mail. In February of that year, agents identified a                                                           provided the basis for 232 administrative
     supervisor involved in the theft of mail packages      OIG agents observed an Ohio mail processing          personnel actions taken by the Postal Service.
     and $100,000 in postage stamp shipments,                clerk rifle and steal multiple pieces of mail.        Following are examples of cases the OIG
     which were sold on an Internet auction website.         Agents then recovered about 70 pieces of mail,        investigated involving employee misconduct.
     In March 2012, the supervisor was arrested while        20 gift cards, and hundreds of dollars in cash.
     engaged in the theft of mail from the Post Office.      While executing the clerk’s arrest, two agents         Agents determined that while detailed for 5
     The supervisor admitted to the theft resulting in       were assaulted. The clerk resigned in October           years as the Information Technology coordinator,
     removal from the Postal Service in October 2012.        2012 and 2 months later the former clerk pleaded        a New York mail handler defrauded the Postal
     Two months later, the Postal Service issued the         guilty in federal court to 71 counts of mail theft,     Service by obtaining computer equipment
     employee a bill for the postage stamp losses.           12 counts of receipt of stolen mail matter, and         through its procurement system (eBuy), and
                                                             two counts of assault on a federal officer.             selling the items for personal gain on eBay.
 An OIG joint investigation with the Internal                                                                      In December 2012, the mail handler was
     Revenue Service-Criminal Investigation Division        During an OIG investigation, agents recovered          sentenced in U. S. District Court, Eastern
     and the Postal Inspection Service revealed              about 100 Netflix DVDs from a Kentucky highway          District of New York, to 37 months in prison,
     that a New York clerk assisted in a scheme to           contractor’s residence that were admittedly             3 years of supervised release, and about
     defraud the government of more than $2 million          stolen from the mail over the course of 2 to            $490,000 in restitution to the Postal Service.
     dollars in fraudulently filed income tax returns.       3 years. As a result of the investigation, the
     The investigation determined the clerk stole the        contractor was permanently denied access to            A review of Unemployment Insurance (UI)
     fraudulently issued U.S. Treasury checks from           handle and process the mail. In October 2012,           Benefits revealed a former casual mail handler
     the mail and gave them to a co-conspirator              the contractor was sentenced for mail theft             was fraudulently collecting benefits for the period
     in exchange for payment. The clerk pleaded              in federal court to 8 days in prison, 3 years of        of October 2008 through March 2012. The
     guilty in federal court in November 2012, to one        supervised release, approximately $1,600 in             review revealed the mail handler fraudulently
     count of theft of mail and conspiracy to defraud        restitution, and a $200 special assessment.             applied for UI Benefits about 140 times and
     the government. Sentencing is pending.                                                                          received approximately $23,000 in benefits that
                                                            A December 2012 OIG joint investigation with           she was not entitled to. In October 2012, the
 In March 2012, OIG agents identified a California         the local police department identified more             mail handler pleaded guilty to an information for
     letter carrier who had a high volume of mail            than 120 victims of mail theft. During the              theft of government funds. In February, the mail
     losses between August 2011, and January 2012.           investigation, agents and local police officers         handler was sentenced to 3 years of probation,
     In May 2012, a federal search warrant executed          recovered about 10,000 undelivered pieces of            and restitution of approximately $23,000.
     on the carrier’s residence and vehicle resulted         mail from a California letter carrier’s home and
     in the recovery of about 150 Netflix DVD’s,             vehicle. The stolen mail consisted of thousands



18                                                                                                                                    Semiannual Report to Congress
                                                                                                                                                     Contract Fraud
Contract Fraud                                             Service resulting in a letter of demand to the             during contract negotiations. These allegations
                                                           leasing company in the amount of $50,660.                  resulted in the Postal Service and other U.S.
The Postal Service manages contracts, ranging
                                                                                                                      government agencies entering into contracts
from multimillion dollar national contracts for
                                                         In December 2012, the Postal Service                       with higher prices. The settlement also resolved
services, such as transportation networks and
                                                           recovered about $295,000 from a contractor                 allegations that the company engaged in an
IT infrastructures, to local contracts for supplies
                                                           who violated an established highway contract               illegal kickback scheme designed to influence the
and services at individual postal facilities. The OIG
                                                           route (HCR) contract. Agents determined                    government to purchase the company’s products.
aids the Postal Service by investigating allegations
                                                           the HCR hauled non-Postal Service freight
of contract fraud, waste, and misconduct. When
                                                           alongside U.S. Mail and used a Voyager fuel              The OIG initiated an investigation of an HCR in
contract improprieties are documented, special
                                                           card to purchase the fuel. It is against Postal            2010 as a result of allegations of false claims
agents present the evidence for criminal and
                                                           Service policy and a violation of the HCR                  on prevailing wage rates, fringe benefits, and
civil prosecution and administrative remedies.
                                                           contract to engage in both practices. When                 workers’ compensation insurance policies. Initial
                                                           interviewed, the HCR vice president admitted to            research determined the HCR included the cost
 The OIG developed information revealing that
                                                           both violations, which led to the repayment of             of a workers’ compensation insurance policy
  a leasing company engaged in a false billing
                                                           approximately $295,000 to the Postal Service.              which it did not maintain. The HCR owner was
  scheme. A review of 2008 through 2010
                                                                                                                      arrested and charged by the Pennsylvania State
  Common Area Maintenance (CAM) invoices
                                                         The Postal Service realized a recovery of                  Office of Attorney General with 10 counts of
  disclosed several improper line item charges
                                                           approximately $16 million as a result of a                 failure to insure and one count of theft by failure
  for “wages, salaries or other compensation
                                                           multi-agency investigation involving government            to make required disposition of funds received.
  paid to executive employees, or building
                                                           contractor Oracle America Inc. that violated               The HCR owner then pleaded guilty and was
  managers” and an expense for “management.”
                                                           the False Claims Act and the Federal Anti-                 sentenced to 7 years of probation, 100 hours of
  The investigation revealed that the Postal
                                                           kickback Act. A civil settlement agreement                 community service, a $500 fine, and ordered to
  Service overpaid $50,660 for CAM expenses
                                                           resolved allegations that Sun Microsystems, a              pay restitution to the Postal Service in the amount
  associated with its occupancy of a Rhode Island
                                                           corporation that merged with Oracle in 2010,               of $172,069.
  property. A report was issued to the Postal
                                                           provided incomplete and inaccurate information


 Major Fraud Investigations Division
 Government contractor, W.W. Grainger, paid the Postal Service $4 million
 from a settlement agreement as a result of a joint investigation by the OIG,
 the Postal Service Office of General Counsel, and the General Services
 Administration (GSA) OIG into the company’s billing practices. Grainger
 reached a settlement with the Justice Department to resolve all allegations
 against the company that it had submitted false claims under contracts with
 the Postal Service and GSA.

 Grainger sold hardware products and other supplies through GSA’s Multiple
 Award Schedule, which provides the government and other GSA-authorized
 purchases with a streamlined process for procurement of commonly used
 commercial goods and services. The investigation determined that Grainger
 failed to meet its contractual obligations to provide GSA with current, accurate,
 and complete information about its commercial sales practices, including
 discounts afforded to other customers. As a result, government customers of
 Grainger ended up paying higher prices than necessary.

 Grainger also failed to meet its contractual obligation to provide most-
 favored customer pricing in two Postal Service contracts for sanitation and
 maintenance supplies. Agents and auditors from the Postal Service OIG
 discovered that Grainger did not consistently adhere to this requirement,
 causing the Postal Service to pay more than it should have for purchases
 made under the two contracts.

 The contractor agreed to a settlement of $70 million, of which $4 million           A joint investigation by the OIG, the Postal Service, and the General Services
                                                                                     Administration OIG into the billing practices of government contractor
 would be allocated to the Postal Service. The Postal Service also realized          W.W. Grainger resulted in the company paying the Postal Service $4 million to
 a cost avoidance of about $119 million through the renegotiation of future          settle allegations that it had submitted false claims under contracts with the
 contracts with the contractor.                                                      Postal Service.




October 1, 2012 — March 31, 2013                                                                                                                                        19
             APPENDICES
             The Inspector General (IG) Act of 1978 requires semiannual reports on the immediately preceding 6-month periods
             ending September 30 and March 31. These reports are sent to Congress and made available to the public.

             This report summarizes OIG activities and illustrates significant problems, abuses, and deficiencies, along with
             recommendations and corrective actions related to the administration of U.S. Postal Service programs and operations
             during the reporting period.

             The appendices on the following pages fulfill the requirements of the Act.



             APPENDIX A
             Reports Issued to Postal Service Management
             For the period October 1, 2012 — March 31, 2013

             OIG audit teams conduct performance and financial audits, evaluations, and other reviews to address the business of the
             Postal Service. Each team issues audit reports (AR), management advisory (MA), or management alert (MA) reports in
             accordance with the identified needs of the project.



                Definitions:
                Questioned Costs. A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law,
                regulation, contract, and so forth.

                Unsupported Costs. A cost that is not supported by adequate documentation. Unsupported costs are included with
                the amounts shown as Questioned Costs.

                Funds Put to Better Use. Funds that could be used more efficiently by implementing recommended actions.

                Revenue Impact. Amounts from revenue-generating functions such as retail sales, rent, leases, or fees that
Appendices




                were underpaid or not realized. In addition, this category includes increased revenue from existing functions and
                generating revenue from new sources.

                PARIS Risk Models. Performance and Results Information System (PARIS) models with data visualization
                techniques. These models identify operational and financial risks, and enable OA staff to conduct reviews of Postal
                Service functions on a nationwide basis, while also identifying areas of emerging risk — fundamentally challenging
                the way the OIG examines and monitors risk. We present quarterly summary results and trend analyses of these
                risk models to key Postal Service executives and stakeholders.
                                                                                                                                                                     APPENDIX A




Summary
                                                Number of                     Funds Put                                                     Unsupported
 Strategic Goals                                  Reports                  to Better Use              Questioned Costs                   Questioned Cost         Revenue Impact
 Provide High Quality Service                               5                            —                              —                              —                      —
 Generate Net Income                                       34                  $   2,679,553                  $ 343,307,032                  $ 342,513,559          $ 103,345,727
 Improve Workplace and Workforce                           12                  $ 263,921,877                  $ 42,932,241                   $ 40,457,411                     —
 Corporate Responsibility                                   5                            —                              —                              —                      —
 SUB-TOTAL                                                 56                  $ 266,601,430                  $ 386,239,273                 $ 382,970,970           $ 103,345,727
 PARIS Risk Model Reports                                  36                            —                              —                              —                      —
 TOTAL                                                     92                  $ 266,601,430                  $ 386,239,273                 $ 382,970,970           $ 103,345,727




Reports with Quantifiable Potential Monetary Benefits
                                                                                             Funds Put                                         Unsupported
                                                                                          to Better Use         Questioned Costs           Questioned Costs      Revenue Impact
 GENERATE NET INCOME
 Data Analysis and Performance
 Caller and Reserve Service Operations; DP-AR-13-001; 1/3/2013                                          —                          —                         —         $1,073,064
 Express Mail Corporate Account Revenue; DP-AR-13-003; 3/1/2013                                 $2,645,553                         —                         —         $3,533,161
 Finance
 Consigned Vehicle Parts; FT-AR-13-010; 3/18/2013                                                       —                          —                         —         $2,193,000
 Officer Compensation for Calendar Year 2011; FT-AR-13-001; 10/19/2012                                  —                     $110,011                       —                —
 Sales and Marketing
 Advertising Program; MS-AR-13-002; 1/4/2013                                                            —                $6,981,732                 $6,981,732                —
 Federal Shipping; MS-AR-13-004; 1/18/2013                                                              —                          —                         —        $73,600,000
 Funnel Management Program; MS-MA-13-001; 3/20/2013                                                     —                          —                         —         $7,200,000
 Military Mail Reimbursements; MS-AR-13-006; 3/21/2013                                             $34,000                $593,462                           —                —
 Supply Management and Facilities
 Accenture Federal Services Contracts; SM-MA-13-001; 12/17/2012                                         —               $8,294,045                 $8,204,045                 —
 Best Value in the Purchasing Process; CA-AR-13-001; 10/9/2012                                          —              $327,327,782               $327,327,782                —
 Hybrid Mail Efforts; SM-MA-13-004; 2/12/2013                                                           —                          —                         —        $15,746,502
 IMPROVE WORKPLACE AND WORKFORCE
 Information Technology
 Information Technology – Contractor Timecard Approvals in the Program Cost                             —              $38,206,232                $38,206,232                 —
 Tracking System; IT-AR-13-001; 10/5/2012
 Network Processing and Transportation
 Washington Network Distribution Center – Postal Vehicle Service Operations;                     $4,767,190                        —                         —                —
 NO-AR-13-001; 3/21/2013
 Sales and Marketing
 Flat-Shaped Mail Costs; MS-AR-13-003; 1/4/2013                                                $259,154,687                        —                         —                —
 Supply Management and Facilities
 Independent Audit of Florence Manufacturing Company Firm Fixed Price Proposal                          —                $4,726,009                 $2,251,179                —
 for Electronic Parcel Locker - Production; SM-CAR-13-002; 11/29/2012
 TOTAL                                                                                     $266,601,430               $386,239,273               $382,970,970        $103,345,727




October 1, 2012 — March 31, 2013                                                                                                                                               21
APPENDIX A




Report Listing
Complete listing of all OIG reports issued to Postal Service management.

For the period October 1, 2012 — March 31, 2013


PROVIDE HIGH QUALITY SERVICE                          Fiscal Year 2012 Financial Testing Compliance          Sales and Marketing
                                                      Oversight Plant Verified Drop Shipment Reviews;
Delivery and Post Office Operations                   FT-MA-13-005; 1/30/2013                                Advertising Program; MS-AR-13-002; 1/4/2013
Data Usage in Retail Operations; DR-AR-13-002;        Fiscal Year 2012 Postal Service Financial              Federal Shipping; MS-AR-13-004; 1/18/2013
3/8/2013                                              Statements Audit – San Mateo Accounting                Funnel Management Program; MS-MA-13-001;
Information Technology                                Services; FT-AR-13-006; 12/20/2012                     3/20/2013
Web Server Security Assessment; IT-AR-13-004;         Fiscal Year 2012 Postal Service Financial              International Small Business Commerce;
3/4/2013                                              Statements Audit – St. Louis Accounting Services;      MS-WP-13-001; 1/30/2013
                                                      FT-AR-13-005; 12/17/2012
Network Processing and Transportation                                                                        Military Mail Reimbursements; MS-AR-13-006;
                                                      Fiscal Year 2012 Postal Service Financial              3/21/2013
Customer Service Feedback; NO-MA-13-001;              Statements Audit - Washington, D.C. Headquarters;
12/17/2012                                            FT-AR-13-007; 1/4/2013                                 Residential Customer Service Experiences;
                                                                                                             MS-AR-13-005; 3/18/2013
Federal Express Air Transportation Container          Fiscal Year 2013 Field Testing Control and Oversight
Weights; NO-MA-13-002; 12/20/2012                     Plant Verified Drop Shipment Reviews;                  Supply Management and Facilities
Postal Service Performance During the Fiscal          FT-MA-13-008; 2/12/2013                                Accenture Federal Services Contract;
Year 2013 Fall Mailing Season; NO-AR-13-002;          Officer Compensation for Calendar Year 2011;           SM-MA-13-001; 12/17/2012
3/29/2013                                             FT-AR-13-001; 10/19/2012                               Best Value in the Purchasing Process;
GENERATE NET INCOME                                   Officers’ Travel and Representation Expenses for       CA-AR-13-001; 10/9/2012
Data Analysis and Performance                         Fiscal Year 2012; FT-AR-13-004;12/11/2012              Cartus Corporation’s Selling Efforts for
                                                      Opinion on the Postal Service’s Special-Purpose        Postal Service-Owned Properties; SM-MA-13-003;
Caller and Reserve Service Operations;                                                                       2/1/2013
DP-AR-13-001; 1/3/2013                                Financial Statements; FT-AR-13-003; 11/16/2012
                                                      Postal Service Board of Governors’ Travel and          Hybrid Mail Efforts; SM-MA-13-004; 2/12/2013
Express Mail Corporate Account Revenue;
DP-AR-13-003; 3/1/2013                                Miscellaneous Expenses for Fiscal Year 2012;           Independent Report on the Application of Agreed-
                                                      FT-AR-13-008; 1/4/2013                                 Upon Procedures for Videojet Technologies, Inc. for
Finance                                                                                                      Solicitation Number 3CT-12-A-0233;
                                                      Quarter 1 – Fiscal Year 2013 Field Testing Control
Bank Secrecy Act Compliance for Fiscal Year 2012;     and Oversight Continuous Detached Mail Unit            SM-CAR-13-003; 1/18/2013
FT-AR-13-002; 11/9/2012                               Reviews; FT-MA-13-011; 2/14/2013                       Trends and Systemic Issues in Defense Contract
Consigned Vehicle Parts; FT-AR-13-010;                Quarter 1 – Fiscal Year 2013 Field Testing Control     Audit Agency Audit Work for Fiscal Years 2009-
3/18/2013                                             and Oversight Business Mail Entry Unit/Staged          2012; SM-MA-13-002; 3/15/2013
                                                      Detached Mail Unit Reviews; FT-MA-13-010;              IMPROVE WORKPLACE AND WORKFORCE
Fiscal Year 2012 Financial Testing Compliance
                                                      2/14/21013
Oversight Business Reply Mail Reviews;                                                                       Data Analysis and Performance
FT-MA-13-004; 1/29/2013                               Quarter 4 – Fiscal Year 2012 Field Testing Control
                                                      and Oversight Business Mail Entry Unit/Staged          Biohazard Detection System Progress;
Fiscal Year 2012 Financial Testing Compliance                                                                DA-MA-13-001; 10/2/2012
                                                      Detached Mail Unit Reviews; FT-MA-13-001;
Oversight Business Mail Unit Entry Unit/Staged
                                                      10/31/2012
Detached Mail Unit Reviews; FT-MA-13-006;                                                                    Delivery and Post Office Operations
2/6/2013                                              Quarter 4 – Fiscal Year 2012 Field Testing Control
                                                                                                             Delivery Operations Data Usage; DR-AR-13-001;
                                                      and Oversight Business Reply Mail Reviews;
Fiscal Year 2012 Financial Testing Compliance                                                                10/11/2012
                                                      FT-MA-13-002; 10/31/2012
Oversight Continuous Detached Mail Unit Reviews;
FT-MA-13-007; 2/4/2013                                                                                       Lessons Learned from Mail Processing Network
                                                      Quarter 4 – Fiscal Year 2012 Field Testing Control
                                                                                                             Rationalization Initiatives; NO-MA-13-004;
                                                      and Oversight of Continuous Detached Mail Unit
                                                                                                             3/27/3013
                                                      Reviews; FT-MA-13-003;11/1/2012




22                                                                                                                             Semiannual Report to Congress
                                                                                                                                                     APPENDIX A




Lessons Learned from Retail Optimization Initiatives;   Supply Management and Facilities                   Finance
DR-MA-13-001; 3/21/2013
                                                        Financial Capability Risk Assessment Automated     Fiscal Year 2012 Postal Service Financial
Human Resources and Support                             Control Technologies, LLC; SM-CAR-13-001;          Statements Audit – Eagan Accounting Services;
                                                        11/15/2012                                         FT-AR-13-009; 2/5/2013
Workers’ Compensation Data Systems;
HR-AR-13-001; 12/24/2012                                Independent Audit of Florence Manufacturing        Statistical Tests for Fiscal Year 2012;
                                                        Company Firm Fixed Price Proposal for Electronic   FT-MA-13-009; 2/19/2013
Information Technology                                  Parcel Locker – Production; SM-CAR-13-002;
                                                        11/29/2012                                         Human Resources and Support
Information Technology – Contractor Timecard
Approvals in the Program Cost Tracking System;          Network Processing and Transportation              Survey of Environmental Compliance and
IT-AR-13-001; 10/5/2012                                                                                    Sustainability; HR-MA-13-001; 12/17/2012
                                                        High-Risk Voyager Policy and Procedure Changes
Network Processing and Transportation                   for Highway Contract Routes; NO-MA-13-003;         Information Technology
Washington Network Distribution Center – Postal         3/22/2013                                          Fiscal Year 2012 Information Technology Internal
Vehicle Service Operations; NO-AR-13-001;               CORPORATE RESPONSIBILITY                           Controls; IT-AR-13-003; 1/28/2013
3/21/2013
                                                        Data Analysis and Performance                      Information Technology Data Usage; IT-AR-13-002;
Sales and Marketing                                                                                        11/28/2012
                                                        Controls to Detect Money Order Fraud;
Delivery Unit Optimization Initiative; MS-AR-13-001;    DP-AR-13-002; 2/7/2013
12/6/2012
Flat-Shaped Mail Costs; MS-AR-13-003; 1/4/2013




October 1, 2012 — March 31, 2013                                                                                                                              23
APPENDIX A




PARIS Risk Models
Complete listing of all OIG PARIS Risk Models issued to Postal Service management.
For the period October 1, 2012 — March 31, 2013

Data Analysis and Performance                        Fiscal Year 2012 Mail Security Risk Model Quarter    Fiscal Year 2013 Machines That Speak Model,
                                                     1; HR-PM-13-005; 2/20/2013                           Quarter 1; NO-PM-13-007; 2/5/2013
Fiscal Year 2012 Cost and Controls Model Quarter
4; DP-ID-13-002; 11/15/2012                          Fiscal Year 2012 Mail Security Risk Model Quarter    Fiscal Year 2013 Surface Transportation PARIS Risk
                                                     4; HR-ID-13-001; 12/5/2012                           Model Quarter 1; NO-PM-13-001; 2/6/2013
Fiscal Year 2012 Workplace Environment Risk
Model Quarter 4; DP-ID-13-003; 11/27/2012            Fiscal Year 2013 Human Capital Optimization Risk     Sales and Marketing
                                                     Model Quarter 1; HR-PM-13-007; 2/25/2013
Delivery and Post Office Operations                                                                       Fiscal Year 2012 Retail Customer Service Risk
                                                     Fiscal Year 2013 Workplace Environment Risk          Model Quarter 4; MS-ID-13-002; 11/14/2012
Fiscal Year 2012 Business Mail Entry Unit Quarter    Model Quarter 1; HR-PM-13-006; 2/21/2013
4; FT-ID-13-002; 11/19/2012                                                                               Fiscal Year 2012 Revenue Generation and
                                                     Information Technology                               Protection Quarter 4; MS-ID-13-001; 11/7/2012
Fiscal Year 2012 City Delivery Efficiency Model
Quarter 4; DR-ID-13-001; 11/14/2012                  Fiscal Year 2012 Information Technology Security     Fiscal Year 2013 Cost, Pricing and Rates Quarter 1
                                                     Risk Model Quarter 4; IT-ID-13-001; 12/11/2012       MS-PM-13-006; 2/20/2013
Fiscal Year 2012 Continuous Auditing of the Postal
Service’s Bank Secrecy Act Compliance Monitoring     Fiscal Year 2012 Information Technology Security     Fiscal Year 2013 Cost, Pricing and Rates; Quarter
System Quarter 4; FT-ID-13-001; 11/14/2012           Risk Model Quarter 1; IT-PM-13-002; 2/20/2013        4; MS-PM-13-005; 2/20/2013
Fiscal Year 2013 - Continuous Auditing of Postal     Network Processing and Transportation                Fiscal Year 2013 Retail Customer Service Risk
Services Bank Secrecy Act Program Quarter 1;                                                              Model Quarter 1; MS-PM-13-004; 2/15/2013
FT-PM-13-003; 2/13/2013                              Fiscal Year 2012 Air Transportation Risk Model
                                                     Quarter 4; NO-ID-13-002; 11/16/2012                  Fiscal Year 2013 Revenue Generation and
Fiscal Year 2013 Business Mail Entry Unit Risk                                                            Assurance Risk Model Quarter 1; MS-PM-13-003;
Model Quarter 1; FT-PM-13-005; 2/15/2013             Fiscal Year 2012 Machines That Speak Risk Model      2/14/2013
                                                     Quarter 4; NO-PM-13-005; 1/22/2013
Fiscal Year 2013 City Delivery Efficiency Model                                                           Supply Management and Facilities
Quarter 1; DR-PM-13-002; 2/14/2013                   Fiscal Year 2012 Risk Model for Network and
                                                     Delivery Optimization Quarter 4; NO-PM-13-004;       Fiscal Year 2012 Real Estate Risk Model Report
Fiscal Year 2013 Financial Cost and Controls Model   2/20/2013                                            Quarter 4; SM-ID-13-001; 11/16/2012
Quarter 1; FT-PM-13-004; 2/15/2013
                                                     Fiscal Year 2012 Surface Transportation PARIS Risk   Fiscal Year 2012 Supplier Solvency Model Quarter
Human Resources and Support                          Model Quarter 4; NO-ID-13-001; 11/8/2012             4; SM-ID-13-002; 11/14/2012
Fiscal Year 2012 Green Risk Model Quarter 1;         Fiscal Year 2013 Air Transportation PARIS Risk       Fiscal Year 2013 Real Estate Risk Model Report
HR-PM-13-004; 2/19/2013                              Model Quarter 1; NO-PM-13-003; 2/14/2013             Quarter 1; SM-PM-13-003; 2/14/2013
Fiscal Year 2012 Green Risk Model Quarter 4;         Fiscal Year 2013 Machine Model Quarter 1;            Fiscal Year 2013 Supplier Solvency Model Quarter
HR-PM-13-003; 2/15/2013                              NO-PM-13-006; 2/28/2013                              1; SM-PM-13-004; 2/15/2013
Fiscal Year 2012 Human Capital Optimization Risk
Model Quarter 4; HR-ID-13-002; 12/6/2012




24                                                                                                                          Semiannual Report to Congress
                                                                                                                                                         APPENDIX B




APPENDIX B
Findings of Questioned Costs
For the period October 1, 2012 — March 31, 2013


As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of questioned costs in audit reports.

Questioned Cost: A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, or contract.

                                                                                                                                               Unsupported Costs
                                                                                                                                                      Included in
Description                                                                                          Number of Reports   Questioned Costs       Questioned Costs
Reports for which no management decision was made at the beginning of the reporting period                          —                   —                         —
Reports requiring management decision that were issued during the reporting period                                   7        $386,239,273               $382,970,970
TOTAL                                                                                                                7        $386,239,273               $382,970,970


Reports for which a management decision was made during the reporting period (i+ii)                                  6        $381,513,264               $380,719,791
     (i) Dollar value of disallowed cost1                                                                            4        $342,899,503               $342,513,559
     (ii) Dollar value of cost not disallowed2                                                                       3         $38,613,761                $38,206,232
Reports for which no management decision was made by the end of the reporting period                                 1          $4,726,009                 $2,251,179
Negotiations are ongoing
Reports for which no management decision was made within 6 months of issuance (See Note 1 for                       —                   —                         —
a list of individual reports)
Reports for which no management decision was made within 1 year of issuance (See Note 2 for a list                  —                   —                         —
of individual reports)



1
    Management partially agreed with the monetary impact in one audit report.
2
    Management partially disagreed with the monetary impact in one audit report.


Note 1 — Reports for which no management decision was made within 6 months of issuance:
None this report period.
Note 2 — Reports for which no management decision was made within 1 year of issuance:
None this report period.
Note 3 — Contract Reports with Significant Audit Finding:
None this report period.




October 1, 2012 — March 31, 2013                                                                                                                                  25
APPENDIX C




APPENDIX C
Recommendations That Funds Be Put to Better Use
For the period October 1, 2012 — March 31, 2013

As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of recommendations for funds that can be put to
better use by management.

Funds Put to Better Use: Funds that could be used more efficiently by implementing recommended actions.

Description                                                                                  Number of Reports   Dollar Value
Reports for which no management decision was made at the beginning of the reporting period                  —               —
Reports issued during the reporting period                                                                   4    $266,601,430
TOTALS                                                                                                       4    $266,601,430


Reports for which a management decision was made during the reporting period (i&ii)                          4    $266,601,430
     (i) Value of recommendations agreed to by management                                                   —               —
     (ii) Value of recommendations that were not agreed to by management                                     4    $266,601,430
Reports for which no management decision was made by the end of the reporting period                        —               —
Reports for which no management decision was made within 6 months of issuance                               —               —
(See Note 1 for a list of individual reports)
Reports for which no management decision was made within 1 year of issuance                                 —               —
(See Note 2 for a list of individual reports)


Note 1 — Reports for which no management decision was made within 6 months of issuance:
None for this report period.
Note 2 — Reports for which no management decision was made within 1 year of issuance:
None for this report period.




26                                                                                                                               Semiannual Report to Congress
                                                                                                                                                        APPENDIX D




APPENDIX D
Other Impacts
For the period October 1, 2012 — March 31, 2013

Overview

Many of our audit reports identify areas for improvement that result in non-monetary benefits to the Postal Service. These benefits include improvements to
service, protection of assets and improvements in the reliability of data.

                                                                                                                       Type of Measure               Value or Amount
IMPROVED SERVICE
Recommendations that address the Postal Service’s efforts to improve the quality and                                   Number of Recommendations                   8
accessibility of its products and services
Number of customer service audits conducted                                                                            Number of Audits                            8


SAFEGUARDING ASSETS
Assets or Accountable Items at Risk
Inadequate internal controls put the value of assets or accountable items (e.g., cash and stamps) at risk of loss      Dollar Value                       $62,550,920
Physical Safety and Security
Dollar value of physical assets (plant, computer equipment, vehicles, etc.) at risk of loss                            Dollar Value                               —
due to inadequate physical protection
Recommendations that address the safety and security of Postal Service employees                                       Number of Recommendations                   2
and/or the work environment
Number of employee/facility safety and security audits conducted                                                       Number of Audits                            6
Information Technology Security
Inadequate controls/protection put the value of data, IT assets (software, networks),                                  Dollar Value                               —
and employee work time at risk of loss
Dollar value of data at risk                                                                                           Dollar Value                               —
Number of data security/IT security audits conducted                                                                   Number of Audits                            9
Revenue at Risk
Dollar value of revenue that the Postal Service is at risk of losing                                                   Dollar Value                       $10,055,307
(Mailer seeking alternative solutions for current services)
Disbursements at Risk
Dollar value of disbursements made where proper Postal Service internal controls and processes were not followed       Dollar Value                      $380,400,000
Goodwill/Branding
An adverse impact on goodwill is an actual event/problem that harms the Postal Service’s reputation                    Number of Issues Identified                18
or a potential problem that could negatively impact the Postal Service “brand name”
Misallocation of Costs
A misallocation of costs can occur when Postal Service costs are misclassified as volume variable, product specific,   Dollar Value                               —
or institutional




October 1, 2012 — March 31, 2013                                                                                                                                  27
APPENDIX D




                                                                                                                            Type of Measure                      Value or Amount
Capital Investment Savings Shortfall and Predicted Savings Shortfall
The difference between the savings predicted by the Decision Analysis Report for capital investment projects and the         Dollar Value                                      —
actual savings realized, and the difference between the savings predicted by the Postal Service for a project (e.g., capital
investment, consolidation, etc.) and the actual savings realized or the OIG estimate of savings which will be realized
Potential Additional Revenue
Revenue the Postal Service potentially generate for goods delivered services rendered based                                 Dollar Value                                       —
on suggested improvements


RELIABILITY OF DATA
Records at Risk
Data at risk of corruption or loss due to inadequate internal controls and/or protection                                    Number of Data Records at Risk                      9
Dollar value of data used to support management decisions that is not fully supported or completely accurate                Dollar Value                               $34,230,374




28                                                                                                                                                   Semiannual Report to Congress
                                                                                                                                                                       APPENDIX E




APPENDIX E
Reports with Significant Recommendations Pending Corrective Actions
For the period through March 2013

As required by the IG Act, the following pages include a list of each audit report for which no management decision has been made by the end of the
reporting period.



                                                     Report Title, Recommendation Summary
                                                     	             R = Recommendation number
 Report Number         Issued Date                   	             TID = Target Implementation Date
 FF-AR-08-131          3/19/2008                     Fiscal Year 2007 Financial Installation Audits – Business Mail Entry Units

                                                     R-2 — 	 Provide proper management oversight and instructions to schedule periodic verifications when Periodicals mailings are
                                                             received during nonbusiness hours. TID: October 2012
 FF-MA-08-001          7/21/2008                     Fiscal Year 2008 – Use of No-Fee Money Orders

                                                     R-2 — 	 Evaluate the feasibility of restricting the use of no-fee money orders for local purchases in order to reduce the Postal
                                                             Service’s exposure to financial loss. TID: September 2013
 IS-AR-09-001          10/8/2008                     Electronic Travel Voucher System Controls

                                                     R-1 — 	 Revise Postal Service Handbook F-15, Travel and Relocation, to require travelers to arrange for lodging at the prevailing
                                                             government lodging rate, whenever practical. TID: February 2013

                                                     R-2 — 	 Revise Postal Service Handbook F-15, Travel and Relocation, to require travelers to obtain prior approval and justify
                                                             exceeding the government lodging rate within the notes on the electronic voucher. TID: February 2013
 IS-AR-09-004          2/20/2009                     Access Controls in the Enterprise Data Warehouse

                                                     R-3 — 	 Update the Business Impact Assessment for the Enterprise Data Warehouse and recertify the system as required by
                                                             Postal Service Handbook AS-805-A, Application Information Security Assurance Process. TID: April 2013
 EN-AR-09-005          9/28/2009                     Performance Goals for Market-Dominant Products

                                                     R-1 — 	 Document the methodology used to develop future performance goals for market-dominant products.
                                                             TID: December 2012
 NL-AR-09-010          9/30/2009                     Fuel Management Consumption Strategies for Surface Network Operations

                                                     R-1 — 	 Revise the fuel consumption strategy for surface network operations covering Postal Service and Highway Contract Route
                                                             transportation to ensure that it is comprehensive and implements the industry best practices identified in our audit.
                                                             TID: June 2011

                                                     R-2 — 	 Assess and implement all opportunities for owned, leased, and contracted vehicles to use technology to reduce wind
                                                             resistance and identify the most viable advanced aerodynamics options consistent with industry best practices and adjust
                                                             contracts as appropriate to account for the reduced fuel need. TID: June 2011

                                                     R-3 — 	 Establish and implement tire inflation maintenance requirements for its owned heavy-duty vehicle fleet, as well as its
                                                             leased, and contracted vehicles consistent with industry best practices and adjust contracts as appropriate to account for
                                                             the reduced fuel need. TID: June 2011

                                                     R-5 — 	 Evaluate Highway Contract Routes and, where feasible, implement speed limit requirements consistent with industry best
                                                             practices, without negatively impacting service and adjust contracts as appropriate to account for the reduced fuel need.
                                                             TID: June 2011




October 1, 2012 — March 31, 2013                                                                                                                                                        29
  APPENDIX E




                              Report Title, Recommendation Summary
                              	             R = Recommendation number
Report Number   Issued Date   	             TID = Target Implementation Date
IS-AR-10-002    12/22/2009    General Control Review of Human Resources Shared Service Center

                              R-2 —	 Initiate appropriate security clearance investigations for all employees in sensitive positions at the Human Resources
                                     Shared Service Center. TID: December 2012
MS-AR-10-001    2/9/2010      Plant-Verified Drop Shipment Controls

                              R-4 —	 Provide an electronic reporting solution whereby Postal Service Form 8125, Plant-Verified Drop Shipment Verification
                                     and Clearance, information at the destination facility can be compared with the information at the origin location.
                                     Discrepancies or incomplete forms should be investigated. TID: October 2013
IS-AR-10-008    5/4/2010      Certification and Accreditation Process

                              R-1 —	 Provide Corporate Information Security the authority necessary to enforce and execute the responsibilities for managing
                                     the Certification and Accreditation process. TID: June 2013

                              R-3 —	 Ensure all portfolio managers receive mandatory training regarding their role, responsibility, and accountability for
                                     implementing and reinitiating the Certification and Accreditation process. This training should also be made available to
                                     all executive sponsors. TID: June 2013

                              R-4 —	 Hold portfolio managers accountable to complete the Certification and Accreditation process within the Technology
                                     Solutions Life Cycle prior to implementing critical applications into the production environment. TID: June 2013

                              R-5 —	 Complete the Certification and Accreditation process for all critical applications currently in production, as required by
                                     Handbook AS-805, Information Security. TID: June 2013

                              R-6 — 	 Ensure the portfolio managers work with the executive sponsors to initiate the recertification process for critical
                                      applications assigned to their functional areas as required by Handbook AS-805, Information Security. TID: June 2013

                              R-7 —	 Develop a formal, centralized mechanism to track the status of all unmitigated residual risks identified in the applications’
                                     risk mitigation plan. TID: June 2013

                              R-8 —	 Input unmitigated residual risks identified in the applications’ risk mitigation plan into the formal, centralized tracking
                                     mechanism and track the risks through resolution. TID: June 2013

                              R-9 —	 Work with executive sponsors to resolve unmitigated residual risks identified in the risk mitigation plans and
                                     recertification letters associated with the critical applications. TID: June 2013

                              R-12 —	Input the Certification and Accreditation documentation for all critical applications into the central repository.
                                     TID: June 2013
CA-AR-10-004    5/27/2010     Contract Payment Terms

                              R-1 —	 Revise the Postal Service’s Supplying Principles and Practices, Section 5 12.2, Payment Time Frame, and other sections
                                     as necessary, with language stating that when contracting officers negotiate payment terms other than net 30 days they
                                     include the business rationale and associated documentation for the payment terms in the contract file.
                                     TID: February 2013
NO-MA-10-001    6/11/2010     Assessment of Overall Plant Efficiency 2010

                              R-1 —	 Reduce 16.2 million workhours by fiscal year 2012 with an associated economic impact of $743,961,610.
                                     TID: December 2012
CI-MA-10-001    6/18/2010     Civil Service Retirement System Overpayment by the Postal Service

                              R-1 —	 Pursue all necessary actions, including those suggested by the Office of Inspector General, to either secure the return of
                                     the $75 billion overpayment or to otherwise realize the benefit of this overpayment to the Postal Service.
MS-AR-10-004    7/28/2010     Efficiency of Retail Customer Service Operations

                              R-2 —	 Explore opportunities to consolidate business mail acceptance operations at post offices, stations, and branches.
                                     TID: October 2012




  30                                                                                                                          Semiannual Report to Congress
                                                                                                                                                      APPENDIX E




                                   Report Title, Recommendation Summary
                                   	             R = Recommendation number
 Report Number      Issued Date    	             TID = Target Implementation Date
 FT-MA-10-001       8/16/2010      Federal Employees Retirement System Overfunding

                                   R-1 — 	 Pursue legislative action to alter the Postal Service’s Civil Service Retirement and Disability Fund contributions for 1
                                           or more years until the Federal Employees Retirement System surplus is extinguished. TID: June 2013

                                   R-2 — 	 Coordinate with the Office of Personnel Management to identify causes of actual payout differences between the
                                           Postal Service and the rest of the federal government and use that information to reduce the risk of future surpluses.
                                           TID: June 2013

                                   R-3 — 	 Pursue legislative action to define future distribution of significant surpluses. TID: June 2013

                                   R-4 — 	 Coordinate with the Office of Personnel Management to create a sub-account within the Civil Service Retirement and
                                           Disability Fund exclusive to the Postal Service. TID: June 2013
 DA-MA-10-004       8/31/2010      Postal Service Patent Management

                                   R-1 — 	 Establish a strategic plan with timelines to capitalize on the Postal Service’s patent inventory strength. TID: June 2012
 CA-AR-10-005       9/20/2010      U.S. Postal Service Purchasing Policies

                                   R-5 — 	 Take steps to ensure full and accurate tracking and public reporting of noncompetitive contracting actions. Data reported
                                           should include, but not be limited to, total dollars committed both competitively and noncompetitively; and the contractor,
                                           dollar value, and noncompetitive justifications for noncompetitive contracts. The tracking mechanism should be able to
                                           identify when a noncompetitive contract has crossed the review and approval threshold based on modification after initial
                                           award. TID: February 2012
 IS-AR-10-014       9/23/2010      Controls Over Payment Card Transaction Data

                                   R-1 — 	 Finalize and implement a Payment Card Industry remediation plan that includes all associated costs, resources, and
                                           milestones needed to achieve and maintain Payment Card Industry-Data Security Standards compliance.
                                           TID: December 2014
 NL-AR-10-010       9/29/2010      Air Networks – Federal Express Transportation Agreement – National Analysis

                                   R-5 — 	 Standardize Postal Service oversight at Terminal Handling Services operations to ensure adequate on-site Postal Service
                                           representation to monitor Federal Express operations and ensure local compliance with established processes and
                                           procedures. TID: October 2012
 NL-AR-10-009       9/29/2010      Management of Mail Transport Equipment - National Analysis

                                   R-1 — 	 Further develop, update and reinforce national mail transport equipment policies and procedures contained in the Postal
                                           Operations Manual and the Postal Handbook PO-502, Container Methods, which address mail transport equipment
                                           inventory and accountability controls, including validating customer mail transport equipment needs as well as tracking
                                           and reconciling mail transport equipment loaned to mailers and other external customers. TID: May 2013
 CA-AR-10-006       9/30/2010      Certification Process for Electronic Payments

                                   R-1 — 	 Develop an oversight mechanism to monitor and ensure contracting officers’ and/or designated officials’ receipt and
                                           certification of invoices. TID: October 2012

                                   R-2 — 	 Reiterate to contracting officers and/or their designees their roles and responsibilities, and the importance of following
                                           Postal Service criteria, policies, and procedures for certification of invoices prior to payment to ensure that invoices are
                                           correct and goods and services were received. TID: October 2012

                                   R-3 — 	 Develop and implement written procedures for receiving invoices for annual highway contract route services and verifying
                                           that services were rendered prior to payment. TID: October 2014

                                   R-5 — 	 Review the $7.6 million in payments made more than 30 days after contract end dates and collect overpayments.
                                           TID: November 2012

                                   R-8 — 	 Ensure that Utility Management System designated official contact information is accurate and that the system requires
                                           positive certification by the designated official before invoice payment. TID: November 2012




October 1, 2012 — March 31, 2013                                                                                                                                      31
  APPENDIX E




                              Report Title, Recommendation Summary
                              	             R = Recommendation number
Report Number   Issued Date   	             TID = Target Implementation Date
FT-MA-10-002    9/30/2010     Summary of Substantial Overfunding and Postal Service Pension and Retiree Health Care Funds

                              R-1 — 	 Develop a comprehensive legislative strategy to recover overfunded amounts. TID: September 2011

                              R-2 — 	 Aggressively pursue and carefully review all available data related to Civil Service Retirement System, Federal Employee
                                      Retirement System, and retiree health benefit calculations, including those associated with determining any overfunding
                                      situations, to ensure that calculations are reasonable and accurate. TID: September 2011
NL-MA-11-001    12/6/2010     Surface Mail Classes on Air Transportation Networks

                              R-1 — 	 Verify that actions already taken related to minimizing surface mail classes on the FedEx Day-Turn network are applied
                                      to other air networks to ensure transportation managers use surface transportation, instead of the FedEx Night-Turn,
                                      commercial air carrier, United Parcel Service, and Christmas air transportation networks to move surface mail types
                                      where possible. TID: December 2012

                              R-2 — 	 Routinely provide headquarters and area management with data, including Transportation Cost System/Cost and
                                      Revenue Analysis data, to monitor and track the volume and avoid additional costs for flying surface mail classes
                                      on the FedEx Night-Turn, commercial air carrier, United Parcel Service, and Christmas air transportation networks.
                                      TID: September 2011

                              R-3 — 	 Reinforce existing policies and procedures for the processing and assigning of mail to air and surface transportation.
                                      TID: None
NO-AR-11-004    12/14/2010    Houston, TX Processing and Distribution Center Mail Consolidation

                              R-1 — 	 Pursue expansion of the North Houston Processing and Distribution Center and consolidate the Houston Processing and
                                      Distribution Center’s mail processing operations into the expanded facility, by fiscal year 2013. TID: September 2013
FF-AR-11-004    12/15/2010    Express Mail Guarantees

                              R-5 — 	 Establish a timeframe for and develop a process to analyze Express Mail refunds by origin and destination to evaluate risk
                                      and identify necessary changes in service in order to make better business decisions for guarantees. TID: July 2013
IT-AR-11-004    3/16/2011     Computer Incident Data Reliability

                              R-3 — 	 Integrate the Data Loss Prevention and Security Information Manager applications with the security incident management
                                      system to ensure a single incident data repository. TID: September 2013

                              R-4 — 	 Either modify the existing incident management system or pursue development of a new system that enforces date and
                                      time value sequence and data validation. TID: September 2013
DA-MA-11-002    4/8/2011      Postal Service Patent Management Continuation

                              R-1 — 	 Work closely with subject matter experts to review highly rated patents to draft claims as appropriate.
                                      TID: September 2013

                              R-2 — 	 Develop a comprehensive strategy for developing patent intellectual property that enhances Postal Service products and
                                      services and its competitive position in the global marketplace and is a source of income. The strategy should capitalize
                                      on patent evaluations performed to date and include an assessment of business options available for achieving the
                                      significant financial returns. TID: September 2013

                              R-3 — 	 Ensure the Postal Service has an effective patent management process and comprehensive licensing program in place.
                                      This establishes control that protects intellectual capital and provides an appropriate return on investment.
                                      TID: September 2013
CA-AR-11-004    4/27/2011     Internal Controls over the Contract Close-out Process

                              R-3 — 	 Establish a periodic control to ensure category management center personnel follow records management requirements
                                      for contract files, including, but not limited to retaining records for the required 6 years. TID: March 2012
NO-MA-11-004    5/20/2011     Assessment of Overall Plant Efficiency 2011

                              R-1 — 	 Reduce 14,017,630 workhours by fiscal year 2012 with an associated economic impact of $647,586,823.
                                      TID: September 2013




  32                                                                                                                       Semiannual Report to Congress
                                                                                                                                                        APPENDIX E




                                   Report Title, Recommendation Summary
                                   	             R = Recommendation number
 Report Number      Issued Date    	             TID = Target Implementation Date
 HR-AR-11-004       5/27/2011      Compliance with Occupational Safety and Health Administration Recordkeeping Requirements

                                   R-2 — 	 Revise the Postal Service Occupational Safety and Health Administration Recordable Date policy to better clarify how
                                           to determine Occupational Safety and Health Administration recordable dates when they differ from the initial injury or
                                           illness date. TID: March 2012

                                   R-4 — 	 Establish mandatory training for officials responsible for determining Occupational Safety and Health Administration
                                           recordable cases and completing related forms. TID: December 2011
 DA-AR-11-008       6/8/2011       Conflicts of Interest: Facility Leases and Contract Delivery Services

                                   R-1 — 	 Revise the Postal Service’s policy for leasing property under 3,000 square feet from employees or relatives to include an
                                           ethics review. TID: June 2013

                                   R-2 — 	 Evaluate the universe of potential facility lease conflicts and develop an action plan to minimize active and future conflicts.
                                           TID: June 2013

                                   R-3 — 	 Implement a control to systemically identify, monitor, and resolve potential conflicts of interest with facility leases and, if
                                           necessary, request waivers for leases that represent conflicts. TID: June 2013
 DR-MA-11-002       7/19/2011      National Assessment of City Delivery Efficiency 2011 - Office Performance

                                   R-1 — 	 Reduce 2,002,690 workhours during fiscal year 2012 with an associated economic impact of $88,192,128. TID: None
 HR-AR-11-005       8/5/2011       Postal Service Facility Security

                                   R-3 — 	 Issue supplemental guidance and enhance internal controls to:
                                            Ensure security control officers conduct facility security surveys as required.
                                            Ensure corrective actions are taken to address security deficiencies.
                                            Ensure security control officers and plant managers take the mandatory security training.

                                   	TID: August 2012
 HR-AR-11-006       8/8/2011       2009 Pay for Performance Program

                                   R-1 — 	 Clarify policies and procedures to better define the relationship between the national performance assessment and core
                                           requirements, and the role of higher level management in the pay for performance process. TID: April 2013

                                   R-2 — 	 Establish and implement mandatory training events that educate new and existing participants and managers on policy,
                                           roles and responsibilities, goal setting, and the program’s objectives. TID: April 2013

                                   R-3 — 	 Evaluate the effectiveness of the current process used to establish and use behavioral core objectives to rate employees’
                                           performance. TID: April 2013
 DA-AR-11-010       8/30/2011      Intelligent Mail: Realizing Revenue Assurance Benefits

                                   R-1 — 	 Establish timeframes for implementing the enhanced/expanded automated verifications as described in the original
                                           Intelligent Mail infrastructure Decision Analysis Report. TID: January 2013

                                   R-2 — 	 Develop a tolerance level for low scan rates to use for exception reporting. TID: January 2013

                                   R-3 — 	 Develop a process for identifying the cause(s) of low scan rates for customer follow-up as warranted. TID: January 2013
 FF-AR-11-013       8/30/2011      Postal Service Refunds

                                   R-2 — 	 Analyze and establish an administrative and minimum fee that will cover processing costs. TID: July 2013

                                   R-4 — 	 Complete the update to the PostalOne! system to enable electronic transmission of Value Added Refund data to accounts
                                           payable. TID: April 2013
 CRR-AR-11-003      9/6/2011       Service Performance Measurement Data - Commercial Mail

                                   R-1 — 	 Establish milestones for implementing recovery of Full-Service Intelligent Mail Barcode discounts provided to mailers
                                           when Full-Service mailings do not meet the specific requirements for the discounts received. TID: November 2013




October 1, 2012 — March 31, 2013                                                                                                                                      33
  APPENDIX E




                              Report Title, Recommendation Summary
                              	             R = Recommendation number
Report Number   Issued Date   	             TID = Target Implementation Date
IT-AR-11-008    9/14/2011     Remote Access Controls

                              R-1 — 	 Implement two-factor authentication to comply with Handbook AS-805 requirements and to meet Payment Card Industry
                                      – Data Security Standards. TID: December 2013

                              R-11 — 	Suspend remote access for all employees or contractors until they complete required security awareness training.
                                      TID: December 2013
HR-AR-11-002    9/19/2011     Postal Service Work Rules

                              R-3 — 	 A comprehensive study to determine the optimal incentive-based carrier compensation system. TID: June 2013
FF-AR-11-015    9/23/2011     Business Mail Acceptance Centralization Process

                              R-2 — 	 Require each district to conduct a centralization feasibility study, document the results, and take action based on the
                                      results of the study, as appropriate. TID: October 2013

                              R-3 — 	 Manage business mail entry workhour usage to achieve 93 percent efficiency and develop tools to monitor performance.
                                      TID: October 2013

                              R-4 — 	 Establish annual goals for business mail entry workhour efficiency to include measuring performance against goals.
                                      TID: October 2013
DR-AR-11-007    9/26/2011     Follow-up on City Delivery Standard Operating Procedures

                              R-1 — 	 Re-evaluate the certification criteria and ensure the criteria require units to meet, at least the national average percent to
                                      standard for office operations. TID: February 2013

                              R-3 — 	 Establish an annual process to de-certify units that do not maintain performance standards after certification.
                                      TID: February 2013
CA-AR-11-007    9/30/2011     Contract Postal Units Contract Oversight

                              R-1 — 	 Require Contract Postal Unit contractors to submit invoices for payment. TID: April 2013

                              R-2 — 	 Create a process to ensure the contracting officer or contracting officer’s representative validates and certifies invoices
                                      prior to payment, using data maintained in the Contract Postal Unit Technology system. TID: April 2013

                              R-3 — 	 Establish a mandatory training procedure to ensure all contract officer representatives receive training of appointed duties
                                      within 2 weeks of notification of the contracting officer’s representative appointment. TID: April 2013

                              R-4 — 	 Develop an oversight mechanism to monitor whether contracting officer’s representatives conduct quarterly performance
                                      and annual financial reviews, obtained completed appointment letters, and retain contract postal unit contracts in the
                                      contract administrative files. TID: April 2013
HR-AR-11-007    9/30/2011     Postal Service Workers’ Compensation Program

                              R-5 — 	 Develop mandatory and refresher training for Postal Service officials responsible for workers’ compensation to ensure
                                      they are aware of their roles and responsibilities for workers’ compensation. TID: September 2013
MS-AR-11-007    9/30/2011     Strategic Approaches to Revenue Protection

                              R-1 — 	 Work with a broadened group of internal and external stakeholders to prepare for streamlining the entry of business mail,
                                      accelerate the timeline for streamlined acceptance and verification, and seek to leverage technology to provide revenue
                                      protection for Basic Service Intelligent Mail and non-automated volumes. TID: October 2013
IT-AR-12-001    10/21/2011    State of Corporate Information Technology Security

                              R-2 — 	 Complete the certification and accreditation process for the remaining national applications. TID: December 2013

                              R-4 — 	 Implement a corporate-wide encryption solution to enhance the sensitive data protection effort. TID: October 2013




  34                                                                                                                         Semiannual Report to Congress
                                                                                                                                                     APPENDIX E




                                   Report Title, Recommendation Summary
                                   	             R = Recommendation number
Report Number       Issued Date    	             TID = Target Implementation Date
CA-AR-12-001        11/2/2011      Contracting Opportunities and Impact of the Service Contract Act

                                   R-2 — 	 Review the benefits of outsourcing cleaning/janitorial service positions and postal service vehicle driver positions and
                                           work with Supply Management to restructure those positions to achieve the most cost effective solution.
                                           TID: March 2013

                                   R-3 — 	 Working with Supply Management and Postal Service program officials, ensure that appropriate financial data are
                                           collected to aid in making in-sourcing/outsourcing decisions. TID: March 2013
HR-AR-12-001        11/14/2011     Postal Service Health and Safety Program

                                   R-1 — 	 Review and revise, as appropriate, supervisor performance measures to place a higher priority on maintaining a safe and
                                           healthy work environment; for example: performance measures could be linked to the number of abated and/or unabated
                                           safety hazards. TID: October 2011

                                   R-4 — 	 Establish and implement standard operating procedures for dock operations. TID: May 2012

                                   R-5 — 	 Perform and oversee preventive maintenance procedures for eyewash and shower units. TID: September 2012

                                   R-6 — 	 Conduct required safety inspections and abate safety hazards in a timely manner to ensure safe and healthy working
                                           conditions for the employees. TID: September 2012

                                   R-7 — 	 Enter Postal Service Forms 1767 accurately and timely in the Safety Toolkit. TID: September 2012
CRR-AR-12-002       12/13/2011     Management Operating Data System

                                   R-1 — 	 Develop a monthly report that identifies the top Management Operating Data System (MODS) operation numbers and
                                           facilities causing MODS errors. TID: March 2012

                                   R-2 — 	 Expand existing Management Operating Data System exception reports to include observations that exceed maximum
                                           machine throughput and manual productivities. TID: March 2012

                                   R-3 — 	 Issue monthly enhanced exception reports to management at the area, district, and facility level to highlight recurring
                                           Management Operating Data System errors at facilities. TID: April 2012

                                   R-4 — 	 Develop controls within the Management Operating Data System (MODS) that enforce the requirement for facility
                                           managers to correct MODS errors in a timely manner. TID: September 2012

                                   R-6 — 	 Monitor operation numbers where the majority of Management Operating Data System errors occur, and determine the
                                           potential impact on applicable cost data. TID: January 2013

                                   R-7 — 	 Evaluate existing quality assurance procedures to determine whether eliminating Management Operating Data System
                                           (MODS) errors at the facility level, and eliminating observations that exceed maximum machine throughputs or manual
                                           productivities, would improve the reliability of MODS based productivities. TID: January 2013
FI-AR-12-001        12/28/2011     Expedited Packaging Supplies Program

                                   R-1 — 	 Implement a comprehensive, automated procedure to determine the quantity of expedited packaging supplies retained by
                                           major mailers, post offices and other facilities that distribute Postal Service’s expedited packaging supplies to customers.
                                           TID: January 2013

                                   R-2 — 	 Develop a comprehensive plan to monitor usage and identify and reduce waste associated with expedited packaging
                                           supplies. TID: January 2013
IT-AR-12-003        1/9/2012       Fiscal Year 2011 Information Technology Internal Controls

                                   R-1 — 	 Implement corrective actions to address all open issues noted in this report for fiscal years 2010 and 2011.
                                           TID: July 2013




October 1, 2012 — March 31, 2013                                                                                                                                     35
  APPENDIX E




                              Report Title, Recommendation Summary
                              	             R = Recommendation number
Report Number   Issued Date   	             TID = Target Implementation Date
IT-AR-12-002    1/9/2012      Patch Management Processes

                              R-1 — 	 Ensure that all operating system and database patches are tested, documented, and implemented as required by
                                      Handbook AS-805, Information Security. TID: September 2013

                              R-2 — 	 Ensure that administrators obtain required policy exception approvals when system patches are not applied.
                                      TID: September 2013

                              R-3 — 	 Ensure that written procedures are developed to define the patch management process for each group, operating system,
                                      and database to include test and back-out plans. TID: September 2013

                              R-4 — 	 Ensure that configuration management inventory records are reconciled to the actual servers and databases for their
                                      respective group. TID: September 2013

                              R-5 — 	 Work together to implement a process to verify that required operating system and database patches distributed to the
                                      mail processing plants are applied. TID: September 2013

                              R-6 — 	 Implement a common method for all entities to track information technology asset and patch information. TID: July 2014

                              R-7 — 	 Ensure vulnerability mediation training is provided to all employees and contractors responsible for enterprise patch
                                      management. TID: July 2014

                              R-8 — 	 Conduct risk assessments and cost analyses to develop an enterprise-wide migration plan for upgrading unsupported
                                      operating systems and databases to vendor-supported software. TID: July 2014

                              R-9 — 	 Adopt a method to identify, capture, and report patch management metrics to assist with oversight of the patch
                                      management process and facilitate related business and security decisions. TID: July 2014
MS-AR-12-002    1/12/2012     Mail Verification Procedures at Detached Mail Units

                              R-1 — 	 Review automation efforts to date to identify improvements that can be made in the interim while mailers continue to
                                      implement Intelligent Mail barcode technologies. TID: June 2013

                              R-2 — 	 Continue ongoing mail verification training efforts while detached mail unit employees continue to use manual mail
                                      verification processes. TID: October 2013

                              R-3 — 	 Enhance automated systems to notify managers when acceptance employees override Mail Evaluation Readability
                                      Lookup INstrument results. TID: June 2013

                              R-4 — 	 Develop and implement automated tools that managers can use to monitor and evaluate detached mail unit staffing and
                                      scheduling. TID: June 2013
NO-AR-12-003    1/20/2012     Consolidation of Mail Processing Operations at the Mansfield, OH Customer Service Mail Processing Center

                              R-1 — 	 Identify repositioning plans for all impacted employees at the Mansfield Customer Service Mail Processing Center.
                                      TID: None

                              R-2 — 	 Continue to monitor and take necessary actions to ensure mail is processed timely at the Cleveland Processing and
                                      Distribution Center. TID: None
CRR-AR-12-003   1/27/2012     Revenue, Pieces, and Weight Inputs Into the Cost and Revenue Analysis Report

                              R-2 — 	 Explore concentrating sampling and data collection of manually processed mail from delivery units to the serving
                                      processing and distribution facilities for Revenue, Pieces, and Weight estimation purposes. TID: October 2014




  36                                                                                                                       Semiannual Report to Congress
                                                                                                                                                      APPENDIX E




                                   Report Title, Recommendation Summary
                                   	             R = Recommendation number
 Report Number      Issued Date    	             TID = Target Implementation Date
 CI-AR-12-004       2/2/2012       Domestic Mail Manual Preparation and Acceptance Mail Instructions

                                   R-1 — 	 Combine and remove all duplications in the Domestic Mail Manual, Quick Service Guides, Business Mail Acceptance, Job
                                           Aids, and Customer Support Rulings; and publish a new document available to all mailers online. TID: November 2013

                                   R-2 — 	 Migrate to a one permit per customer requirement using PostalOne!. TID: August 2013

                                   R-3 — 	 Archive all PostalOne! deleted or canceled permits. TID: April 2015
 NL-AR-12-001       2/2/2012       Postal Vehicle Service Transportation Routes – Margaret L. Sellers Processing and Distribution Center

                                   R-1 — 	 Ensure Margaret L. Sellers Processing and Distribution Center managers follow prescribed fleet management procedures
                                           for making postal vehicle service schedule changes more timely including conducting annual schedule and vehicle
                                           utilization reviews. TID: November 2012

                                   R-2 — 	 Verify the reallocation of 2,424 workhours within existing postal vehicle service (PVS) schedules and reallocate an
                                           additional 5,728 workhours within PVS schedules to accommodate future Flats Sequencing System implementation.
                                           TID: November 2012
 NL-AR-12-003       3/12/2012      Density of First-Class Mail on Air Transportation

                                   R-1 — 	 Continue to develop optimization processes to increase First-Class Mail density to maximize container space.
                                           TID: April 2013

                                   R-2 — 	 For sites equipped with the Advanced Facer Canceler System series 200 machines, separate First-Class Mail to be
                                           transported by air for sorting on a single sorting machine for further processing and dispatch. TID: April 2013

                                   R-3 — 	 Develop targeted secondary sort programs to process First-Class Mail bound for air transportation to maximize container
                                           space. TID: April 2013
 HR-AR-12-002       3/30/2012      Postal Service Mail Security

                                   R-1 — 	 Develop and implement training to ensure personnel responsible for accountable mail and keys understand their
                                           responsibilities. TID: July 2012

                                   R-2 — 	 Establish policies and procedures requiring responsible personnel to conduct periodic reviews to ensure mail
                                           safeguarding and accountability requirements are followed. TID: July 2012

                                   R-3 — 	 Develop and implement training for contract postal unit personnel to ensure they understand their responsibilities
                                           regarding safeguarding mail and accounting for Registered Mail. TID: July 2012
 HR-AR-12-003       3/30/2012      Unauthorized Overtime Usage in Field Operations

                                   R-5 — 	 Establish and implement proactive monitoring processes that include periodic reminders and a system of accountability,
                                           similar to the procedures that have been implemented in the Central Pennsylvania District to minimize unauthorized
                                           overtime. TID: September 2012
 NL-AR-12-005       4/25/2012      Postal Vehicle Service — Nationwide Analysis

                                   R-1 — 	 Instruct area Postal Service officials to follow prescribed fleet management procedures for conducting Postal Vehicle
                                           Service schedule and vehicle utilization reviews and make necessary changes to the schedules in a more timely fashion
                                           (or at least annually) to match the fluid operational changes. TID: None

                                   R-2 — 	 Ensure Postal Service officials change schedules when feasible to reduce overall scheduled workhours and staffing by
                                           increasing the use of non-traditional full-time employees where fewer than 8 hours of work exists. TID: None

                                   R-3 — 	 Encourage area Postal Service officials to negotiate the use of split days off with local union officials where possible to
                                           reduce operating costs through staff reductions. TID: March 2012

                                   R-4 — 	 Instruct processing and distribution center management to issue memorandums to drivers reinforcing the use of seat
                                           belts, chock blocks, and load restraints; and periodically monitor compliance. TID: April 2012




October 1, 2012 — March 31, 2013                                                                                                                                    37
  APPENDIX E




                              Report Title, Recommendation Summary
                              	             R = Recommendation number
Report Number   Issued Date   	             TID = Target Implementation Date
NO-MA-12-001    4/27/2012     Assessment of Overall Plant Efficiency 2012

                              R-1 — 	 Reduce 14,268,171 workhours by fiscal year 2014 with an associated economic impact of $664,997,872.
                                      TID: September 2014
MS-AR-12-003    5/4/2012      Package Delivery Growth

                              R-2 — 	 Develop enhancements to the CustomerFirst! system to ensure that the data and information contained within are reliable
                                      and useful. TID: January 2015

                              R-4 — 	 Evaluate the feasibility of offering a local product the customer either arranges to have picked up or takes to the local
                                      Post Office for sortation and delivery without involving a mail processing plant. TID: December 2013

                              R-5 — 	 Continue to pursue legislative change that will allow the Postal Service to ship beer and wine. TID: January 2014

                              R-6 — 	 Evaluate the feasibility of offering an international service that will allow customers the option of prepaying customs duties
                                      and taxes. TID: September 2013
NL-AR-12-006    5/29/2012     POSTAL SERVICE INITIATIVE: Consolidation of Mail for Transportation Between Network Distribution Centers

                              R-3 — 	 Add Jacksonville Network Distribution Center’s Puerto Rico Highway Contract Routes 32202 and 32204 into the
                                      consolidation initiative. TID: September 2012

                              R-4 — 	 Ensure Postal Service managerial oversight at the contract consolidation facilities. TID: July 2012
DR-AR-12-001    6/5/2012      City Delivery — Street Efficiency San Diego District

                              R-1 — 	 Reduce 83,943 workhours to achieve an associated economic impact of more than $3.3 million annually or $6.8 million
                                      over 2 years. TID: October 2014
NO-AR-12-005    6/5/2012      Efficiency Review of the Cleveland, OH Processing and Distribution Center

                              R-1 — 	 By fiscal year 2017, reduce workhours by 352,388 to produce a cost avoidance of $22.7 million over the following
                                      2 years, or through consolidations, increase mail volume by 377 million, or a combination of workhours reductions and
                                      mail volume increases that will achieve the median productivity level of 1,069 pieces per hour. TID: September 2014
FT-MA-12-002    6/14/2012     Pension and Retiree Health Care Funding Levels

                              R-1 — 	 Pursue legislative action to refund the current pension surplus, and any future pension surpluses, to the Postal Service.
                                      TID: January 2013
DR-AR-12-002    6/14/2012     City Delivery — Excess Routes

                              R-1 — 	 Eliminate 33 excess city delivery routes in their respective districts. TID: May 2013

                              R-2 — 	 Review delivery units consistently using fewer than projected street hours to make appropriate route adjustments,
                                      eliminations, and consolidations. TID: May 2013

                              R-3 — 	 Reallocate the 33 assigned Postal Service-owned delivery vehicles from the eliminated city routes to rural routes
                                      to achieve an associated economic impact of $250,110 annual discounted savings or $500,220 over 2 years.
                                      TID: June 2013




  38                                                                                                                          Semiannual Report to Congress
                                                                                                                                                   APPENDIX E




                                   Report Title, Recommendation Summary
                                   	             R = Recommendation number
 Report Number       Issued Date   	             TID = Target Implementation Date
 IT-AR-12-008        6/25/2012     Security Awareness Training Program

                                   R-1 — 	 Include information security awareness training on the Human Resources mandated training list as part of the Strategic
                                           Training Initiative. TID: June 2013

                                   R-2 — 	 Modify Handbook AS-805, Information Security, to clearly define the users who are required to take the mandatory
                                           information security awareness training. TID: July 2013

                                   R-3 — 	 Establish a monitoring process to track user compliance with Handbook AS-805, Information Security, information
                                           security awareness training requirements. TID: July 2013

                                   R-4 — 	 Work with applicable managers to take appropriate action, including suspending access if necessary, to ensure
                                           employees and contractors complete the security awareness training in compliance with Handbook AS-805, Information
                                           Security, and regulatory requirements. TID: September 2013
 DA-MA-12-005        7/16/2012     21st Century Post Office: Non-Postal Products and Services

                                   R-1 — 	 Develop a strategy to identify, evaluate and offer the most promising non-postal products and services, including how to
                                           overcome identified barriers, when legislation permits. TID: June 2013
 NO-AR-12-007        8/3/2012      Efficiency Review of the Los Angeles Network Distribution Center

                                   R-1 — 	 Reduce workhours by 200,019 by fiscal year 2017 to produce an annual cost avoidance of about $6.5 million, or
                                           increase volume by 39 million pieces, or combine workhour reductions and mail volume increases that will achieve the
                                           above average median productivity level of 117 pieces per hour. TID: February 2015
 CA-AR-12-004        8/6/2012      Unauthorized Contractual Commitments

                                   R-2 — 	 Reinforce current policies by training and conducting periodic reviews to ensure that Supply Management contracting
                                           personnel follow the ratification process and documentation requirements for unauthorized contractual commitments.
                                           TID: March 2013
 CI-AR-12-006        8/14/2012     Delivery Fleet Strategies

                                   R-2 — 	 Establish an annual new vehicle replacement strategy, as part of a comprehensive fleet management strategy, to replace
                                           part of the fleet each year, spread out the expenditures over time, and ensure the overall operational functionality of the
                                           fleet. TID: September 2016
 DR-AR-12-003        8/16/2012     City Delivery — Street Efficiency Capital District

                                   R-1 — 	 Reduce 110,740 workhours to achieve an associated economic impact of $4.5 million annually, or $9 million over 2
                                           years. TID: October 2014
 DR-AR-12-004        8/16/2012     City Delivery — Street Efficiency Louisiana District

                                   R-1 — 	 Reduce 107,550 workhours to achieve an associated impact of more than $4.4 million annually, or $8.8 million over 2
                                           years. TID: September 2014
 EN-AR-12-003        8/17/2012     Efficiency of Customer Service Operations

                                   R-3 — 	 Provide training as needed to customer service managers that would enable them to effectively use managerial reports
                                           and tools. TID: September 2013
 DR-AR-12-005        8/21/2012     Carrier Optimal Routing System Phase ll

                                   R-1 — 	 Continue to pursue funding to resolve performance issues with the Web Carrier Optimal Routing system and implement
                                           the web-based program nationwide. TID: April 2013

                                   R-2 — 	 Re-emphasize performing route adjustments using the Carrier Optimal Routing system to achieve an annual economic
                                           impact of more than $84 million. TID: None

                                   R-3 — 	 Cross-train existing and additional personnel in both Carrier Optimal Routing system database preparation and route
                                           adjustment processes to ensure the availability of adequately trained resources. TID: February 2013




October 1, 2012 — March 31, 2013                                                                                                                                 39
  APPENDIX E




                              Report Title, Recommendation Summary
                              	             R = Recommendation number
Report Number   Issued Date   	             TID = Target Implementation Date
FI-MA-12-014    8/22/2012     U.S. Postal Service Alternate Health Care Plan Proposal

                              R-1 — 	 Revise the Postal Service’s alternative health care plan projected savings to include the additional cost of shifting to the
                                      appropriate discount rate used for funding obligations for federal employee pension and other retirement benefits.
                                      TID: None
DR-MA-12-002    8/24/2012     City Delivery Route Optimization Pilot Initiative

                              R-2 — 	 Execute a new initiative to maximize savings by using lessons learned and data results from the pilot with the goal of
                                      optimizing the full- and part-time staff mix. TID: None
DR-AR-12-006    8/24/2012     City Delivery Staffing

                              R-1 — 	 Balance the number of full-time carriers per route and manage labor cost within established fiscal year budgets.
                                      TID: None

                              R-2 — 	 Continue pursuing the ability to increase the number of part-time, non-career flexible employees at installations
                                      nationwide in the city letter carrier craft to reduce labor costs. TID: None
HR-AR-12-004    8/27/2012     Rehabilitation Assignments for Employees Injured on Duty

                              R-3 — 	 Establish a training plan for employees on the periodic roll who receive and accept an offer to perform vehicle shuttle
                                      service work. TID: None
MS-AR-12-007    9/10/2012     Customer Complaint Resolution Process

                              R-2 — 	 Identify deficiencies and desired enhancements for the Enterprise Consumer Care system and take necessary action to
                                      notify the Information Technology department. TID: September 2013

                              R-3 — 	 Develop a mechanism for tracking Enterprise Consumer Care system usage and wait times and ensuring that current
                                      archiving processes and system outage records are continued. TID: September 2013
IT-AR-12-009    9/12/2012     Security of File Transfer Protocol Transmissions

                              R-1 — 	 Assign a controlling authority the responsibility for managing all electronic file transfer activities and enforcing electronic
                                      file transfer policies. TID: September 2017

                              R-2 — 	 Publish an enterprise-wide management instruction and implement training on secure electronic file transfer usage to
                                      reinforce the requirements of Handbook AS-805, “Information Security.” TID: May 2013

                              R-3 — 	 Direct the controlling authority identified in Recommendation 1 to develop a business case solution to mitigate and,
                                      ultimately, eliminate the use of file transfer protocol transmissions to ensure the protection of sensitive data in accordance
                                      with Handbook AS-805, Information Security. TID: May 2013

                              R-4 — 	 Conduct periodic security assessments to identify and monitor file transfer protocol usage throughout the Postal Service
                                      network. TID: September 2013

                              R-5 — 	 Identify, monitor, and remove all unnecessary file transfer protocol services running on all servers and mainframes and
                                      identify the related sensitive applications. TID: September 2013

                              R-6 — 	 Implement a secure electronic file transfer protocol for receiving manifest files from external business partners.
                                      TID: September 2017
HR-AR-12-005    9/12/2012     State of Security

                              R-1 — 	 Revise procedures to ensure letter carriers clearly understand their responsibilities to identify anonymous mail.
                                      TID: May 2013

                              R-2 — 	 Enhance the nationwide anonymous mail seeding program by establishing procedures for identifying problem facilities
                                      that fail to detect anonymous mail. TID: May 2013

                              R-3 — 	 Require responsible personnel to take additional training to address noncompliance and reduce the failure rate.
                                      TID: May 2013

                              R-4 — 	 Establish procedures for conducting follow-up testing of facilities to address noncompliance with anonymous mail
                                      requirements. TID: May 2013




  40                                                                                                                           Semiannual Report to Congress
                                                                                                                                                     APPENDIX E




                                   Report Title, Recommendation Summary
                                   	             R = Recommendation number
Report Number       Issued Date    	             TID = Target Implementation Date
EN-AR-12-004        9/14/2012      Commercial Mail Entry and Acceptance Initiatives

                                   R-5 — 	 Develop an action plan to address and correct PostalOne! operational problems affecting the integrity, reliability, and
                                           functionality of the system. In addition, conduct thorough testing before releasing and implementing system upgrades.
                                           TID: September 2013
FI-AR-12-004        9/14/2012      Revenue Sharing Agreements

                                   R-5 — 	 Establish and maintain a central repository for all revenue sharing agreement documentation. TID: February 2013

                                   R-6 — 	 Develop detailed policies and procedures for creating, designing, and monitoring revenue sharing agreements and
                                           disseminate the new procedures to the entire organization. TID: February 2013
DA-AR-12-002        9/18/2012      Lease Purchase Options for Postal Service Facilities

                                   R-2 — 	 Establish procedures for assigning lease purchase options to third parties in the real estate market. TID: July 2013
NL-AR-12-009        9/21/2012      Global Positioning System Technology for Highway Contract Routes

                                   R-1 — 	 Update and reinforce policies and procedures for the highway contract route Global Positioning System program with
                                           employees and suppliers, including re-training personnel as necessary and designating necessary resources at plants to
                                           ensure they have an understanding of their roles, responsibilities, and accountability. TID: December 2012

                                   R-2 — 	 Improve the monitoring and validation process for compliance to ensure the timely entry of all contract service changes
                                           in the field, termination of contracts not meeting compliance requirements, and the use of Global Positioning System
                                           compliance as criteria for future contract awards. TID: December 2012

                                   R-3 — 	 Continue to review and update the standard reports available in the Highway Contract Route Tracking Module so
                                           compliance and supplier performance can be monitored or reviewed without a contractor preparing special ad hoc
                                           reports. TID: November 2012

                                   R-4 — 	 Expand the Global Positioning System (GPS) program to include additional highway contract routes where feasible and
                                           explore an end-to-end GPS platform using industry best practices that includes a full-range of functionality and reports
                                           covering applicable contracted transportation. TID: January 2013

                                   R-5 — 	 Re-evaluate data retention requirements of the Highway Contract Route Tracking Module, including the type of data
                                           retained and for how long to include consideration of potential contract and legal challenges to actions taken resulting
                                           from non-compliance with the reporting requirements. TID: June 2013
HR-AR-12-006        9/21/2012      Motor Vehicle Accident Prevention Program

                                   R-2 — 	 Provide periodic refresher training to supervisors on the Safe Driver Program and ensure employees performing driving
                                           observations take the Driver Observation training course. TID: June 2013

                                   R-3 — 	 Establish and implement proactive monitoring processes that include using Department of Motor Vehicle’s databases to
                                           validate driver’s licenses for employees in driving positions. TID: None
NL-AR-12-008        9/21/2012      St. Louis Network Distribution Center — Postal Vehicle Service Operations

                                   R-1 — 	 Periodically assess postal vehicle service spotter truck driver workload and staffing requirements with respect to
                                           productivity standards to maintain appropriate staffing levels. TID: July 2012

                                   R-3 — 	 Ensure that St. Louis Network Distribution Center management re-emphasis the safety policy that drivers must wear
                                           safety belts whenever the vehicle is in motion and provide management oversight for enforcement. TID: September 2012




October 1, 2012 — March 31, 2013                                                                                                                                  41
  APPENDIX E




                              Report Title, Recommendation Summary
                              	             R = Recommendation number
Report Number   Issued Date   	             TID = Target Implementation Date
DR-MA-12-004    9/27/2012     City Delivery Operations — Brick Main Post Office

                              R-1 — 	 Reduce 7,744 office and street workhours in fiscal years 2013 and 2014 to achieve an annual economic impact of
                                      $333,764. TID: September 2014
DA-AR-12-004    9/28/2012     Accuracy of the Electronic Facilities Management System

                              R-1 — 	 Modify the Electronic Facilities Management System to address inconsistency in data entry, including the use of
                                      drop-down lists and requiring completion of all data fields. TID: December 2012

                              R-2 — 	 Develop a plan to require annual review and validation of all Electronic Facilities Management system data by Facilities
                                      Service Office personnel. TID: August 2013

                              R-3 — 	 Develop and administer training for the use of Electronic Facilities Management System. TID: None
DR-MA-12-003    9/28/2012     City Delivery Operations — Lancaster Carrier Annex

                              R-1 — 	 Reduce 12,339 office and street workhours in fiscal years 2013 and 2014 to achieve an annualized economic impact of
                                      $515,838, or $1,031,676 over 2 years. TID: September 2014
NL-AR-12-010    9/28/2012     First-Class Mail on Air Transportation — Assignment by Weight

                              R-1 — 	 Modify the assignment process to assign First-Class Mail to air transportation considering weight where feasible, with
                                      the heavier mail being assigned to FedEx and the lighter mail being assigned to United Parcel Service and commercial
                                      passenger air carriers – with consideration of contractor service performance and future air transportation contract
                                      requirements. TID: March 2013
NL-AR-12-011    9/28/2012     Mail Transport Equipment – Shortages of Pallets, Tubs, and Trays – Fall 2011 Mailing Season

                              R-1 — 	 Finalize procedures, processes, and guidelines to ensure there is effective planning and budgeting for Mail Transport
                                      Equipment (MTE) needs for the fall mailing season, taking into consideration operational and customer needs, financial
                                      condition, MTE leakage, and MTE condemnation. TID: July 2013

                              R-2 — 	 Finalize implementation of prior U.S. Postal Service Office of Inspector General recommendations from the Management
                                      of Mail Transport Equipment (MTE) – National Analysis audit (Report Number NL-AR-10-009, dated September 29,
                                      2010) covering an automated inventory and tracking system, ensuring adequate resources for areas and plants, and
                                      update policies and procedures that support current MTE operational requirements. TID: October 2013

                              R-3 — 	 Finalize processes and procedures (considering costs and benefits) to limit or better control distribution and have visibility
                                      of Mail Transport Equipment distributed to mailers and other customers. TID: January 2014

                              R-4 — 	 Evaluate the best practices identified in this report and identify any applicable industry best practices for implementation
                                      (considering costs and benefits), such as the viability of implementing Radio Frequency Identification technology to
                                      control the leakage of plastic pallets and reduce annual purchase of replacement plastic pallets. TID: March 2013




  42                                                                                                                         Semiannual Report to Congress
                                                                                                                                                        APPENDIX E




                                   Report Title, Recommendation Summary
                                   	             R = Recommendation number
Report Number       Issued Date    	             TID = Target Implementation Date
CA-AR-12-006        9/28/2012      Oversight of Equitable Adjustments

                                   R-1 — 	 Require contracting officers to include a general release of claims in all supplemental agreements that constitute a
                                           release by the supplier for additional costs beyond that which is provided for in the contract modification or a more
                                           specific release in complex or contentious equitable adjustments. TID: November 2012

                                   R-3 — 	 Reiterate the contract file tracking process to ensure contract files are not lost when they are transferred from one office
                                           to another. TID: November 2012
DA-MA-12-006        9/28/2012      Partnerships with Other Government Agencies

                                   R-1 — 	 Clearly define organizational roles and responsibilities for developing and managing partnerships with other federal
                                           agencies and establish a written policy to identify, develop, track, and follow-up on potential partnership opportunities.
                                           TID: February 2013
CI-AR-12-007        9/28/2012      Post-Implementation Review Process

                                   R-1 — 	 Improve the Post-Implementation Review (PIR) process in Handbook PO-408, Area Mail Processing Guidelines, to:
                                            Identify and separate savings and costs associated with concurrent initiatives from savings and costs directly
                                            	 related to the area mail processing consolidation.
                                            Implement the use of automated data calculation and pre-population for PIR worksheets and checklists.
                                            Establish a process to allocate savings and costs when multiple consolidations are made into the same
                                            	 gaining facility.
                                            Assess whether current PIR timelines should be adjusted.

                                   	TID: March 2014
DA-MA-13-001        10/2/2012      Biohazard Detection System Progress

                                   R-1 — 	 Complete a comprehensive update to the 2002 threat assessment to determine risks to the mail stream prior to
                                           procuring new biohazard detection equipment. TID: April 2013

                                   R-2 — 	 Develop a policy requiring periodic update of threat assessments. TID: April 2013
IT-AR-13-001        10/5/2012      Information Technology – Contractor Timecard Approvals in the Program Cost Tracking System

                                   R-2 — 	 Make improvements to the Program Cost Tracking System procedures to ensure program managers validate their
                                           assigned project timecards initially approved by Information Technology Business Management. TID: August 2013
CA-AR-13-001        10/9/2012      Best Value in the Purchasing Process

                                   R-1 — 	 Direct contracting managers to conduct periodic reviews of electronic and physical contract files to ensure that
                                           contracting officials maintain evidence of mandatory evaluations, price analysis, and review and approvals in the contract
                                           files. TID: November 2012

                                   R-2 — 	 Update the contract file transfer process to include a step to require the receiving contract officials to certify that contract
                                           files contain required documentation. TID: December 2012

                                   R-3 — 	 Direct contracting officials and higher-level approvers to ensure the accuracy of CAMS information and to adhere to
                                           the Supplying Principles and Practices to obtain appropriate written approval, prior to submitting or approving contract
                                           actions. TID: November 2012
DR-AR-13-001        10/11/2012     Delivery Operations Data Usage

                                   R-1 — 	 Streamline systems, reports (including exception based reporting) and data (including real-time data) to meet city delivery
                                           needs. TID: June 2012

                                   R-2 — 	 Re-emphasize city delivery operating procedures to new supervisors and managers. TID: October 2012




October 1, 2012 — March 31, 2013                                                                                                                                      43
  APPENDIX E




                              Report Title, Recommendation Summary
                              	             R = Recommendation number
Report Number   Issued Date   	             TID = Target Implementation Date
FT-AR-13-001    10/19/2012    Officer Compensation for Calendar Year 2011

                              R-1 — 	 Coordinate with the Board to ensure the Postal Service reports to the Office of Personnel Management and Congress a
                                      complete list of critical senior executive or equivalent positions allowed to receive total compensation in an amount not to
                                      exceed 120 percent of the total annual compensation payable to the vice president of the U.S. TID: September 2013

                              R-2 — 	 Request an interpretation from the Government Accountability Office on whether annuity payments are considered in an
                                      employee’s total compensation and subject to the Postal Act of 2006 compensation caps. TID: September 2013
MS-AR-13-001    12/6/2012     Delivery Unit Optimization Initiative

                              R-1 — 	 Revise delivery unit optimization guidelines to include a well-defined, consistent methodology for projecting cost savings
                                      and operational efficiencies. TID: March 2013

                              R-2 — 	 Develop a process to ensure the revised guidelines are applied consistently and post consolidation reviews are performed
                                      to accurately validate savings and efficiencies. TID: March 2013
SM-MA-13-001    12/17/2012    Accenture Federal Services Contracts

                              R-1 — 	 Direct the manager of the Technology Infrastructure Portfolio to require Accenture to implement corrective actions to
                                      address all Defense Contract Audit Agency deficiencies noted in its estimating system. TID: June 2013

                              R-3 — 	 Revise the policy and clauses for time and material contract types to include a definition of material handling costs and
                                      exclude payment of profit or handling fees on materials. TID: March 2013

                              R-5 — 	 Develop and implement a plan to train users and implement the SEER® for Software cost estimating tool into the
                                      Enterprise Technical Services proposal evaluation process. TID: September 2013
NO-MA-13-001    12/17/2012    Customer Service Feedback

                              R-1 — 	 Provide Business Service Network representatives training and access to Postal Service data systems such as Intelligent
                                      Mail barcode and Web Mail Condition Reporting Systems to enable them to better serve their customers.
                                      TID: March 2013
NO-MA-13-002    12/20/2012    Federal Express Air Transportation Container Weights

                              R-1 — 	 To the extent feasible, increase the Postal Service’s maximum allowable container weights when negotiating existing or
                                      future air transportation FedEx contracts with cubic-foot based compensation. TID: October 2013
HR-AR-13-001    12/24/2012    Workers’ Compensation Data Systems

                              R-1 — 	 Provide additional training for personnel responsible for entering and monitoring data in the Employee Health and
                                      Safety system. TID: None

                              R-2 — 	 Issue supplemental guidance and enhance internal controls to ensure that responsible officials consistently adhere to
                                      workers’ compensation claims management procedures. TID: None

                              R-3 — 	 Assess options to enhance and integrate the reporting capabilities of the Injury Compensation Performance Analysis
                                      System to provide management with data necessary for effective analysis and decision making. TID: None
DP-AR-13-001    1/3/2013      Caller and Reserve Service Operations

                              R-1 — 	 Implement, if feasible, an automated process to identify all inactive or unassigned caller and reserve service addresses by
                                      linking mailing data systems to the Web Box Activity Tracking System. TID: August 2013

                              R-3 — 	 Update caller and reserve service policies and procedures so they are consistent, clear, accurate, and easily located and
                                      accessible in one place. TID: July 2013




  44                                                                                                                        Semiannual Report to Congress
                                                                                                                                                     APPENDIX E




                                   Report Title, Recommendation Summary
                                   	             R = Recommendation number
 Report Number      Issued Date    	             TID = Target Implementation Date
 MS-AR-13-002       1/4/2013       Advertising Program

                                   R-2 — 	 Ensure that all invoices are properly reviewed, certified, and maintained. TID: February 2013

                                   R-3 — 	 Ensure that a mechanism is in place for tracking non-core team labor costs. TID: March 2013

                                   R-4 — 	 Develop a strategy for reasonably allocating costs to specific advertising campaigns. TID: March 2013

                                   R-5 — 	 Determine a strategy to ensure that certified invoices are retained in accordance with Postal Service policy.
                                           TID: February 2013
 IT-AR-13-003       1/28/2013      Fiscal Year 2012 Information Technology Internal Controls

                                   R-1 — 	 Implement corrective actions as coordinated between the Information Technology Sarbanes-Oxley Compliance
                                           Management Office and the U.S. Postal Service Office of Inspector General during the audit relating to monitoring efforts
                                           to ensure security monitoring software receives all necessary activity from UNIX servers. TID: September 2013

                                   R-2 — 	 Implement corrective actions as coordinated between the Information Technology Sarbanes-Oxley Compliance
                                           Management Office and the U.S. Postal Service Office of Inspector General during the audit relating to appropriate
                                           management of and access to tools used to monitor compliance with requirements for Active Directory implementation.
                                           TID: September 2013

                                   R-3 — 	 Implement corrective actions as coordinated between the Information Technology Sarbanes-Oxley Compliance
                                           Management Office and the U.S. Postal Service Office of Inspector General during the audit relating to use of scans,
                                           scripts, and monitoring efforts to confirm the installation and reporting of intrusion detection and prevention software or
                                           services on all in-scope Windows and UNIX servers. TID: September 2013

                                   R-4 — 	 Implement corrective actions as coordinated between the Information Technology Sarbanes-Oxley Compliance
                                           Management Office and the U.S. Postal Service Office of Inspector General during the audit relating to segregation of
                                           duties in the regular reviews of actions taken to assess Guardium log records. TID: September 2013

                                   R-5 — 	 Implement corrective actions as coordinated between the Information Technology Sarbanes-Oxley Compliance
                                           Management Office and the U.S. Postal Service Office of Inspector General during the audit relating to management of
                                           user accounts and incident records in the Symantec Security Information Management monitoring tool.
                                           TID: September 2013

                                   R-6 — 	 Implement corrective actions as coordinated between the Information Technology Sarbanes-Oxley Compliance
                                           Management Office and the U.S. Postal Service Office of Inspector General during the audit relating to compliance with
                                           expected Windows operating system configurations on in-scope servers. TID: September 2013

                                   R-7 — 	 Implement corrective actions as coordinated between the Information Technology Sarbanes-Oxley Compliance
                                           Management Office and the U.S. Postal Service Office of Inspector General during the audit relating to management
                                           review of all necessary data for the UNIX Directory Services configurations on in-scope servers. TID: September 2013

                                   R-8 — 	 Implement corrective actions as coordinated between the Information Technology Sarbanes-Oxley Compliance
                                           Management Office and the U.S. Postal Service Office of Inspector General during the audit relating to redesign of
                                           the control over UNIX configurations to remove duplication and better reflect expectations for controls over financial
                                           reporting. TID: September 2013

                                   R-9 — 	 Implement corrective actions as coordinated between the Information Technology Sarbanes-Oxley Compliance
                                           Management Office and the U.S. Postal Service Office of Inspector General during the audit relating to alignment of the
                                           procedures and processes used to test and approve UNIX patches before implementation in the production environment.
                                           TID: September 2013




October 1, 2012 — March 31, 2013                                                                                                                                    45
  APPENDIX E




                              Report Title, Recommendation Summary
                              	             R = Recommendation number
Report Number   Issued Date   	             TID = Target Implementation Date
SM-MA-13-004    2/12/2013     Hybrid Mail Efforts

                              R-1 — 	 Develop a business strategy to increase hybrid mail revenue for small- and medium-sized businesses if profitable and
                                      feasible (including transactional mail) and overcome privacy concerns. TID: None
IT-AR-13-004    3/4/2013      Web Server Security Assessment

                              R-3 — 	 Configure and patch operating systems for publicly accessible web servers according to Handbook AS-805, Information
                                      Security, requirements. TID: September 2013

                              R-4 — 	 Review web server configurations in accordance with policy to ensure servers remain configured according to security
                                      standards. TID: September 2013
SM-MA-13-002    3/15/2013     Trends and Systemic Issues in Defense contract Audit Agency Audit Work for Fiscal Years 2009-2012

                              R-1 — 	 Emphasize to contracting officials the importance of requesting Defense Contract Audit Agency audits of contractor
                                      accounting systems, significant equitable adjustment and termination claims, labor floor checks, and financial capability,
                                      where applicable, prior to contract award. TID: February 2013
MS-AR-13-005    3/18/2013     Residential Customer Service Experiences

                              R-1 — 	 Update the residential Customer Experience Measurement survey to allow customers to provide more definitive location
                                      identifiers (for example, Post Office™ name, city, and ZIP Code) that relate to their experiences. TID: March 2014

                              R-2 — 	 Develop a process to collect and analyze residential customer experience information from other access channels.
                                      TID: March 2014

                              R-3 — 	 Develop a strategy to design and implement corrective actions in a more timely and response manner when poor
                                      customer service experience scores are identified. TID: December 2013

                              R-4 — 	 Ensure that mechanisms are developed and implemented to track residential customer experiences as key operational
                                      initiatives are taken to improve the Postal Service’s financial condition. TID: December 2013
DR-MA-13-001    3/21/2013     Lessons Learned From Retail Optimization Initiatives

                              R-1 — 	 Process and approve or disapprove the remaining 600 Retail Access Optimization Initiative discontinuance proposals.
                                      TID: September 2014

                              R-2 — 	 Enhance communication plans with stakeholders by providing consistent, accurate, and timely information that supports
                                      retail optimization initiatives. TID: None

                              R-3 — 	 Develop and implement a formal post-implementation review that evaluates savings achieved and potential revenue loss
                                      associated with retail network realignments. TID: November 2013




  46                                                                                                                       Semiannual Report to Congress
                                                                                                                                                      APPENDIX E




                                   Report Title, Recommendation Summary
                                   	             R = Recommendation number
 Report Number      Issued Date    	             TID = Target Implementation Date
 NO-AR-13-001       3/21/2013      Washington Network Distribution Center – Postal Vehicle Service Operations

                                   R-1 — 	 Follow prescribed Postal Service standard operating procedures to the extent possible for live loading mail into trailers for
                                           immediate movement from the facility yard and consider the reduction of moves in future workload and staffing analyses.
                                           TID: March 2013

                                   R-2 — 	 Periodically assess Postal Vehicle Service truck driver workload and staffing requirements with respect to productivity
                                           standards to maintain appropriate staffing levels. TID: April 2013

                                   R-3 — 	 Eliminate 3,492 annual workhours associated with improving Postal Vehicle Service truck driver productivity to the
                                           Breakthrough Productivity Initiative standard of 40 moves per day, or 200 moves per week. TID: April 2013

                                   R-4 — 	 Ensure managers within the Capital Metro Area follow prescribed highway contract procedures for making highway
                                           contracts efficient, including the continual monitoring and adjustment of trips based on need. TID: May 2013

                                   R-5 — 	 Verify the elimination or modification of 24 trips from highway contracts initiated by management during our audit for a
                                           savings of about $800,000 annually. TID: March 2013

                                   R-6 — 	 Eliminate or modify 36 trips from highway contracts identified during our audit for a savings of about $1.3 million
                                           annually. TID: January 2013

                                   R-7 — 	 Continually re-emphasizes the safety policy that drivers must wear safety belts whenever their vehicles are in motion, and
                                           provide management oversight for enforcement. TID: January 2013

                                   R-8 — 	 Ensure Postal Service management repair exterior doors that have broken locks and security badge readers that do
                                           not operate and hold safety talks with all employees to highlight that security policy states exterior doors are not to be
                                           propped open with any devises to bypass security. TID: December 2012
 NO-MA-13-003       3/22/2013      High-Risk Voyager Policy and Procedure Changes for Highway Contract Routes

                                   R-1 — 	 Reverse the 2012 policy change or provide justification for the operational need and identify the costs and benefits for
                                           pooling across all contracts. TID: March 2013

                                   R-2 — 	 Not allow the proposed 2013 policy change, and ensure the policy continues to restrict the use of fuel purchased under
                                           the Voyager card program for non-Postal (non-HCR) purposes. TID: March 2013

                                   R-3 — 	 Provide explanation as to the basis and circumstances surrounding the consideration to remove from policy the
                                           requirement to notify the Office of Inspector General of suspicious or fraudulent circumstances. TID: None
 NO-MA-13-004       3/27/2013      Lessons Learned from Mail Processing Network Rationalization Initiatives

                                   R-1 — 	 Improve the communication process by ensuring accurate and consistent information is shared with stakeholders on
                                           consolidation impacts. TID: April 2013
 NO-AR-13-002       3/29/2013      Postal Service Performance During the Fiscal Year 2013 Fall Mailing Season

                                   R-1 — 	 Coordinate with Area Vice Presidents to ensure that all field personnel properly color-code Standard Mail in accordance
                                           with Postal Service policy and store mail transportation equipment to facilitate mail flow. TID: None




October 1, 2012 — March 31, 2013                                                                                                                                    47
APPENDIX F AND G




APPENDIX F
Significant Management Decisions in Audit Resolution
For the period October 1, 2012 – March 31, 2013

As required by the IG Act, the following discusses information concerning any significant management decision with which the Inspector General disagrees and
is currently in audit resolution.

None for this report period.




APPENDIX G
Status of Peer Review Recommendations
Federal audit organizations undergo an external quality control assessment by their peers every 3 years. The Dodd-Frank Wall Street Reform and Consumer
Protection Act of 2010 requires an appendix reporting on 1) any Office of Inspector General peer reviews conducted during the semiannual period; and 2) any
outstanding recommendations from any previous or current peer reviews that remain outstanding or have not been fully implemented.

Office of Audit
Internal Peer Reviews

The Postal Service Office of Inspector General underwent an internal peer review during this reporting period. The U.S. Department of Transportation OIG
conducted the peer review of our organization for the period covering April 1, 2011 – March 31, 2012, and issued a quality control review report of our audit
organization on December 18, 2012. We received a peer review rating of pass and received accolades for our effectively structured TeamMate® library that
facilitates compliance with Government Auditing Standards as well as internal OIG policies and procedures. All recommendations from previous peer reviews
have been fully implemented as of March 31, 2011.

A copy of this quality control review report, in its entirety, can be viewed on the USPS OIG website, www.uspsoig.gov.

External Peer Reviews

None conducted during this period.

Office of Investigations

Internal Peer Reviews

None conducted during this period.



External Peer Reviews

None conducted during this period.




48                                                                                                                              Semiannual Report to Congress
                                                                                                                                                                                               APPENDIX H




APPENDIX H
Investigative Statistics*
For the period October 1, 2012— March 31, 2013

                                                                                                          Convictions/         Admin.                                          Amt. to USPS      To Mgmt.
                                         Investigations                            Indictments/                Pretrial        Action          Cost    Fines, Restitution,   (from previous     for Admin.
                                            Completed              Arrests         Informations            Diversions**         Taken     Avoidance       and Recoveries          column)***        Action
Theft, Delay, or Destruction                              679            146                     102                     171     356             —             3,550,649            218,971           306
of Mail By Employees or
Contractors
Injury Compensation Fraud                                 393              31                     18                      22      80     $99,453,907      $1,879,102,957       $43,672,647            100
Official Misconduct                                       319              24                     10                      27     239        $62,500             $225,173           $178,560           210
Financial Fraud and                                      206               54                     43                      66      129     $6,077,320           $1,761,075        $1,701,814           136
Embezzlement
Contract Fraud                                             96                5                      5                     13      56    $119,684,325        $132,314,134       $26,662,436             26
Total                                                  1,693             260                     178                    299      860    $225,278,052     $2,016,953,988        $72,434,428            778


* Statistics include joint investigations with other law enforcement agencies.
** Convictions reported in this period may be related to arrests in prior reporting periods.
*** Amounts include case results of joint investigations with other OIG, federal, state, and local law enforcement entities.




October 1, 2012 — March 31, 2013                                                                                                                                                                        49
APPENDIX I




                                           APPENDIX I
                                           Summary of U.S. Postal Inspection Service Actions Under 39 USC § 3005 and 3007
                                           For the period October 1, 2012 — March 31, 2013


                                                                                                  Complaints      Consent               Cease &
                                           Type of Scheme                                              Filed   Agreements     FROs Desist Orders
                                           Advanced Fee                                                   —            —         —              —
                                           Charity                                                        —            —         —              —
Financial Reporting on                     Counterfeit Financial Instruments                               8            8         1              8
Investigative Activities for the           Coupon/Rebate fraud                                             1            1        —               1
Postal Inspection Service                  False Billings                                                 11            9         4             11
Type                                       Fraudlent Postage                                               1            1        —               1
Personnel                   $169,536,156   Identity Theft                                                 —            —         —              —
Nonpersonnel                 $34,128,881   Medical Product Fraud                                          —            —         —              —
TOTAL                       $203,665,037   Merchandise:
Total Capital Commitments      $258,664       Failure to furnish                                           3            3        —               3
                                              Failure to pay                                              13           11         2             11
                                           Misrepresentation                                               2            2         1              2
                                           Reshipping Scheme                                              14           14         2             14
                                           Sweepstakes/Lottery                                            46           41        12             41
                                           Work at home                                                    8            8        —               8
                                           TOTAL                                                         107           98        22            100

                                           Other Administrative Actions
                                           Administrative Action Requests                                                                       107
                                           Temp. Restraining Orders Requested                                                                   —
                                           Temp. Restraining Orders Issued                                                                      —
                                           Cases Using Direct Purchase Authority                                                                —
                                           Civil Penalties (Section 3012) Imposed                                                                1
                                           Test Purchases                                                                                       —
                                           Withholding Mail Orders issued (includes 1 Petition)                                                  7
                                           Voluntary Discontinuances                                                                            —



                                           Administrative Subpoenas Requested by the Postal Inspection Service
                                           There was one request during the reporting period.




50                                                                                                                     Semiannual Report to Congress
                                                                                                                                                                           APPENDIX J




APPENDIX J
All Closed Congressional/ PMG/BOG Inquires
For the period October 1, 2012­— March 31, 2013

This appendix lists the congressional, Postmaster General, and Board of Governors inquiries the OIG closed during this reporting period. OIG units reviewed or
investigated these inquiries to resolve allegations and disputes, and to help identify systemic issues. Inquires are listed in the chronological order of receipt.

 Inspector General Investigations (47)
 Requestor             Allegation/ Concern                                                       Major Findings                                                           Closure Date
 Senator, Indiana      Improprieties in administering an HVAC contract                           We determined the contractor inappropriately added labor hours and/           11/19/12
                                                                                                 or material costs to invoices. The Postal Service failure to include a
                                                                                                 clear pricing structure and other shortcomings in documentation led
                                                                                                 to a prosecutorial declination.
 Representative,       Non-receipt of mail containing a diamond ring sent to New York City via   We identified a postal employee at fault for numerous thefts. He was          11/19/12
 California            Express Mail                                                              prosecuted and sentenced, and resigned from the Postal Service.
 Senator, Missouri     Postal management misconduct, including harassment, mail handling         We learned Human Resources personnel were aware of and properly              01/08/13
                       irregularities, and falsification of records                              responded to harassment issues. We substantiated some allegations
                                                                                                 about discarded mail and falsified time records, but did not find
                                                                                                 management had initiated or condoned the practices.
 Ranking Member,       Massachusetts letter carrier used friends to help deliver mail and        Our joint investigation with the Boston Police Department determined         02/05/13
 Senate Committee      participated in criminal conduct while on duty                            the carrier was under the influence of a dangerous substance while
                                                                                                 on duty; gave a non-postal employee mail to deliver; and stole mail.
                                                                                                 He was found guilty and sentenced in November.
 Representative,       Non-delivery of mail containing paychecks                                 We conducted an investigation and found no evidence of employee               10/18/12
 Maryland                                                                                        misconduct.
 Representative,       Mail tampering and misconduct by postmaster, including deliberate         We did not substantiate the allegation and noted the landlord cited           12/19/12
 Arizona               disclosure of personal information, leading to complainant’s eviction     other reasons for the eviction.
 Representative,       Theft of mail containing gift card or checks                              We conducted an investigation and found no misconduct by postal              12/05/12
 New York                                                                                        employees. Absent serial numbers from the gift cards, no further
                                                                                                 investigation into the missing items was possible.
 Representative,       Non-delivery of two mailings containing passports                         We found an employee improperly handled the delivery of one                   10/18/12
 California                                                                                      passport. The State Department used the wrong ZIP Code in mailing
                                                                                                 the replacement.
 Senator, Nevada       Non-delivery of mail containing gift cards                                We conducted interviews, review of records, and controlled testing            11/27/12
                                                                                                 that produced no evidence of mail theft by a postal employee. The
                                                                                                 complainant did not respond to our request for additional information
                                                                                                 that might warrant further investigation.
 Senator, Colorado     Postal management misconduct in denying access to a PO Box held by        As the property owners’ association left no documentation allowing            10/18/12
                       a property owners’ association                                            complainant access to the PO Box, management followed proper
                                                                                                 protocol.




October 1, 2012 — March 31, 2013                                                                                                                                                     51
APPENDIX J




 Requestor              Allegation/ Concern                                                       Major Findings                                                            Closure Date
 Representative, Utah   OIG harassment, stalking, and mail tampering following investigation of   While we documented a case culminating in an indictment in 2010,              12/28/12
                        injury compensation                                                       we found nothing to substantiate an active investigation of the
                                                                                                  complainant.
 Representative, Ohio   Non-delivery of mail containing a National Honors Society pin             We found no misconduct by any postal employee. We found it                     11/01/12
                                                                                                  plausible that incorrect packaging by the sender led to machine
                                                                                                  damage and loss.
 Representative,        Postal employee harassed and intentionally withheld delivery of mail to   Management had already addressed the matter through                            12/14/12
 Maryland               a postal customer.                                                        administrative action; we investigated non-delivery issues and found
                                                                                                  no pattern on the delivery route.
 Councilmember,         Non-receipt and irregular delivery of mail                                Our investigative efforts produced no evidence to substantiate the             02/12/13
 New York                                                                                         allegation that mail delivery was inconsistent and inaccurate.
 Representative,        Non-delivery of mail containing gemstones after tracking information      We conducted an investigation but could not determine the source of            11/26/12
 Virginia               indicated delivery to at PO Box                                           the loss.
 Senator, New           Postal employee misconduct including harassment and mail tampering        Our investigative efforts produced no evidence to substantiate the             02/12/13
 Hampshire                                                                                        allegation that a postal employee fraudulently ordered multiple
                                                                                                  magazine subscriptions in complainant’s name or delayed or
                                                                                                  tampered with mail delivered to her address.
 Senator, Maryland      Postal management misconduct including Hatch Act violation                We found no evidence of violations of the Hatch Act, and no attempt           03/05/13
                                                                                                  to interfere with, or influence, an election or engage in partisan
                                                                                                  political activity.
 Delegate,              Non-delivery of a postal parcel, and failure to notify sender of          We found the Mail Recovery Center (MRC) did not notify the sender in           12/19/12
 Virgin Islands         recovered mail                                                            the mistaken belief that her Virgin Islands address lies outside of the
                                                                                                  United States. The Office of Government Relations intervened with the
                                                                                                  MRC as to the misstatement. However, we were not able to locate all
                                                                                                  the missing items.
 Representative,        Postal management and OIG misconduct in regard to her denial of           Our investigation determined the complainant’s time on workers’                11/01/12
 Pennsylvania           workers’ compensation benefits                                            compensation exceeded expectations for this type of injury; she
                                                                                                  engaged in activities inconsistent with a doctor’s restrictions; and
                                                                                                  she was cleared to return to work but did not. Such matters are
                                                                                                  subject to grievance. We reviewed OIG agents’ activities and, absent
                                                                                                  any specific allegations, did not find issues warranting further
                                                                                                  investigation.
 Senator, Louisiana     Postal management misconduct including falsification of postal            We found no evidence of misconduct or improprieties at the location,           03/11/13
                        records, improper mail handling, and discrimination                       but found a record of workplace tension and that management was
                                                                                                  responding.
 Representative,        Non-delivery of a postal parcel containing an automotive turbocharger     We conducted an investigation and placed test packages within the              11/14/12
 Florida                                                                                          mailing center, and could not account for its disappearance en route
                                                                                                  to Atlanta from Jacksonville. We found no indication of employee
                                                                                                  misconduct.
 Representative,        Postal management misconduct, including failure to comply with            The Postal Inspection Service previously reviewed safety aspects of            03/11/13
 New York               protocol related to packages containing hazardous substances, and         the matter. As to WBR, we determined the complainant had made no
                        whistleblower retaliation (WBR)                                           protected disclosure, a threshold requirement for postal WBR status.
 Representative,        Postal management misconduct, e.g., falsification of records, and         We determined the transfer of employee work hours, for accounting              01/10/13
 Georgia                hostile work environment                                                  purposes, from a suspended post office to a gaining facility is
                                                                                                  allowed under postal policy and is not falsification. An involuntary
                                                                                                  reassignment was not part of a hostile work environment; instead it
                                                                                                  related to discipline and a manager’s failure to follow direction.




52                                                                                                                                                    Semiannual Report to Congress
                                                                                                                                                                                  APPENDIX J




 Requestor              Allegation/ Concern                                                         Major Findings                                                               Closure Date
 Senator, Florida       Hostile work environment and management misconduct                          We found no evidence of workplace climate issues related to this                 01/29/13
                                                                                                    one, which involved a verbal altercation between two employees and
                                                                                                    one of their spouses, and determined there was no evidence of a
                                                                                                    hostile work environment. We found no misconduct by management
                                                                                                    relating to delays and performance reporting. However, we did find a
                                                                                                    discrepancy between local procedures and national policy for timely
                                                                                                    delivery of PO Box Mail, which we reported to District management
                                                                                                    for action.
 Representative,        Postal employee misconduct including mail theft and tampering               We conducted an investigation and could not confirm theft or                      11/05/12
 Louisiana                                                                                          wrongful changes of address.
 Senator, Florida       Postal management harassment, discrimination, and misconduct                The complainant sought administrative relief concerning workplace                 11/30/12
                                                                                                    issues and, as a result, the OIG will not interfere in resolution of those
                                                                                                    matters. We declined to open a formal investigation of other charges,
                                                                                                    for which no specifics were provided.
 Representative,        Non-delivery or theft of postal parcel                                      We confirmed tracking information indicated some of the packages                 03/26/13
 Michigan                                                                                           were interrupted in transit. We conducted a mail test, which arrived
                                                                                                    intact and with no signs of tampering. Postal database searches
                                                                                                    found no similar complaints during the timeframe or route the
                                                                                                    packages took.
 Senator,               Mail tampering and theft                                                    We found the letter carrier and the customer disagreed about the                 02/05/13
 New Hampshire                                                                                      mail box that is assigned to address, leading to a perceived delay.
                                                                                                    Management addressed the issue.
 Representative,        Non-receipt of certified letter and forged signature on mail receipt        We confirmed that the paperwork for the item wrongly indicated                   01/08/13
 South Carolina                                                                                     delivery and signature at an incorrect address. Management could
                                                                                                    not account for the ultimate whereabouts of the item, but took the
                                                                                                    appropriate actions to address operational issues.
 Delegate,              Non-receipt of Certified Mail receipt, and non-delivery of Certified Mail   Due to the passage of time and unavailability of parties, we could                03/11/13
 District of Columbia   occurring in 2011                                                           not determine the whereabouts of the missing mail and receipts. We
                                                                                                    established that personnel were knowledgeable as to procedures and
                                                                                                    policies for handling Certified Mail.
 Representative,        Misdelivered mail and malfunctioning Change of Address (COA) system Because of similarities in a father’s and son’s first four letters of                    01/08/13
 Florida                                                                                    first and last names, the computerized system feeding into the COA
                                                                                            System did not properly record changes for the two. We worked with
                                                                                            postal management to resolve the delivery issue.
 Senator, Delaware      Postal management misconduct, including mail fraud and delay of mail        We found discrepancies in local procedures and postal policy;                    03/26/13
                                                                                                    learned some mail was delayed after being intentionally hidden; and
                                                                                                    documented parcels being falsely scanned as “attempted delivery;”
                                                                                                    management at the post office-level falsified clock rings and entered
                                                                                                    false signatures on a postal document.
 Representative,        Assistance in obtaining a response from the US Attorney regarding           We undertook no formal work as the US Attorney declined to file                   11/26/12
 Maryland               alleged perjury by postal management                                        charges and because our investigative jurisdiction ended once the
                                                                                                    employees separated from the Postal Service in early 2012.
 Representative,        Postal employee misconduct, falsifying a COA request                        We determined a postal employee created and forged a COA form,                   02/19/13
 Maryland                                                                                           causing the customer’s mail to be forwarded to an unrelated party in
                                                                                                    Texas without her permission.
 Representative,        Management retaliation following complainant’s cooperation as a             The matters of the WBR following participation in EEO proceedings                 11/05/12
 Alabama                witness in an EEO case.                                                     are not within OIG jurisdiction. We provided contact information for
                                                                                                    the EEOC USPS.




October 1, 2012 — March 31, 2013                                                                                                                                                            53
APPENDIX J




 Requestor            Allegation/ Concern                                                    Major Findings                                                               Closure Date
 The White House      Misconduct, including invasion of privacy and wiretapping, following   Postal investigative agencies could not substantiate through their                12/07/12
                      complainant filing an OSHA complaint against the Postal Service        records that any of the alleged events or surveillance occurred.
 Representative,      Non-delivery of letter mail                                            The complainant’s mail was in fact missing, found among roughly                  03/04/13
 New Jersey                                                                                  1,400 pieces of mail recovered in October 2012. After analyzing the
                                                                                             mail, our investigation found that the mail had been abandoned. We
                                                                                             reported findings to Postal management for review and action.
 Postmaster General   Failure by OIG to properly investigate a retaliation complaint         We previously reviewed the case and the work of the investigators.                12/14/12
                                                                                             Complainant provided no basis to reopen the matter.
 Senator,             Non-receipt, destruction, and tampering of mail parcel                 Our investigation documented that one damaged parcel was                         03/08/13
 South Carolina                                                                              retaped by a postal employee, with supervisory approval, prior to
                                                                                             delivery. Employees recalled other damaged packages arriving at
                                                                                             the Post Office for delivery to complainant. We found no link to other
                                                                                             investigations or patterns of theft related to this complaint.
 Senator, Florida     Postal management misconduct, involving refusal to approve Family      The complainant sought administrative relief concerning workplace                 02/15/13
                      and Medical Leave Act-covered leave and falsifying documents; and      issues and, as a result, the OIG will not interfere in resolution of those
                      hostile work environment                                               matters.
 Representative,      Failure to conduct proper investigation and cover-up of postal         Complainant in April 2012 sought an investigation of postal officials.            12/21/12
 Colorado             wrong-doing                                                            We find no basis to reopen our decision in May 2012 to refer the
                                                                                             matter to postal management. The Inspector General Act does not
                                                                                             require that we investigate every complaint, and accords the agency
                                                                                             wide investigative latitude and discretion.
 Representative,      Non-receipt, theft, and delay of mail                                  The matter was referred to OIG in December, and we learned the                    12/17/12
 Massachusetts                                                                               Postal Service had already resolved the problem.
 Representative,      Postal management misconduct                                           While we produced no evidence to substantiate the allegations,                   02/19/13
 Pennsylvania                                                                                we learned that a grievance complainant filed is resolving issues
                                                                                             concerning back pay for administrative leave hours.
 Chairman,            Improper OIG investigation of WBR complaints; and improper handling    Our investigation was terminated following complainant’s refusal to               12/31/12
 Senate Committee     of mail to a Senate office                                             cooperate.
 Chairman,            Postal management harassment, discrimination, and misconduct           The complainant sought administrative relief concerning workplace                 02/12/13
 Senate Committee                                                                            issues and, as a result, the OIG will not interfere in resolution of those
                                                                                             matters. We declined to open a formal investigation of other charges,
                                                                                             for no specifics were provided.
 Senator, Ohio        Postal management fraudulently withheld, signed, and cashed            Our investigation found the complainant’s own error led to an                    01/29/13
                      complainant’s paycheck                                                 overpayment. Management’s effort to recover the overpayment was
                                                                                             not fraudulent, but the methods used are under review. As there is a
                                                                                             pending grievance, we closed our investigation.
 Board of Governors   Mail tampering and destruction by postal employee                      Our mail integrity tests all arrived intact. However, we heard                   03/04/13
                                                                                             comments about misdelivered mail and how a customer might open
                                                                                             the mail item by accident.




54                                                                                                                                                  Semiannual Report to Congress
                                                                                                                                                                              APPENDIX J




 Inspector General (IG) Audits / Risks Analysis Research Center Reports (5)
 Requestor              Allegation/Concern                                                        Major Findings/Resolution                                                  Closure Date
 Senator, Iowa          Postal management compliance with rules for post office closures and      We conducted formal work, Audit Report - MS-AR-13-001, Delivery                12/06/12
                        DUO process                                                               Unit Optimization Initiative. We found management generally complied
                                                                                                  with DUO guidelines, but the guidelines were limited and did not
                                                                                                  provide district management a well-defined methodology to project
                                                                                                  and validate savings and efficiencies. A detailed review of five sites
                                                                                                  found mixed results.
 Representative,        Postal management issues affecting postmasters                            We provided a copy of Audit Report - MS-AR-13-001, Delivery Unit               12/26/12
 Connecticut                                                                                      Optimization Initiative. We also invited confidential complaints via our
                                                                                                  Hotline.
 Representative,        Request a review of the involuntary reassignments as result of postal     The National Postal Mail Handlers Union (NPMHU) asked for an                    12/17/12
 California             management steps to consolidate operations at the Midway and              assessment of workplace environment at the Margaret Sellers
                        Margaret Sellers facilities                                               location. We did not find a basis for investigation, and asked the
                                                                                                  Office of Audit (OA) whether they had relevant work underway. OA
                                                                                                  suggested they review our work on the shortcomings in postal efforts
                                                                                                  to adjust workhours as mail volumes decline, and other efforts to
                                                                                                  achieve all possible efficiencies in mail processing operations.
 Chairman, House        Request assessment to identify specific IG opportunities for savings to   We recommended, in short term, reducing workhours for network                  12/28/12
 Committee              combat waste in the federal bureaucracy                                   optimization; moving to curbside delivery; restructuring city delivery
                                                                                                  workforce; matching federal health care employee contribution rates;
                                                                                                  and reducing workhours for retail optimization. In the longer term,
                                                                                                  we recommended 5-day delivery; pursuing legislative action relevant
                                                                                                  to the current pension and future pension surpluses; reforming
                                                                                                  FECA for retirement age employees; replacing manual processing
                                                                                                  for revenue, pieces, and weights data collection; outsourcing
                                                                                                  opportunities.
 Co-chairs, Bicameral   Request assessment of the extent of the Postal Service efforts to         Reviewed the U.S. Postal Service efforts, assessed the progress                03/29/13
 Task Force             prepare and respond to the threat from climate change                     towards legislated goals, and provided a guide to prior relevant audit
                                                                                                  work.




October 1, 2012 — March 31, 2013                                                                                                                                                        55
APPENDIX J




 General Counsel and Support Functions (9)
 Requestor                 Allegation/ Concern                                                    Major Findings/ Resolution                                                Closure Date
 Ranking Members,          Requested periodic reports to support oversight activities             We provided listings of our unpublished investigations, certain               12/20/12
 Two Senate                                                                                       prosecutorial declinations, status of audit recommendations, and
 Committees                                                                                       other items.
 Representative, North     FOIA request for mail theft investigative records                      The FOIA Office redacted and released documents.                               11/13/12
 Carolina
 Chairman, Senate          Report on First-Class Mail on Air Transportation                       We provided the report, a briefing, and updates: NL-AR-12-003,                 11/27/12
 Committee                                                                                        Density of First-Class Mail on Air Transportation.
 Ranking Member,           SEC investigation report                                               Report sent.                                                                   11/27/12
 Senate Committee
 Ranking Member,           SEC investigation report                                               Report sent.                                                                   11/29/12
 Senate Committee
 Representative, Florida   OIG management failure to assist in personnel matters                  OIG Human Resources personnel resolved this issue.                            02/04/13
 Representative,           Wrongful termination from the OIG                                      Our Human Resources personnel responded about agency action and               01/22/13
 Maryland                                                                                         employee rights and remedies.
 Representative,           Guidance pertaining to the Law Enforcement Officers Safety Act of      We provided Human Resources personnel contact information.                     02/14/13
 New York                  2004
 Senator, Maryland         Postal Service misconduct, falsification of delivery confirmation of   We found that the package had in fact been delivered to the OIG of            03/08/13
                           package sent to OIG                                                    the U.S. Equal Employment Opportunity Commission (EEOC) and not
                                                                                                  the Postal Service Office of Inspector General.




 Referrals (1)
 Requestor                 Allegation/ Concern                                                    Major Findings/ Resolution                                                Closure Date
 Senator, Idaho            Non-delivery and theft of mail                                         Loss appears to have occurred outside of the jurisdiction of the Postal       03/28/13
                                                                                                  Service and OIG; referred to the Inspection Service.




56                                                                                                                                                     Semiannual Report to Congress
                                                                                              FREEDOM OF INFORMATION ACT/WORKPLACE ENVIRONMENT




SUPPLEMENTAL INFORMATION                                                          SUPPLEMENTAL INFORMATION
Freedom of Information Act                                                        Workplace Environment
The OIG’s Freedom of Information Act (FOIA) Office operates independently         The OI Workplace Environment unit reviews workplace environment and
of, but frequently coordinates with, its counterparts at the Postal Service and   operational issues that may affect workplace climate in postal facilities
the Postal Inspection Service. The FOIA Office receives requests for records      through the country. The OIG Hotline is the usual source for the complaints,
from the public, the media, and postal employees. The FOIA, according to          but occasionally members of Congress, the Governors, and postal
the Department of Justice, “generally provides that any person has a right,       management will raise concerns or forward complaints appropriate for
enforceable in court, to obtain access to federal agency records, except to       review by the unit. Complaint topics range from sexual harassment and
the extent that such records (or portions of them) are protected from public      discrimination to workplace safety. Workplace Environment reviews are
disclosure by one of nine exemptions.”                                            designed to identify systemic, rather than individual, issues and foster
                                                                                  postal management efforts toward providing employees a stress- and
For the period October 1, 2012, to March 31, 2013                                 adversity-free work environment.

                                                                                  The unit accepts complaints from any postal employee, including OIG
                                                                                  and Postal Inspection Service staff. Reviews may result in fact-finding
Requests                                               Number of Requests         reports to management or referral for specific suggested action, such as
Carryover from prior period                                                 24    climate assessments.
Received during period                                                     319
Total on hand during period                                                343    Activities

                                                                                  For the period October 1, 2012 - March 31, 2013
Actions                                                Number of Requests
Processed during the period                                                316     Complaints Received                                                          Total
	    Requests denied in full                                                 8     Carryover from prior period                                                     40
	    Requests granted in full                                               11     Complaints received from OIG Hotline, Congress, governors, management,         204
	    Requests denied in part                                               119     internal, and other

	    No records                                                             25     Total on hand during this period                                               244

	    Requests referred                                                      46
	    Requests withdrawn                                                     16     Workplace Environment Actions                                                Total
	    Fee-related reasons                                                     9     Complaints reviewed and closed during the period                               201

	    Records not reasonably described                                       —      Referred to Postal Inspection Service                                            1

	    Not a proper FOIA request for some other reason                         9     Referred to Office of Audit                                                      1

	    Not an agency record                                                   67     Referred to Office of Investigations                                             1

	    Duplicate request                                                       6     Referred to Workplace Environment                                               56
                                                                                   Referred to Hotline                                                              1
Balance                                                Number of Requests          Referred to Summary of findings to Congress/BOG/Postal Service                  93
                                                                                   Management
Balance at the end of the period (pending)                                  27
                                                                                   Referred to FOIA                                                                —

Processing Days                                              Number of Days        Referred to AIG for Investigations                                              —

Median processing days to respond to a FOIA request                           5    Referred to Database for statistical analysis and possible systemic review      48
                                                                                   Complaints pending at the end of the period                                      3




October 1, 2012 — March 31, 2013                                                                                                                                        57
Acronym Guide




                            Acronym Guide
                            Here is a quick guide to acronyms used in this reporting period.

                            APPS: Automated Package Processing System                                 NALC: National Association of Letter Carriers

                            APWU: American Postal Workers Union                                       NCSC: National Customer Support Center

                            C&A: certification and accreditation                                      NDC: network distribution center

                            CSRS: Civil Service Retirement System                                     NPV: net present value

                            CSS: customer service supervisor                                          OA: Office of Audit

                            DBCS: Delivery Barcode Sorter                                             OI: Office of Investigations

                            DOL: U.S. Department of Labor                                             OWCP: Office of Workers’ Compensation Programs

                            DEA: Drug Enforcement Administration                                      P&DC: processing and distribution center

                            DWC: distribution window clerk                                            P&DF: processing and distribution facility

                            eCBM: Electronic Conditional Based Maintenance                            PAEA: Postal Accountability and Enhancement Act of 2006
                                                                                                            (also known as the Postal Act of 2006)
                            EDDI: Electronic Data Distribution Infrastructure
                                                                                                      PKI: Public Key Infrastructure
                            EDI: Electronic Data Interchange
                                                                                                      PRC: Postal Regulatory Commission
                            EIR: Enterprise Information Repository
                                                                                                      PVS: Postal Vehicle Services
                            FEGLI: Federal Employees’ Group Life Insurance
                                                                                                      RARC: Risk Analysis Research Center
                            FEHB: Federal Employees Health Benefits
                                                                                                      SBOC: Stations and Branches Optimization Consolidation
                            FSS: Flats Sequencing System
                                                                                                      SSA: sales and services associate
                            GMU: George Mason University
                                                                                                      TACS: Time and Attendance Collection System
                            HCR: highway contract route
                                                                                                      VMF: Vehicle Maintenance Facility
                            LLV: long-life vehicles

                            MTE: mail transport equipment




     © 2012. USPS. All Rights Reserved. The following are among the many trademarks owned by the United States Postal Service: United States Postal Service®, United States Postal Service®
     with Eagle Design, U.S. Postal Service®, USPS®, First-Class Mail®, usps.com®, Click-N-Ship®, Automated Postal Center®, APC®, Express Mail®, Priority Mail®, Standard Mail®, Parcel
     Post®, Media Mail®, Customized MarketMail®, Intelligent Mail®, Parcel Select®, Express Mail International®, Quick, Easy, Convenient®, United States Postal Service Office of Inspector
     General® with Eagle Design, Post Office™, Postal Service™, Signature Confirmation™, Certified Mail®, Delivery Confirmation™, Registered Mail™, ZIP Code™, Priority Mail International®,
     First-Class Mail International®, Premium Forwarding Service®, Forever®, gopost®, Priority Mail Flat Rate®, DMM®, PostalOne!®, USPS Delivery Confirmation®, Approved by the
     Postmaster General®, and Postmaster General™.




58                                                                                                                                                   Semiannual Report to Congress
Who do I call?
The U.S. Postal Service has two law enforcement agencies with distinct areas of investigative
responsibility to serve the needs of stakeholders, postal employees, and the American public.
            Office of Inspector General                            Postal Inspection Service
            ■■ 	 Theft, delay, or destruction of mail              ■■ 	 Security of employees, facilities, and equipment
                 by employees and contractors                      ■■ 	 Revenue and postage fraud
            ■■ 	 Workers’ compensation fraud                       ■■ 	 International mail security
            ■■ 	 Embezzlements and financial crimes                ■■ 	 Violent crimes:
            ■■ 	 Contract fraud                                         - Threats and assaults of employees
            ■■ 	 Kickbacks                                              - Burglaries and robberies
            ■■ 	 Computer crimes                                   ■■ 	 Mail theft by nonemployees
            ■■ 	 Narcotics                                         ■■ 	 Dangerous mail and bombs
            ■■ 	 Employee misconduct                               ■■ 	 Mail fraud
            ■■ 	 Internal affairs and executive investigations     ■■ 	 Identity theft
            ■■ 	 Whistleblower reprisals                           ■■ 	 Narcotics in the mail
                                                                   ■■ 	 Child pornography and obscenity

            Contact: 888-877-7644                                        Contact: 877-876-2455
                   www.uspsoig.gov                                  http://postalinspectors.uspis.gov
U.S. POSTAL SERVICE OFFICE OF INSPECTOR GENERAL
1735 N. Lynn Street, Arlington, VA 22209-2020
1-888-USPS-OIG (1-888-877-7644) Fax: 703-248-2291 www.uspsoig.gov
